<html>
<title> - AMERICA'S GLOBAL DIALOG: SHARING AMERICAN VALUES AND THE WAY AHEAD FOR PUBLIC DIPLOMACY</title>
<body><pre>[Senate Hearing 107-692]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-692
 
 AMERICA'S GLOBAL DIALOG: SHARING AMERICAN VALUES AND THE WAY AHEAD FOR 
                            PUBLIC DIPLOMACY
=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 11, 2002

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate
?






                       U. S. GOVERNMENT PRINTING OFFICE
81-880                          WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001

                     COMMITTEE ON FOREIGN RELATIONS

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
PAUL S. SARBANES, Maryland           JESSE HELMS, North Carolina
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       GORDON H. SMITH, Oregon
PAUL D. WELLSTONE, Minnesota         BILL FRIST, Tennessee
BARBARA BOXER, California            LINCOLN D. CHAFEE, Rhode Island
ROBERT G. TORRICELLI, New Jersey     GEORGE ALLEN, Virginia
BILL NELSON, Florida                 SAM BROWNBACK, Kansas
JOHN D. ROCKEFELLER IV, West         MICHAEL B. ENZI, Wyoming
    Virginia

                   Antony J. Blinken, Staff Director
            Patricia A. McNerney, Republican Staff Director

                                  (ii)

  





                            C O N T E N T S

                              ----------                              
                                                                   Page

Beers, Hon. Charlotte, Under Secretary of State for Public 
  Diplomacy and Public Affairs, Department of State, Washington, 
  DC.............................................................     7
    Prepared statement...........................................    11
    Responses to additional questions for the record.............    61
Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, prepared 
  statement......................................................     4
Feingold, Hon. Russell D., U.S. Senator from Wisconsin, prepared 
  statement......................................................    64
Gingrich, Hon. Newt, former Speaker, U.S. House of 
  Representatives; senior fellow, American Enterprise Institute, 
  Washington, DC.................................................    33
    Prepared statement...........................................    36
Ginsberg, Hon. Marc, former Ambassador to Morocco; CEO and 
  managing director, Northstar Equity Group, Washington, DC......    39
    Prepared statement...........................................    42
Hoffman, David, president, Internews, Arcata, CA.................    45
    Prepared statement...........................................    48
Keith, Amb. Kenton W., chair, Alliance for International 
  Education and Cultural Exchange and senior vice president, 
  Meridian International Center, statement submitted for the 
  record.........................................................    73
Kennedy, Hon. Edward M., U.S. Senator from Massachusetts, 
  prepared statement and a series of letters in support of the 
  Cultural Bridges Act of 2002...................................    65
Pattiz, Hon. Norman J., Governor, Broadcasting Board of 
  Governors, Washington, DC......................................    13
    Prepared statement...........................................    16
Surroi, Veton, chairman, KOHA Media Group, Pristina, Kosovo......    50
    Prepared statement...........................................    53

                                 (iii)

  


AMERICA'S GLOBAL DIALOG: SHARING AMERICAN VALUES AND THE WAY AHEAD FOR 
                            PUBLIC DIPLOMACY

                              ----------                              


                         TUESDAY, JUNE 11, 2002

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:55 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Joseph R. 
Biden, Jr. (chairman of the committee), presiding.
    Present: Senators Biden, Dodd, Boxer, Bill Nelson, Lugar, 
Hagel, Chafee and Brownback.
    The Chairman. The hearing will come to order. As I just 
explained to our first panel and I will say to the audience, we 
apologize for getting started late. The Foreign Relations 
Committee had a private meeting with Prime Minister Sharon and 
it ran a little late, but in fact what we are about to speak to 
today quite frankly will have some serious impact on how well 
we do on many various issues we discussed with Prime Minister 
Sharon today.
    As we consider public diplomacy in the 21st century, we are 
very mindful that our voice competes amidst the cacophony of 
voices shaping global opinion in a way that has never occurred 
before. Today, with the Internet, satellite, radio and TV 
networks providing instantaneous and often unfiltered and 
selectively unfiltered information, public diplomacy is more 
important and more difficult than it has ever been before, in 
my view. No matter how powerful our military, we will not be 
able to achieve all of our foreign policy objectives if we lose 
the war of ideas. In public diplomacy we must use our most 
powerful tool, truth. Truth, credibility and openness.
    As the legendary journalist and former USIA Director Edward 
R. Murrow said, and I quote, ``truth is the best propaganda, 
and lies the worst.'' I cannot emphasize that enough. What we 
are about here today, what we have been about, and what the 
Secretary has been about, is not about trying to shape an 
incorrect image of our views or ideas and our people, but the 
truth, openness, and credibility which will flow from the 
former truth and openness.
    We are going to have to reach out to people in their own 
language and in their own terms, and we must foster the free 
flow of ideas, even if it is sometimes critical for the United 
States of America. We do not expect anyone to like us, or 
everyone to like us, I should say, but there is no good reason 
for us to be so misrepresented and misunderstood. We are one of 
the most advanced centers of communication in the world. We 
should be more successful when we reach out. We should be 
better able to get the facts out, and if we do a better job, 
those who question our motives and reinterpret the facts will 
have a much tougher time getting traction in public opinion in 
other parts of the world. Today, I hope to explore what we can 
do to explain ourselves better and promote understanding, and I 
hope we will learn what more we can do, and how we should 
organize to do it.
    All we want is a real chance for the facts to come before 
the people of the world, particularly, I would say at this 
moment, the Muslim world, 1.2 billion people, and let them make 
up their own mind. I am not asking to be loved. I am not asking 
to be embraced. I am just asking that we have a fair chance to 
be understood.
    There are countless examples of where we do this well. I 
know the State Department's Web site, for example, offers 
content in Chinese, Arabic, Spanish, French, Russian, in 
addition to English. It gets more than 4 million hits a month, 
I am told. After 9/11, the United States and our allies set up 
coalition information centers in London, Islamabad, and 
Washington to coordinate messages, combat misinformation, and 
to stay ahead of the 24-hour global news cycle.
    USAID worked with NGOs like Open Society Institute to 
support the development of independent media organizations in 
the former Yugoslavia in the Milosevic regime, which I am now 
happy to say he is in jail and being tried. The now-famous 
Radio B-2 in Belgrade played a critical role in forming the 
opposition to and the eventual ouster of and arrest of 
Milosevic. The U.S. Government's assistance to the American 
NGOs search for common ground helped create multi-ethnic 
versions of Sesame Street that has promoted tolerance between 
the children of Macedonia and Cyprus.
    Despite these successful programs and others I could 
mention, the hard work of people like Under Secretary Beers and 
her predecessor, Evelyn Lieberman, America's public diplomacy 
still falls short of where it needs to be. Four years ago, this 
committee led the way in devising a merger of the former U.S. 
Information Agency into the Department of State. The goal of 
this reorganization was to integrate the policymakers and 
public diplomacy specialists. The merger of two different 
cultures has taken time, and is not yet complete.
    Public diplomacy considerations are still not, in my view, 
fully incorporated into the public formulation process. There 
is still not adequate interagency coordination, although it is 
much better, and we still do not have a national information 
strategy providing the long-term vision of where the American 
public diplomacy needs to be, and we are still doing public 
diplomacy on the cheap, with funding cuts half what it was in 
1994 and today. As I always say, if you want to know what we 
value, follow the money. Take a look at the budget.
    Today's hearing will look at what the State Department and 
other agencies are doing and should be doing to promote our 
public diplomacy agenda. We consider developments in U.S. 
international broadcasting, particularly the Middle East Radio 
Network, the brainchild of one of our witnesses today, and the 
Broadcasting Board of Governors. It is an FM and AM digital 
satellite network that spans the Arabic-speaking world, 
targeting young audiences with innovative programming. Early 
indications are that it is going swimmingly well and 
impressively gaining adherence and customers who want to 
listen.
    We have two people before us, by the way, who in their 
private lives have demonstrated they know how to get people to 
listen. They know how to make it work, and Norm Pattiz has made 
a moderately good living at knowing how to do that.
    Should this radio model be replicated elsewhere, is one of 
the questions we want to talk about today. Should we establish 
a companion U.S. satellite television network?
    We will also examine what the United States can do to 
encourage the development of indigenous independent media where 
it does not exist today. As we have learned, for better or 
worse, people tend to trust local sources of news and 
information more than they do foreign sources. Without a free, 
fair, and open flow of information in these societies, 
propaganda and misinformation are able to flourish. It is in 
our interests to have professional journalism abroad promoting 
the internal dialog that serves their interests as well. Public 
diplomacy is not just about what we say. It is about promoting 
an environment in which multiple voices, including our own, can 
be heard.
    We will hear today from two panels of witnesses to advise 
us on these issues. Our first panel includes Under Secretary of 
State for Public Diplomacy, Charlotte Beers, and in full 
disclosure my personal friend Norm Pattiz, representing the 
Broadcasting Board of Governors. Under Secretary Beers has 
served as CEO for two of the world's largest advertising 
agencies, J. Walter Thompson, and Ogilvy and Mather. Norm 
Pattiz is the founder and chairman of Westwood One, America's 
largest radio network company, and some other interests as 
well.
    Our second panel includes Ambassador Marc Ginsberg, a 
former Ambassador to Morocco and now CEO and managing director 
of Northstar Equity Group. We will be joined by a man who, to 
use the old cliche, needs no introduction in this town, the 
former Speaker of the House, Newt Gingrich, and we are happy to 
have the Speaker here. Speaker Gingrich is now the CEO of 
Gingrich Group, an Atlanta-based communications and management 
consulting firm, and serves as senior fellow of the American 
Enterprise Institute, and I would like him disseminating 
information abroad and not in Delaware for a long time. I wish 
him well. I would like to have him go full-time on dealing with 
other countries.
    But welcome, Mr. Speaker. We love you in Delaware, but they 
love you too much in Delaware.
    David Hoffman, the president of Internews Network, a global 
nonprofit organization that supports open media worldwide, will 
be our next witness, and he will be followed by a man for whom 
I have great respect and I have met numerous times during our 
efforts in the Balkans, Veton Surroi, chairman of KOHA Media 
Group in Kosovo and a leading advocate for democracy and 
independent media in Kosovo, and a man who I could go on for a 
long time to talk about. Had we listened to his advice, in my 
view, in 1994, we would have made progress even faster in the 
region.
    I would also now like to invite Senator Lugar to make any 
opening comments he has, and then we will proceed with the 
witnesses. Again, I say welcome to all the witnesses.
    [The prepared statement of Senator Biden follows:]

           Prepared Statement of Senator Joseph R. Biden, Jr.

    As we consider public diplomacy in the 21st century, we are mindful 
that our voice competes amidst the cacophony of voices shaping global 
opinion.
    Today, with the Internet, satellite radio and TV networks providing 
instantaneous and often unfiltered information, public diplomacy is 
more important and more difficult than ever before.
    No matter how powerful our military, we will not be able to achieve 
all our foreign policy objectives if we lose the war of ideas.
    In public diplomacy, we must use our most powerful tools: Truth, 
credibility, and openness. We must reach out to people in their own 
language and in their own terms. And we must foster the free flow of 
ideas, even if it's critical of the United States.
    We don't expect everyone to like us, but there's no good reason for 
us to be so misrepresented and misunderstood.
    We're one of the most advanced centers of communications in the 
world. We should be more successful when we reach out. We should be 
better able to get the facts out. If we do a better job, those who 
question our motives or misrepresent the facts will have a much tougher 
time getting traction with public opinion.
    Today I hope we will explore what we can do to explain ourselves 
better and promote understanding. And I hope we'll learn what more we 
can do, and how we should organize to do it.
    All we want is a real chance for the facts to come before the 
people of the world. And let them make up their minds.
    There are countless examples of where we do this well. I know the 
State Department's Web site offers content in Chinese, Arabic, Spanish, 
French and Russian in addition to English. It gets more than four 
million hits a month.
    After 9-11, the United States and our allies set up Coalition 
Information Centers in London, Islamabad, and Washington to coordinate 
messages, combat misinformation, and stay ahead of the 24 hour global 
news cycle.
    USAID worked with NGOs like the Open Society Institute to support 
the development of independent media organizations in the former 
Yugoslavia under the Milosevic regime. The now famous Radio B-92 in 
Belgrade played a critical role in fomenting the opposition to, and the 
eventual ouster of, Milosevic.
    With U.S. government assistance, the American NGO Search for Common 
Ground helped create multi-ethnic versions of Sesame Street that have 
promoted tolerance among children in Macedonia and Cyprus.
    Despite these successful programs and the hard work of people like 
Under Secretary Beers, and her predecessor Evelyn Lieberman, American 
public diplomacy falls far short of where it needs to be.
    Four years ago, this committee led the way in devising the merger 
of the former U.S. Information Agency into the Department of State. The 
goal of this reorganization was to integrate the policy makers and 
public diplomacy specialists. The merger of two different cultures has 
taken time, and is not complete.
    Public diplomacy considerations are still not fully incorporated 
into the policy formulation process. There is still no adequate 
interagency coordination.
    We still don't have a national information strategy providing a 
long-term vision of where American public diplomacy needs to be. And, 
we're still doing public diplomacy on the cheap, with funding cut in 
half between 1994 and today. As I always say, follow the money.
    Today's hearing will look at what the State Department and other 
agencies ARE doing and SHOULD be doing to promote our public diplomacy 
agenda.
    We'll consider developments in U.S. international broadcasting, 
particularly the Middle East Radio Network, the brainchild of Norm 
Pattiz and the Broadcasting Board of Governors. It's an FM, AM, and 
digital satellite network that spans the Arabic-speaking world 
targeting a young audience with innovative programming. Early 
indications are that it's going swimmingly, and gaining an impressively 
large audience in the region.Should this radio model be replicated 
elsewhere? Should we establish a companion U.S. satellite television 
network?
    We'll also examine what the United States can do to encourage the 
development of indigenous, independent media where it does not exist 
today.
    As we've learned, for better or worse, people tend to trust local 
sources of news and information more than foreign sources.
    Without a free, fair, and open flow of information within these 
societies, propaganda and misinformation flourish.
    It's in our interest to have professional journalism abroad 
promoting a healthy internal dialogue that serves their interest.
    Public diplomacy is not just about what we say, it's about 
promoting an environment in which multiple voices, including our own, 
can be heard.
    We will hear today from two panels of witnesses to advise us on 
these issues. Our first panel includes Under Secretary of State for 
Public Diplomacy Charlotte Beers and my friend Norm Pattiz, 
representing the Broadcasting Board of Governors.
    Under Secretary Beers has served as the CEO of two of the world's 
largest advertising agencies--J. Walter Thompson and Ogilvy and Mather. 
Norm Pattiz is the founder and chairman of Westwood One, America's 
largest radio network company.
    Our second panel will include Ambassador Marc Ginsberg, the former 
U.S. Ambassador to Morocco and now the CEO and managing director of the 
Northstar Equity Group.
    He will be joined by a man who, to use the old cliche, needs no 
introduction in this town, the former Speaker of the House, Newt 
Gingrich. Speaker Gingrich is now the CEO of the Gingrich Group, an 
Atlanta-based communications and management consulting firm, and serves 
as a senior fellow at the American Enterprise Institute.
    David Hoffman, the president of Internews Network, a global non-
profit organization that supports open media worldwide will be our next 
witness. He will be followed by Veton Surroi, chairman of the KOHA 
Media Group in Kosovo, and a leading advocate for democracy and 
independent media in Kosovo.

    Senator Boxer. Mr. Chairman, could I ask if it would be 
possible to have 60 seconds to speak, because of our delay. I 
have an 11:30 appointment. I just want to make one point, if I 
could just speak for a minute.
    The Chairman. After Senator Lugar.
    Senator Boxer. Of course.
    Senator Lugar. Thank you very much, Mr. Chairman. I 
appreciate your calling the hearing, and your very strong and 
comprehensive statement, which really covers the territory so 
well. As all of us will observe, the war on terrorism has 
brought the importance and the value of effective public 
diplomacy to the fore. I am not the only American who is 
dismayed at the level of disenchantment and in some cases 
outright hatred voiced by many in the world toward the United 
States.
    Recently, there has been much discussion of the so-called 
Arab Street, strong opposition to American policies toward 
terrorism and the Middle East peace process. However, it would 
appear this is simply the tip of the iceberg. Clearly, many in 
the Middle East oppose American policies, but we now read the 
people of the Philippines on occasion are distrustful of 
American counterterrorism trainers and advisors sent there to 
assist in tracking the Abu Sayyef terrorist group.
    In Indonesia, opposition from the local population 
continues to confound attempts to improve security cooperation. 
Elsewhere, Europeans believe the United States is retreating 
from the international scene and entering an isolationist 
cocoon. No matter where we turn, the people of the world are 
either not well-informed about American policies and 
intentions, or recede to the anti-American messages that are 
more powerful or effective than our own.
    These revelations must serve as a wake-up call to our 
government. Our policies may be well-intentioned, but still 
find little receptivity with local populations. The United 
States must radically improve its public diplomacy efforts. We 
must explain and broadcast American views and values much more 
effectively. Responsibility rests with both the executive and 
legislative branches of government. We have permitted these 
critical foreign policy tools to languish and to decay, and as 
a government we must take more time, pay more attention, and 
apply more resources to fostering our public diplomacy.
    The first step must be a revitalization of the 
organization, the people, the tools, and the content of our 
public diplomacy. Obviously, there is no single answer to the 
challenge we face. It is more likely that the problems are 
systemic. We must question and analyze the basic tenets that 
form the foundation of our policies in this area. Our goal must 
be not simply to identify and implement short-term fixes, but 
to address the root causes of the inadequacies and shortcomings 
in our policies and our outreach programs.
    A number of different proposals have been put forward to 
address the public diplomacy challenges at the State 
Department. One of the most interesting suggestions calls for 
reorganizing the public diplomacy apparatus by placing 
resources, budgets, personnel, and staff under the direct 
control of Under Secretary Beers. I would be interested in 
hearing her views on this, as well as her thoughts on funding 
public diplomacy. I am hopeful that Ms. Beers and other 
witnesses will provide the committee with useful 
recommendations with which to engage the administration in 
formulating an effective strategy.
    Mr. Chairman, I recommend we use today's hearing as the 
basis for the construction of a bill, of legislation to 
revitalize American public diplomacy. I know many members of 
this committee have been giving a lot of thought to this issue, 
and I propose it is time to get to work.
    I thank you, Mr. Chairman.
    The Chairman. I could not agree with you more, Senator.
    Senator Boxer.
    Senator Boxer. Thank you so much for your courtesy. I 
wanted to thank Charlotte Beers for keeping me so well-informed 
on her efforts, because you promised to do that in a hearing, 
and you are sending me things like this, and it matters to me 
and I thank you.
    I also wanted to welcome one of my star constituents who I 
am forced to share with the rest of the country, Norm Pattiz, 
and to say that his vision for this Middle East Radio was right 
on target. One of your colleagues on the Board of Governors 
said the following, ``broadcasting services such as Middle East 
Radio Network are the best high-yield, low-cost weapon in our 
arsenal. They are the most cost-effective way of reaching the 
outside world.''
    This is something that our chairman and ranking member I 
know believe, and in closing I just wanted to read a couple of 
e-mails that went to your station from the people who we are 
trying to impact. One says, ``Hi, I am from Abu Dhabi, UAE. 
Actually I listen to your channel every day because I am crazy 
about music, both Arabic and English, and I really appreciate 
your efforts to make us happy all day.''
    And another says, ``hello people, I am a Palestinian who 
lives between Amman and Kuwait. I can here Sawa in Amman and in 
Kuwait as well. All I want to say is, I am so proud of you 
guys, and very happy to hear this station. You can hear it 
everywhere, especially in Amman in the shopping malls and in 
the coffee shops. All the guys' and girls,' mothers and 
fathers, are very amused by Sawa. Keep up the good work, 
guys.''
    And then here is what I wanted to make sure you heard. 
``P.S., I have a question. What is the nationality of this 
station, and who is the owner,'' and I think what that says is, 
the way you are putting forward the information makes sense.
    Another says, ``your music is good, the news is not biased. 
I think it is not biased,'' and then I love this, ``I want to 
ask you to play me two songs, Don't Let Me Get Me, by Pink, and 
an Arabic song called Gogali, and it is by Guitara, and I hope 
you play both.''
    Anyway, I think that this shows, Mr. Chairman, that the 
wonderful results we are having, and not that it is a panacea, 
but in a very tough world and a tough challenge, it is 
something we must do, and I commend both of you. Thank you, and 
I commend my chairman and the ranking member for caring about 
this and letting me speak. Thank you.
    The Chairman. We are very commendable.
    Madam Secretary, the floor is yours.

STATEMENT OF HON. CHARLOTTE BEERS, UNDER SECRETARY OF STATE FOR 
   PUBLIC DIPLOMACY AND PUBLIC AFFAIRS, DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Ms. Beers. Chairman Biden, distinguished members----
    The Chairman. I hate to ask you to do this. What is going 
to happen is, these microphones--as the Senator from South 
Carolina says, ``these machines are quite old.'' We are going 
to one day modernize the Senate--but you have to hold it very 
close to your mouth, I apologize, so people in the back can 
hear you. I am sorry.
    Ms. Beers. Well then, I had better start with my 
illustrious address again. Chairman Biden and distinguished 
members of the committee, it is a great honor to be in this 
room. This is exactly where I was sworn in on October 11, and 
it does not exactly seem like a few days ago, but the time has 
sped by. I put in my statement for the record a good report on 
how I think we have done in the current response and the 
immediacy that was required of us all to answer the war on 
terrorism. What I want to do in the short time that I have with 
you here is, in fact, take you to longer-term priorities that I 
hope we can all address.
    As President Bush says, this will be a long war. I believe 
we have to enter the turbulent and faster-moving information 
revolution aggressively to build a larger presence, and I would 
call it, from my background in the advertising and marketing 
world, a larger share of voice. We have to continue to 
strengthen and defend that business which we do well, which is 
our ability to speak with government officials and elites, but 
at the same time we really must enlarge our communication with 
the mainstream of young adults, significantly in the Middle 
East and South and Southeast Asia, and even those young adults 
outside of cities. We have to meet this expanded audience as, 
in fact, you said, Chairman Biden, on their own terms and in 
their own channels of distribution.
    So what about those who are even younger and under 20? I 
think we must develop plans, resources, and teams to seek the 
help of the huge multinational companies and also the foreign 
students from U.S. universities to activate them to talk about 
our common values and to demonstrate the democratization in 
some form and answer the final questions, what is in it for me, 
where can I go, where can I get a job?
    We had a number of discussions with these kinds of 
constituencies, and the willingness is there. These commitments 
will require a change in skill structure and allocation of 
resources in public diplomacy. We have to go beyond polling, as 
it is called here, to include diagnostic research that 
evaluates not just what they think, but why, so that we can use 
this research to lead us to improved programs. We have already 
hired an outside consultant, and it is changing a lot about the 
way we ask these questions, and we are just fielding a major 
study with a more sophisticated view of what we are going to do 
with the data.
    We also want to significantly expand our training and 
public diplomacy officers, not only in depth and scope of 
training, which frankly has been thin, but to also include the 
most modern marketing and communication skills, because we are 
going to ask these officers to operate in a very different kind 
of universe.
    Both Secretary Powell and I are addressing the public 
diplomacy structure in this our third year of consolidation. 
Our inquiry will examine how we can maximize communication to 
more people, encourage innovation, and also accountability 
within the public diplomacy family as well as the status at the 
table of policy development.
    So where do we get the programs for this better-trained and 
bigger public diplomacy team who is now going to be asked to 
expand their reach to even larger audiences? Well, I want you 
to know that we have one program that provides nothing less 
than a complete transformation. Let me illustrate. We just had 
a brave woman, a Saudi novelist and journalist, who dared the 
rejection and anxiety that surrounded her when she said she was 
coming to the United States on an exchange visit. Listen to 
what she said when she returned to Saudi Arabia:
    ``Everyone says Westerners are bad and mean, but it is not 
true. People here are telling a bunch of lies about the West. 
You know, the people I met are nice. They are friendly, they 
smile. Nobody stares at you or follows you around. They do not 
waste money. They do not leave food around. They respect 
limits. Their customs are nice.
    ``In America, men and women cooperate together to make 
their lives better. They help each other. They are organized, 
and they can plan for their future. They like to have real 
dialogs on many subjects. The women are strong. Older people 
are active and engaged. In this house in which I lived there 
were three generations there, and they have been close to their 
neighbors for years. Why do we get told these stories about how 
the family is broken in the West?''
    Believe me, we have countless stories of these 
transformations, so here is the question: How can we magnify 
the 25,000 exchanges we do a year, which is what our resources 
allow, into something 10 times that? That is the question. Some 
of the ways that we can do this we have been working on now as 
pilot studies. We can activate the 700,000 exchange visitors we 
have had over the years. You know, we do not even have a data 
bank as good as a local car dealer. We do not know where these 
people are in some cases, and we have not been able to follow-
up on them.
    We have got an alumni data bank in the works now, and what 
we hope is, for those who are willing to join us and 
participate in this, they will be able to be more successful in 
creating a more balanced picture of the United States by simply 
talking about their experience. We are designing something 
wonderful called, An American Room, that will use virtual 
reality to depict and try to approximate the experience of 
being in America.
    We might have the Gettysburg Address when you hit a button. 
We might be able to see a scene from Oklahoma. We will have 
computers linked to data banks. We will be able to reproduce a 
street in a typical American city, and the viewer standing 
there can tap another button and find someone like them in the 
United States, and the wonder of this is the design team we 
have and the unlimited potential of technology.
    And here is the exciting thing. We hope to place these 
rooms in universities, in libraries, and malls, and traveling 
even by bus to smaller towns, and we have done enough exploring 
with potential universities and libraries in the Middle East 
and so on to know they are interested, and we expect this kind 
of thing to act as a catalyst for more open dialog. The secret 
to communication is not what you say, but what they can hear, 
and it is very important for us to put it on those terms. We 
know we can greatly and productively increase visits from 
journalists, newspaper writers, and producers, because now we 
follow them, and we can prove that when they go home they 
publish from a totally different perspective.
    We need to establish a regional media center to train 
Muslim journalists and reporters in order to help them get a 
better perspective, better equipment, and more direct access to 
U.S. officials and people. We can even turn the proven practice 
of teaching English into a story of values and beliefs with the 
use of pictures and music. We can ask our third parties who are 
already authentic in the universe of the Middle East and 
Southeast and who wish to participate to help carry out our 
messages, like the Muslim-Americans that we have just been 
working with and have talked to over a great period of time. 
They have just formed a group called CAMU, and they are going 
to put speaker groups in their countries and here and make 
exchanges and conferences and forums.
    We can even offer to aid the leading satellite television 
stations, NBC Lebanese, Al Jazeera, and Future, who say they 
are very keen for new programming and assure us that they are 
open to new material. Hollywood, PBS, and Discovery have 
offered to help us acquire such programs.
    We can, in fact, create completely new programs, like an 
Arabic magazine for young adults, and Internet programs that 
include not just the chat room but the training and the 
equipment, which I think is probably the most efficient way to 
make sure there is a two-way conversation, because one of the 
burning questions out there in the Middle East and Southeast 
Asia is, can you hear us, so we cannot afford to be in a one-
way dialog.
    You know, we already have a number of proofs against the 
frequently repeated distortion that we are a materialistic and 
greedy society. It is called USAID programs, and it bothers me 
immensely that these stories are virtually unsung, because 
there is no mandate in the U.S. programs to talk about what we 
have done, who benefits, and how these stories unfold. I think 
we have many uncelebrated stories of victory in the democratic 
process where we have transformed families, we have made jobs, 
we have created an enterprise, with the help of the people in 
many countries around the world. These stories are not out 
there. If they were, the reputation and image we have, I think, 
would be different.
    Even at this moment when it is really quite popular to 
dislike the United States, we have found in some studies that 
we have more in common. We have common values between the 
Middle East and Southeast Asia and the United States in four 
main areas, and they are significant. One is, we both rank in 
the top six faith, generosity and giving and taking care of 
others, and love of family.
    An interesting insight in that is that we have more in 
common with these groups of people than, say, our partners in 
the European Union. Even those who rail against us one minute 
will immediately turn and admit they would love to study 
American science and technology, so to me the picture is 
actually promising, but we do need to get about the business of 
preparing, testing, and fielding these new programs. They are 
necessarily long term, and they must be consistently supported 
to bear fruit, and we cannot neglect our dialog with the rest 
of the world in order to shore up what has been way too much 
silence between us and these communities, and that is why this 
moment with you is so crucial to ask you to support importantly 
these longer term priorities as we move every day to prove to 
you that they have merit.
    Among our three strategic goals which I detailed in my 
written remarks are representing America's values and beliefs, 
demonstrating clearly opportunities that can result from the 
forms of democratization that each of these countries can take 
on, and the third is education to the young. If you ask me to 
prioritize these, I would say there is no contest. It has to be 
education to the young. Ultimately it is the key, to educate 
these huge majority populations of young men and women can save 
them from fanatical interpretations of this beautiful religion 
of Islam and give them access to science, technology, books, 
and basically a new world view, and that is a lot to ask.
    Every experience we have tell us they will not settle for 
limitations, biases, or hatred, and I have learned one other 
thing as I have spent this time in public diplomacy. The young 
will lead us.
    Last Saturday, I heard an eloquent address from Ehud Barak 
about his journey as Prime Minister of Israel. He referred to a 
signature moment when his great friend fighting by his side 30 
years ago was shot by an Egyptian soldier. A young graduate 
student in the audience from Egypt, a woman, addressed this 
question to the former Prime Minister. My two friends were 
seeking to marry and they went to their two parents, and they 
were told they could not marry because they had a feud between 
these two families 30 years ago, and therefore they recommended 
and refused permission to marry.
    The couple decided to go against this counsel. They did 
marry. They are very happy. They have two small children, and 
they just bought a very small new home. Her question is, ``why 
can't we, rather than destroy homes, build them?''
    Thank you very much.
    [The prepared statement of Ms. Beers follows:]

 Prepared Statement of Hon. Charlotte Beers, Under Secretary of State 
                    for Diplomacy and Public Affairs

    Chairman Biden and distinguished members of the committee,
    Thank you for the opportunity to testify before you today. 
As you are well aware, today is the nine-month anniversary of 
September 11th, a day that opened all our eyes to the horrific 
consequences of hatred that some groups have for our country; a 
hatred bred in ignorance, misperception and misrepresentation. 
There are many lessons that we are still learning from that 
day, and certainly one of the most important is that we can and 
should do more to educate, and influence the attitudes of, 
foreign audiences toward our country. No longer is it 
acceptable to let others define America, our beliefs, tenets, 
and values. It is in our collective national security interest 
that we do a better job defining ourselves to the world. This 
is our mission in the post-September 11th world, and it is a 
mission that must succeed.
    In late February, Gallup released a poll of almost 10,000 
people in nine predominately Muslim countries and found that, 
by a margin of two to one, residents of these nations had an 
unfavorable opinion of the U.S. Some of the specific results of 
the poll were not surprising in places like Iran, but in Kuwait 
for instance only 28 percent of those residents polled had a 
favorable opinion of the U.S. This in a country that was 
liberated by the U.S. and our allies only a decade ago. In 
Morocco the favorable number was only 22 percent, and in Saudi 
Arabia, one of our strongest allies in the region, only 18 
percent expressed a favorable opinion of the U.S.
    These numbers are roughly consistent with other external 
and internal polling of the region. They illuminate the 
challenge we have before us, a challenge to communicate our 
policies and values to the world more effectively. In some 
regions, such as Muslim majority areas in the Middle East and 
South Asia for example, the challenge is obviously greater. In 
these places it is imperative that we reach out, inform, 
educate, and persuade populations that we are a society that is 
based on certain shared values, values that resonate within the 
Muslim world, values such as peace, acceptance, faith, and love 
of family.
    To do this, we must continue our traditional public 
diplomacy programs, such as international information 
activities and educational and cultural exchanges, as well as 
international broadcasting. However, we need to focus these 
activities on broader and younger populations, while 
simultaneously enhancing them to reach our desired audiences 
more rapidly and effectively. Since September 11th, and since 
my confirmation in October, we have striven to do just that. 
This is evident in such initiatives as The Network of 
Terrorism, a publication that has become the most widely 
disseminated public diplomacy document ever produced by the 
U.S. Government. The publication features dramatic visuals, 
including a map showing the 81 countries that lost citizens in 
the World Trade Center. Since its release last November, 
Network has been translated into 36 languages, and we've 
published over 1.3 million copies. We had Network distributed--
as an insert in the Arabic edition of Newsweek, and major 
excerpts appeared in other Arab and world publications. Since 
publication, we have maintained a constantly updated Internet 
version as well.
    In addition to the Network publication, we have had success 
with our Television Co-operatives, in which we sponsor the 
visits of foreign production teams to the U.S. There have been 
21 television programs since September 11th dealing with the 
Islamic community in America, as well as the campaign against 
terrorism.
    Our exhibit of the stunning photographs of Joel Meyerowitz, 
capturing the human and material dimensions of Ground Zero, has 
now opened in 32 different countries and will be presented in 
an additional ten countries by the end of the year, reaching 
audiencesin the hundreds of thousands.
    Our web sites dealing with the Middle East have 
consistently topped Internet search engines since 9/11, and, 
thanks to our multilingual advertisements, our Rewards for 
Justice program has received some 30,000 pieces of information 
since the attacks. We have produced This is Islam in America, a 
publication that was distributed to 500 Middle Eastern Imams at 
an April conference, as well as Islam in America, which was 
distributed through our American Corners network throughout 
Russia, and through our embassies in Almaty, Ashgabat, Baku, 
Bishkek, Dushanbe, and Tashkent.
    These initiatives highlight some of our successes, but 
there is clearly room for us to improve, to do more, much more. 
Right now, the Middle East and the greater Islamic world are 
awash with new media and new ideas and ideologies. We must 
compete on a crowded playing field for the attention of these 
audiences. I will defer to Governor Norm Pattiz to talk about 
the success of Radio Sawa, but it is evident that we have work 
to do to make our television services effective and relevant. 
Television is the medium of today and the future, as is evident 
in the growth and influence of Middle East television satellite 
and regular television broadcasting. Existing channels are 
hungry for programming, and we need to direct resources to 
production, acquisition, and distribution of compelling, 
quality programs. I am hesitant to endorse the concept of a 
greatly expanded direct broadcasting capacity until a great 
deal more research on how best to approach this market has been 
done. This is particularly true given the experience of BBC's 
expensive experiment in Arabic TV broadcasting.
    There is room for dialogue and exchange, but the onus is on 
us to make our voice heard. There is common ground on which we 
can build the foundation for this dialogue. Let me illustrate 
this through the story of a young Arab woman. She is a 
composite of Arab women I met recently. I was overseas at an-
Arab capital, and this woman started telling me of the anger 
and frustration that she and others feel about our Middle East 
policy. She is a professor, but not at the American University, 
whose name she feels would taint her. Her anger was so great 
that, initially, she expressed doubt that Bin Laden was the 
ringleader of the World Trade Center and Pentagon attacks. As 
we spent more time together, she began to ask me about what she 
understood to be the bad treatment of Muslims in the U.S. I was 
able to tell her that there are between three and six million 
Muslims in this country, where they are free to worship fully 
in over 1,200 mosques, and where their children can attend 
Muslim schools. I told her about the Nobel Prize winner who is 
Muslim, the soccer player, our basketball star whose father is 
an Imam, the schoolteachers, and even President Bush's new 
Director of the National Institutes of Health. As I did this, a 
door began to open between us. Eventually, she admitted that, 
while she believed Bin Ladin had masterminded the attacks of 
September 11th, she could not defend her conviction to her 
colleagues. By the end of our conversation, she had asked 
whether her university could add a U.S. studies program and 
even whether she could travel to the U.S. with a group of 
teachers to study science and technology.
    There is also the story of a Fulbright alumnus who is 
leader of Muhammadiyah, Indonesia's second-largest Islamic 
organization, with 30-40 million members. He recently told the 
Jakarta Post that his educational experience in the U.S. had 
caused him to abandon the idea of establishing an Islamic state 
in Indonesia. He cited his degree in Islamic Studies from the 
University of Chicago, as a tool that helped him gain a more 
accurate understanding of religious teachings. He also asserted 
that ``fewer and fewer Muslims now want to establish an Islamic 
state.''
    This is the kind of ``share of mind'' toward which we are 
working. Shared ideas and values are our building blocks to 
better understanding, better relationships, and good will with 
the Islamic world. To help focus our public diplomacy efforts 
and sharpen our ability to address the challenge before us, we 
have developed three strategic themes under which our 
activities and efforts will be shaped. Under President Bush and 
Secretary Powell's leadership, we are pursuing the following 
broad areas in our public diplomacy efforts:

  <bullet> The first theme is shared values. In many countries, 
        especially in Muslim majority states, people carry a distorted 
        and negative view of U.S. values. They believe that we are a 
        faithless and decadent country. To counter these false 
        impressions, we are initially focusing on freedom of religion 
        and tolerance as reflected in the experience of Muslims in 
        America. We have already created a web site and are developing 
        video products and speakers' programs to disseminate this 
        message overseas.

  <bullet> The second theme is the opportunity for Democratization. It 
        is my belief that democracy is the best path toward lasting 
        peace and prosperity. Where good governance and open 
        opportunity exist, inspiring stories of entrepreneurial and 
        free market successes abound. Many U.S. government and private 
        sector programs already address this objective, and we need to 
        better highlight their efforts. We must also encourage those 
        who seek more open societies, economic opportunity through 
        open-markets, and the chance to achieve prosperity in the 
        unique context of their own cultural and historical experience.

  <bullet> The third theme is Education, through an initiative called 
        ``Partnership for Learning.'' One of the universal values is 
        that we all love our children and want a better future for 
        them. We also know that a lack of social and economic 
        opportunity is one of the key factors driving the recruitment 
        of terrorists. U.S. educational and other assistance programs 
        already underway are working to provide children around the 
        world with the tools needed for effective participation in 
        modern life. This focus will allow us to create new 
        partnerships with the private sector, here and abroad, 
        dramatically increasing the resources devoted to the education 
        of children in countries where these options are limited.

    These three themes create the backbone under which our public 
diplomacy programs and activities are taking shape thanks to the 
creative and dedicated efforts of the public diplomacy professionals in 
the Bureau of Educational and Cultural Affairs, the Bureau of Public 
Affairs, and the Office of International Information Programs, as well 
as our regional and function bureaus and our officers in the field.
    We are also working to engage the private sector, which is our 
natural ally in this fight to inform and influence the hearts and minds 
of the people of the world. Those corporations with a large 
international presence, in many instances, have better outreach to 
certain countries and population segments than we do. We want to work 
with them to create partnerships that serve our mutual interests. For 
its part, the private sector stands at the ready as never before to aid 
our Public Diplomacy efforts. We must continue to actively garner its 
support for our overall strategies, harness its creative collective 
will, and ask it to organize for action.
    Now, more than ever, the spotlight is on public diplomacy, on our 
ability and aptitude in communicating with the people of the world. I 
thank the committee for its continued support of public diplomacy, and 
for allowing me to testify before you today. I am happy to answer any 
of your questions.

    The Chairman. Thank you very much, Madam Secretary.
    Mr. Pattiz.

  STATEMENT OF HON. NORMAN J. PATTIZ, GOVERNOR, BROADCASTING 
               BOARD OF GOVERNORS, WASHINGTON, DC

    Mr. Pattiz. Good afternoon, Mr. Chairman and members of the 
committee. I am Norm Pattiz of the Broadcasting Board of 
Governors. On behalf of the BBG I want to thank you very much 
for giving me the opportunity to talk about U.S. International 
Broadcasting, and specifically our new Middle East Radio 
Network [MERN], which is fast becoming a key part of U.S. 
public diplomacy efforts in this very, very turbulent region.
    I also want to thank you for giving us the resources to 
accomplish our mission, which is quite simply to promote 
freedom and democracy through the free flow of accurate, 
reliable, and credible news and information about America and 
the world to audiences overseas. I am pleased to appear with 
Under Secretary Charlotte Beers who, along with Deputy 
Secretary Richard Armitage and others in the State Department 
have been so supportive of MERN.
    I would also like to introduce my fellow Governor, Tom 
Korologos, who is in the audience. Tom has been a primary 
supporter of the MERN project, making more than one trip to 
Cyprus to talk with his friends, such as the President, to make 
sure we got a very important transmission facility in Cyprus to 
help us reach the region.
    When I am not working for the BBG, I am chairman of 
Westwood One, America's largest radio network. We own, manage, 
or distribute the NBC Radio Network, CBS Radio Network, Fox 
Radio News, and we also supply over 7,500 U.S. radio stations 
with not only news but sports, talk, information programming, 
and just about anything else you can think of.
    When I was appointed to the BBG in November 2000 I was the 
only radio broadcaster on the Board. Chairman Marc Nathanson 
asked me to serve as the cochair of the Language Review 
Committee, which manages the congressionally mandated process 
of determining on an annual basis how effectively our resources 
are being deployed across the over 60 languages we broadcast in 
worldwide.
    I quickly noticed our efforts in the Middle East were 
almost totally ineffective. We were broadcasting 7 hours a day 
in the Arabic language in a one-size-fits-all approach to the 
entire region, for 7 hours a day, as I mentioned before, on 
short wave, which almost no one listens to, and out of a very 
weak medium wave signal out of Rhodes. The fact was that over 
98 percent of the audience in the region were not listening to 
the Voice of America.
    After reporting this back to the Board, I was asked to 
serve as the chairman of the Middle East Committee. Shortly 
thereafter--I think it was in February 2000, well before the 
events of 9/11--I visited the region to determine what 
possibilities existed to provide a 21st century broadcast 
operation to the region. During the trip, I learned a number of 
things. First of all, I learned that there is, in fact, a media 
war going on in the region, and the weapons of that war are 
incitement to violence, disinformation, hate radio, government 
censorship, and journalistic self-censorship, and sadly the 
United States did not have a horse in this race.
    On the plus side, many of the moderate Arab governments 
were willing to offer AM and FM frequencies and digital 
satellite frequencies which would be necessary to create a 
state-of-the-art broadcasting system. I felt that, by using 
proven American broadcasting techniques that have been 
effective wherever they have been used throughout the world, 
the opportunity existed to create a service that would attract 
the largest possible audience and ultimately deliver that 
audience to our message of public diplomacy.
    What techniques am I talking about? Using radio in the way 
it is most effective in today's media environment. Radio is a 
medium of formats--music, news, sports, talk, et cetera--
designed to reach a particular audience 24 hours a day, 7 days 
a week, with a consistent style that connects with our 
listeners.
    In the case of MERN, which we call Radio Sawa, the Arabic 
word for ``together,'' the format we have chosen is targeted at 
listeners 30 and under, representing well over 60 percent of 
the region's population. Sawa is music-driven, with 5 and 10-
minute newscasts twice every hour, 24 hours day.
    But rather than describing to you in words what Sawa is, 
let me play for you an English-language condensed version of 
what a \1/2\-hour of our Arabic programming sounds like. It 
runs about 3\1/2\ minutes, so you will not hear any full music 
tracks, and you will not hear any full newscasts, but it will 
give you a quick idea of what this programming sounds like.
    The Chairman. Before you play that, I want to point out 
that I was so impressed with this disk that I made sure I 
requested that Norm make it available to every Member of the 
U.S. Senate, every Member of the House, and I hope, if any 
staff is listening, if you have gotten it, make sure your boss 
just takes 5 minutes to listen to it, play it for your boss, 
because I am telling you, it is--well, you will hear.
    Mr. Pattiz. Well, this, as I say, is a condensed version of 
the 12-minute version that you are talking about, so we are 
trying to give you an example of what it sounds like within the 
parameters of the time that I have to speak, so if you would 
play that, please.
    [A CD was played.]
    Mr. Pattiz. What you just heard is a combination of proven 
commercial know-how and modern broadcasting techniques, heavily 
researched, so we know before we ever play our first song or 
broadcast our first feature or news program who our audience 
is, what they like to hear, what type of news presentation 
features and production values appeal to them. We also take 
into consideration what is already available in the 
marketplace, and what has the best chance of delivering the 
largest possible target audience to hear our message. We call 
it ``marrying the mission to the market,'' and it is working.
    We are now broadcasting on FM stations in Amman, reaching 
Jordan, the West Bank, and Jerusalem, in FM in Kuwait, Abu 
Dhabi and Dubai, we are on medium wave or AM out of Kuwait 
covering Iraq, as well as in Rhodes and, soon, Cyprus, which 
will cover Egypt, Lebanon, and Syria, plus FM is coming online 
within the next couple of weeks in Bahrain and Qatar. We are on 
three-digital audio satellite transmissions similar to our own 
DirecTV, with audio channels including Nilesat, Arabsat, and 
Eutelsat Hotbird.
    As you know by the impact of Al Jazeera and other TV 
services, there are millions of satellite dishes throughout the 
region, and now our message can be received on them. This is 
just the beginning. We will be expanding our reach on FMs and 
AMs in the coming months, but the anecdotal information that we 
are receiving on the impact of Sawa since its March 23 launch 
has been nothing less than amazing. Let me give you some 
examples from our own embassies and bureaus throughout the 
region.
    From our bureau chief in Amman, who was formerly the 
director of our Arabic Service, the VOA Arabic Service: ``It is 
time for me to say it. MERN leadership has been able to 
accomplish in the span of a few months what two generations of 
VOA broadcasters have failed to accomplish in more than 50 
years. All indications are that Radio Sawa is the most popular 
FM station in Jordan. Congratulations. I am proud to be a 
member of the MERN team.'' And our Ambassador in Jordan 
proclaimed; ``MERN is an instant hit among Jordan's young.''
    But it is not just insiders who are taking notice. Joshua 
Muravchik of the American Enterprise Institute writes that MERN 
is, ``good news, because it promises to repair many of the 
defects of our current operation.'' And the New Republic's 
Lawrence Kaplan calls Radio Sawa ``a sober and effective public 
diplomacy initiative.''
    From our listeners, some of which you heard when Senator 
Boxer read a couple of those e-mails, we have received 
literally thousands of overwhelmingly positive e-mails, some of 
which are in packets that we have prepared for you. Dan Rather 
told us he heard Radio Sawa in an outdoor cafe in Amman. Tom 
Brokaw's producer told us that Tom listened to Sawa on his trip 
to the region.
    We are planning on doing full-out extensive audience 
research and measurement before we move into our state-of-the-
art broadcast center in Dubai Media City. Our network will then 
be broadcasting in five targeted programming streams directed 
at specific areas within the region in the colloquial dialects.
    Mr. Chairman, when you and others on the committee asked, 
after the events of 9/11, what are we doing to combat hatred 
and anti-Americanism in the Middle East, we said, we are going 
to launch a unique new network, unlike anything else you have 
heard in U.S. international broadcasting, designed to attract 
the largest possible audience, and this is it. The Middle East 
Radio Network is like a wedding cake to which we are constantly 
adding layers.
    Today, we are broadcasting music and news twice an hour, in 
5 and 15-minute blocks, 24-hours-a-day, every day we are 
providing coverage of major events like President Bush's speech 
on April 4 on the Middle East from start to finish in Arabic, 
plus complete coverage of Secretary of State Powell's recent 
trip to the region with the kind of immediacy that was rarely 
possible to us in the past.
    When President Bush, in his October 2001 speech to the 
Nation after the tragic events of 9/11, asked, in so many 
words, why do they hate us, I believe one answer is because 
they do not know us. All they hear about America and Americans 
is what comes from sources that are invested in not presenting 
a truthful picture of the United States to the world. Radio 
Sawa is the first step in presenting our policies, our people, 
accurately from our own lips. Soon, we will be broadcasting 
programs on policy, editorials, questions of the day, and 
reviews and critiques of Arab press reports. We will try to 
pinpoint and refute misinformation of state-controlled media, 
and down the line we are looking at more interactive 
programming on health, science, education, and other topical 
issues.
    So when the taxpayers ask, what is the United States doing 
to reach the Middle East and hopefully decrease regional 
tensions, we can say, building a Middle East Radio Network. 
MERN is a prototype of the international broadcasting of the 
future and, as a cornerstone of public diplomacy, U.S. 
international broadcasting and MERN are a formidable means of 
getting America's message across to the Islamic world and 
elsewhere.
    I very much appreciate your time and would be happy to 
answer any questions.
    [The prepared statement of Mr. Pattiz follows:]

  Prepared Statement of Hon. Norman J. Pattiz, Governor, Broadcasting 
                           Board of Governors

    Good afternoon Mr. Chairman and members of the Committee, I'm Norm 
Pattiz of the Broadcasting Board of Governors (BBG).
    On behalf of the BBG, I want to thank you very much for having me 
here to talk about U.S. international broadcasting and specifically our 
new Middle East Radio Network, which is fast becoming a key part of the 
U.S. public diplomacy effort in this turbulent region. I also want to 
thank you for giving us the resources to accomplish our mission, which 
is, quite simply, to promote freedom and democracy through the 
dissemination of accurate, reliable and credible news and information 
about America and the world to audiences overseas.
    When I'm not working for the BBG, I'm the Chairman of Westwood One, 
America's largest radio network. Westwood One owns, manages or 
distributes the NBC Radio Network, CBS Radio Network, CNN Radio News 
and Fox Radio News. We supply over 7,500 U.S. radio stations with not 
only news, but sports, entertainment, talk radio and informational 
programming.
    When I was appointed to the BBG in November of 2000, I was the only 
radio broadcaster on the Board. Chairman Marc Nathanson asked me to 
serve as the Co-Chair of the Language Service Review Committee, which 
manages the Congressionally mandated process of determining, on an 
annual basis, how effectively our resources are being deployed across 
the over 60 languages that we broadcast worldwide. I quickly noticed 
that our efforts in the Middle East were almost totally ineffective. We 
were broadcasting seven hours a day of Arabic language programming in a 
one-size-fits-all approach to the entire region on shortwave and a very 
weak medium wave signal from Rhodes. Over 98 percent of the audience of 
the region had never listened to the Voice of America.
    After reporting this back to the Board, I was asked to serve as the 
Chairman of the Middle East Committee. Shortly thereafter I visited the 
region to determine what possibilities existed for building a 21st 
Century Arabic language broadcast operation. During the trip I learned 
a number of things. First of all, there's a media war going on and the 
weapons of that war include disinformation, incitement to violence, 
hate radio, Government censorship and journalistic self-censorship, and 
the United States didn't have a horse in this race.
    On the plus side, many moderate Arab governments were willing to 
offer FM and AM frequencies and digital audio transmission, which would 
be necessary to create a state-of-the-art distribution system. I felt 
that by using proven American broadcasting techniques that have been 
successful all over the world, the opportunity existed to create a 
radio service that would attract the largest possible audience and, 
ultimately, deliver that audience for our public diplomacy mission. 
What techniques am I talking about? Using radio the way it is most 
effective in today's media environment. Radio today is a medium of 
formats--music, news, sports, talk, etc.--designed to reach a 
particular audience 24 hours a day, 7 days a week, with a consistent 
style that connects with its listeners. In the case of MERN, which we 
call Radio Sawa--the Arabic word for ``together''--the format we've 
chosen is targeted at listeners 30 and under, representing well over 60 
percent of the region's population, which is music-driven with 5 and 10 
minute newscasts every hour, 24 hours a day.
    Radio Sawa is an example of combining proven commercial knowhow and 
modern broadcasting techniques, heavily researched so we know, well 
before we ever play our first song or broadcast our first feature or 
news program, who our audience is; what they like to hear; what type of 
news presentations, features and production values appeal to them. We 
also take into consideration what is already available in the 
marketplace and what has the best chance of delivering the largest 
possible target audience to hear our message, We call this marrying the 
mission to the market, and it's working.
    We are now broadcasting on FM stations in Amman, reaching Jordan, 
the West Bank and Jerusalem, and FMs in Kuwait, Abu Dhabi and Dubai. 
We're on Medium Wave out of Kuwait, covering Iraq, Rhodes and soon 
Cyprus to Egypt, Lebanon and Syria. We are on 3 digital audio satellite 
transmissions, similar to our own DirecTV with audio channels, 
including Nilesat, Arabsat and Eutelsat. As you know by the impact of 
Al Jazeera and other satellite TV services, there are millions of 
satellite dishes throughout the region and now our message can be 
received on them.
    This is just the beginning. We will be expanding our reach on FMs 
and AMs in the coming months, but the anecdotal information that we are 
receiving on the impact of Radio Sawa, since it's March 23rd launch, 
has been nothing less than amazing. Let me give you some examples from 
some of our own Embassies and Bureaus in the region:

        From our Bureau Chief in Amman:

          It is time for me to say it: The MERN leadership has been 
        able to accomplish in a span of a few months what two 
        generations of VOA Arabic broadcasters have failed to 
        accomplish in more than fifty years. All indications show that 
        Radio Sawa is the most popular FM station in Jordan. 
        Congratulations . . . I am proud to be part of the MERN team.
          Best regards.

          Mahmoud Zawawi

    And our Ambassador in Jordan proclaimed MERN an ``instant hit among 
Jordan's young.'' But it's not just insiders who are taking notice. 
Joshua Muravchik of the American Enterprise Institute writes that MERN 
is, ``good news,'' because it ``promises to repair many of the defects 
of our current operation.'' And the New Republic's Lawrence Kaplan 
calls Radio Sawa a ``sober and effective public diplomacy initiative.''
    From our listeners we have received literally thousands of 
overwhelmingly positive e-mails, some of which are in the packets that 
we have prepared for you. Dan Rather told us he heard Radio Sawa in an 
outdoor cafe in Amman. Tom Brokaw's producer told us that Tom listened 
to Sawa on his trip to the region.
    We are planning on doing full-out extensive audience research and 
measurement before we move into our state-of-the-art broadcast center 
in Dubai Media Center. Our network will be broadcast in five targeted 
programming streams in local dialects, directed at specific areas in 
the region.
    Mr. Chairman, when you and others on the Committee asked, after the 
events of 9/11, what are you going to do to combat hatred and anti-
Americanism in the Middle East, we said we were going to launch a 
unique, new radio network, unlike anything you've heard from U.S. 
international broadcasting, designed to attract the largest possible 
audience--and this is it. The Middle East Radio Network is like a 
wedding cake to which we are constantly adding layers. Today we are 
broadcasting music with news twice an hour, in 5 and 10 minute blocks, 
24 hours a day, every day, plus coverage of major events like President 
Bush's April 4th speech on the Middle East from start to finish, in 
Arabic, plus complete coverage of Secretary of State Powell's recent 
trip to the region, with a kind of immediacy rarely possible in the 
past.
    Mr. Chairman and members of the Committee, when President Bush, in 
his October 2001 speech to the Nation, after the tragic events of 9/11, 
asked in so many words why do they hate us, I believe the answer is 
because they don't know us. All they hear about America and Americans 
comes from sources that are invested in not presenting a truthful 
picture of the United States--and the world. Radio Sawa is the first 
step, presenting our people and policies accurately from our own lips.
    In the not too distant future, we'll begin broadcasting policy 
programs, editorials, questions of the day and reviews and critiques of 
Arab press reports. We'll try to pinpoint--and refute--misinformation 
in the state-controlled media. And down the line, we're looking at more 
interactive programs that feature health, science, education and other 
topical issues.
    So when taxpayers ask what is the United States doing to reach 
people in the Middle East, and to, hopefully, decrease regional 
tensions, we can say: Building a Middle East Radio Network. The BBG's 
FY 2003 budget request includes funding for the second year costs of 
the network.
    We appreciate the support we've received from Congress in getting 
the Middle East Radio Network up and running, and in funding surge 
broadcasts in times of crisis. We look forward to working closely with 
you in the future as we, through our broadcasts, talk directly to 
people around the world about who America is, and for what it stands.
    MERN is a prototype of the international broadcasting of the 
future. And as a cornerstone of public diplomacy, U. S. international 
broadcasting--and MERN--are formidable means of getting America's 
message to the Islamic world and elsewhere.
    I appreciate your time and I'd be happy to answer any questions. 
Thank you.

    The Chairman. Thank you very much. I am delighted that the 
press got to hear that very truncated example of the format of 
Sawa, and I recall when I met with you privately about this 
you, paraphrasing, basically made the point, you have got to 
get them to like listening to the station. You have got to make 
it popular if they are going to listen to the news, and I am 
assuming that this is going to do something more than promote 
Britney Spears' records in Amman.
    One of the things that did surprise me, and I am 
embarrassed to say this, but I suspect I am not unique among 
Americans, or even American Senators, and that is how popular 
rock stars are, including indigenous rock stars, in the 
countries that we are trying to have our voice heard, and you 
gave me an example.
    I wish you would repeat it, because I do not want to get it 
wrong. Even before you got Sawa up and running there was an 
Egyptian, I believe you said, and maybe a Jordanian rock star 
that were performing in Los Angeles. They were on tour, and you 
indicated to me you had the idea of being able to go send your 
folks over to interview them and then replay what they had to 
say about America in their words back in Egypt and in Jordan. 
Would you mind repeating that very truncated version again of 
that story for the folks here?
    Mr. Pattiz. Sure, absolutely. There were two Arab artists 
who were touring the United States, Hakkim and Khaled, and we 
not only interviewed them and the Arabic-speaking people in the 
audience who were at the performance in Los Angeles, we 
recorded the entire concert, so that we will be able to take 
that concert that was performed in Los Angeles and broadcast it 
back to the region with comments from Hakkim and Khaled and 
many of the people who attended the concert about their 
impressions of America--in the case of the artist, what it is 
like to tour America, what the difference in the audiences 
between Los Angeles and New York might be like--to really 
create, if you will, a cultural exchange on the radio.
    And of course, knowing the importance of music artists to a 
music-driven format, music is a tool to attract an audience. We 
are very, very conscious of what our mission is, but the music 
attracts the 30-and-under, and specifically 25-and-under 
audience that we are really going after. So what we are doing 
right now in the region in our bureaus is having music 
personalities and stars doing liners and promos--you are 
listening to radio Sawa, this is whomever--to really connect 
with our audience. Because the first thing we have to do, of 
course, as you said before, Senator, we have got to get them to 
listen to us, and we have got to get them to like us, and on 
this level I think we are succeeding.
    The Chairman. One of the things you had indicated to me is 
that you were not surprised, but that others were surprised 
at--your interviewer asked these Egyptian and Jordanian rock 
stars what their impressions of America were, and they did what 
Secretary Beers had said in another context, is that they were 
saying things like, I was told they were not going to like us, 
and people would look at us funny, and that people didn't like 
Muslims, and you know, I went to a mosque and there are people 
here, et cetera. Am I accurately portraying----
    Mr. Pattiz. Absolutely, because I think it is really 
important to be able to use stars from the region to talk about 
their positive experiences about the United States and America 
and Americans and broadcast those back into the region. It is a 
very important tool.
    The Chairman. Now, I will ask one last question and yield 
here. I have so many, but others do as well. One of the things 
that is being discussed, and is being discussed among us, 
Senator Lugar and others have a piece of legislation on this, I 
have a piece, the House has passed a piece of legislation 
relating to public diplomacy, and one of the things we are 
going to get into fairly quickly will be in effect my words, 
not either of yours, the next stage, what do we do with that 
other medium, television, and do we attempt to compete there, 
and I may be mistaken, but based on your written testimony I 
think there may be a slight difference in your views about 
that. I do not know that for certain.
    Now, Madam Secretary, in your statement you say, and I 
quote, ``television is the medium of today and the future, as 
is evident in the growth and influence of Middle East 
television satellites and regular television broadcasting. 
Existing channels are hungry for programming, and we need to 
direct resources to production, acquisition, and distribution 
of compelling quality programs. I am hesitant to endorse the 
concept of a greatly expanded direct broadcasting capacity 
without a great deal more research on how best to approach it 
as this market has done. This is particularly true given the 
experience of the BBC's expensive experiment with Arabic TV 
broadcasting.''
    And Norm, you had indicated to me, and I cannot find the 
statement now, but you had indicated to me personally that you 
thought this held a great deal of promise, and that it is a 
place we should be moving, as I understood you, more rapidly 
than it appears, Madam Secretary, you think we should. Can you 
explain--and that will be my last question--explain more about 
the experience of the BBC and how you think we should proceed, 
and then you, Mr. Pattiz, and then I will yield to Senator 
Lugar.
    Ms. Beers. Well, I think that the message from the attempt 
of BBC to do a successful Arabic television channel is simply 
that it is very difficult to pull off well, and even VOA's 
television efforts have sometimes been less than productive, so 
it is a big boy's game, and we already have very aggressive and 
a widespread satellite television in very good band positions 
with the four top Arab networks. However, I do agree that 
television is extremely intrusive, and a very important and 
growing, actually, medium in this crucial part of the world.
    I also agree with the initiatives, the 9/11 initiatives 
that talk about spreading the word and getting it out. The 
model on the MERN is very impressive. I mean, Norm has followed 
all of the sophisticated techniques we use in marketing and 
modern communication to make this launch of MERN a significant 
success, but for me it comes down to allocation of resources 
and I am really concerned about all of the work we do in the 
State Department that has to do with long term transformation 
exchanges as well as getting the word out and getting the word 
back in, and so I refer to those programs with which we have 
had great success, and I just want to be sure that we can 
support these and magnify them.
    So to me, it is the tension--no one here is surprised about 
the budget and how we allocate resources.
    The Chairman. I think that is a logical concern, because if 
you look back--and I will not bore the committee with it now, 
but if you look back at the total amount of money we spent on 
public diplomacy 15 years ago, it is more than we are spending 
now.
    Ms. Beers. And we have many more countries and fewer 
people, and the dilution of resources is a shocking issue.
    The Chairman. I for one parenthetically think we are going 
to have to significantly increase the resources we devote to 
this. I think we have our priorities wrong, but at any rate, 
Norm, would you respond to the television piece?
    Mr. Pattiz. Yes, I would be happy to. First, let me say 
that if it turns out to be the will of the Congress or the 
administration and all the powers that be that the Broadcasting 
Board of Governors initiate a satellite Arabic language 
television station in the region, I can assure you that it will 
be a first class operation. Radio and television do different 
things. MERN is designed to focus on a target audience that 
really is not the primary television listener, the 25-and-under 
adult, basically probably between 15 and 25, and engage them in 
a way that reaches them where they live on the radio. As I 
said, radio is a medium of formats.
    Television is a medium of programs. Radio says a lot about 
who its listeners are. I dare say if I stepped into any one of 
your vehicles and took a look at the settings on the radio, the 
buttons that you have preset, that I could tell a lot about who 
you are just by taking a look at those settings. It is like 
walking into somebody's house and looking at the magazines that 
are on the coffee table. If there is a magazine about tennis, 
you can be pretty sure that is probably one of their key 
interests. That is what radio is.
    Television is completely different. People are not loyal to 
a television network or a television station. They watch 
programs, and they turn the dial all the time, which gives us 
the opportunity to be more hard-hitting in our approach. If we 
wind up saying things that are hard-hitting on a television 
program it is probably not going to turn the audience off from 
watching that channel or keep them from going back to 
programming that they like to watch, and quite coincidentally 
going back to the controversial programming as well.
    The BBC example is a good example of a situation that did 
not work. But let me tell you why it did not work, which I 
think bodes well for the way we would do it. The reason that it 
did not work was, it was a co-venture with Orbit, a satellite 
company that is basically a Saudi company, where the BBC was 
providing programming and Orbit was putting up the money and 
the distribution. Well, for an operation like the BBC, who 
needs to have its own editorial integrity, that kind of a 
situation I think was doomed to failure, because they started 
putting programming on that service which was objectionable to 
the Saudi Government and the service went away.
    What we are talking about doing is putting up our own 
satellite channel so that what we put on that satellite channel 
we program from start to finish, whether it is 18 hours a day, 
or 24 hours a day. What we really do in television right now 
is, we are a syndication company. We produce a program, and 
then we go to local providers and ask them to carry that 
program.
    Well, believe me, the hard-hitting stuff is never going to 
see the light of day on local media. They are not going to 
carry it. And we can't control the other things that they put 
on the air. We have the example of the Secretary of State 
having his comments aired on Al Jazeera, immediately followed 
by people who tear apart everything he just said.
    We need to control what the programming is before the 
program and after the program. In television there is a concept 
called audience flow. Even though television is a medium of 
programs that are not necessarily the same from hour to hour, 
television tries to appeal to a particular audience and then 
carry that audience through to the next program.
    For instance, you start on the morning show--and believe 
me, this is right off the top of my head--if we were going to 
do something, it might be likely that we start with a morning 
show, followed by a CNN or Fox type news programming period 
going into the midday, where you might want to go to more 
entertainment-oriented programming that was more family 
oriented, because there are kids and mothers and people around 
in that time period, moving back into in the late afternoon and 
early evening with more hard-hitting traditional news type 
programming, and following up with entertainment programming 
after that.
    Let me just say this, in conclusion----
    The Chairman. That is all right. This is very important. Do 
not worry about your time.
    Mr. Pattiz. If we were going to do a project like this, if 
we were given the go-ahead to do a project like this, rest 
assured that it would be completely researched the same way we 
did MERN, extensively researched, so we knew who we were 
talking to and what our chances for success were program by 
program. We would put together a blue ribbon panel of advisors, 
many of whom I have informally talked with about this already, 
including the heads of major communications companies and movie 
studios who I believe would be very helpful, at least in terms 
of the entertainment programming in providing programming for 
us in a way that would show their patriotism. Let me also say 
that in the House bill I think there is $135 million in that 
bill for new broadcasting initiatives, about $65 million of 
which is for an Arabic satellite TV channel.
    The Chairman. I thank you very much. There is a vote on. I 
am going to yield to you, Senator Lugar, now, as I should 
anyway, and I am going to go vote, and maybe we can continue to 
keep this going. Thank you.
    Senator Lugar. Thank you very much, Mr. Chairman.
    Mr. Pattiz, I think the statement that you just made, your 
description, really, of the skill of American broadcasters and 
television broadcasters is tremendously important. I hope it is 
not inappropriate, I would suggest that C-SPAN cover this and 
make life easier for us so that there is a constituency in our 
own country that understands the genius of American 
broadcasting and how things happen, how they are put together, 
and why the plan you have suggested has I think every hope of 
being a much better one than past efforts.
    My first question, and I will try to encapsulate all of 
them so that both of you can comment on them. I am just 
intrigued by how much development there has been in the 
methodology of polling, or of marketing surveys or whatever you 
want to call them in these countries.
    Clearly, if you are able to gain data, it is important it 
is used to make certain that the radio or the television 
efforts are successful. The acquisition of data and information 
to guide our efforts is extremely important. An understanding 
of the attitudes and perceptions the world has toward our 
country, our values, our policies is extremely important. The 
purpose of our public diplomacy must be to make certain not 
only that we have listenership and in fact people are paying 
some attention, but in the course of time that we are engaging 
ideas.
    Now, likewise, the other side of the coin is what kind of 
public diplomacy responsibility we have to bring some support 
of independent media that arise, indigenous media from these 
countries, that is important, too. In addition to our 
ambitious, sometimes even aggressive efforts in public 
diplomacy, we must also be mindful that the freedom of 
expression must really come from the heart of these countries, 
and that is a more delicate operation.
    Now, the National Endowment for Democracy supports 
independent media with modest grants to various entities. That 
was true throughout the cold war in Eastern Europe and 
Southeast Asia, but these have been very, very modest and are 
often in danger of obliteration by congressional lack of 
appropriation. I am curious as to how we can coordinate both of 
these situations. That is, to find out really what people are 
thinking so that we are successful in our broadcasting and 
overall objectives and how we can help develop independent 
media in those countries.
    And finally, who will be in charge of it? Does this come 
with Under Secretary Beers, or with the Broadcasting Board of 
Governors or with the State Department, USAID? In other words, 
I am not certain I have been able to trace what I think is 
sometimes described as a fragmented authority. Can you respond 
to any of that? I would like to hear from both of you, if I 
might.
    Mr. Pattiz. Let me respond to the last question first. In 
terms of who would be in charge, I think this is clearly a job 
for the Broadcasting Board of Governors, and I think one of the 
primary reasons that the Broadcasting Board of Governors exists 
and is effective is because Congress in its wisdom created the 
Broadcasting Board of Governors to serve as a firewall between 
the independence of its journalists and the pressures that 
would come from outside influences, maybe places like this, or 
the State Department, or the administration, what-have-you. If 
we do not have credibility, we are lost, especially in a region 
where you have to do a real Kabuki dance to get the information 
across and get them to listen.
    I always loved what Secretary Beers said when she said, 
``it is not what you say, it is what they hear.'' So if we were 
to go out and do something, and this were to be under the 
purview of a government agency other than the BBG, I would be 
concerned about being able to protect the independence of our 
journalists.
    On the research question, there are places where we can do 
very sophisticated research and there are places where we can 
do nothing more than anecdotal research. In the places where we 
can do sophisticated research, which is a large part of the 
Middle East, we utilize Western research companies. In our 
case, we go out and find companies that do research for radio 
and television, the kinds of things we are interested in 
putting on the air. They put together the methodology and 
subcontract with local research entities in the region who 
actually go out and conduct the surveys.
    Does it tell us anything about local attitudes? Absolutely, 
it does. The first question we asked in our research for Radio 
Sawa was, ``Would you listen to a radio station that was 
brought to you by the United States of America?'' Forty percent 
of the people we interviewed said no, but that means 60 percent 
said yes, and my personal feeling was that of that 40 percent 
who said no, probably half of them were going to listen to it 
anyway but did not want to say it to an interviewer.
    So we also know that, although there is a clear lack of 
support for U.S. policies in the Middle East, American values 
of democracy and freedom of choice and self-expression 
definitely resonate with the Arab street, so that kind of 
information is very much available.
    I can go on and talk about the indigenous media if you 
like, but maybe Charlotte would like to comment.
    Senator Lugar. Let me ask quickly, do we have enough people 
involved in this who understand the languages, the idioms, and 
what-have-you? You mentioned you have five dialects on one of 
your radio programs, but the thing we heard today, does this 
appear in many languages so that essentially people would 
understand what you had to say?
    Mr. Pattiz. Absolutely. The service, Radio Sawa, is an 
Arabic service, but there is the Arabic that is spoken in the 
gulf, there is the Arabic that is spoken in Iraq, there is the 
Arabic that is spoken in Egypt, which is a more classical 
style. One of the reasons why we want to have five directed 
programming streams is, since radio is such a personal medium 
and relates so directly to the listening audience, it is very 
important that they are listening to someone who is speaking to 
them in their own language with their own idioms.
    We have a very talented news director who we have hired, a 
gentleman by the name of Mouafac Harb, who was formerly the 
Washington bureau chief for Al Hayat, managed the Lebanese 
radio and television network, and was the Middle East 
correspondent for Newsweek. He is very talented, is an Arab-
American, who understands the dialects, and we have been able 
to surround him with a team of professionals who understand 
exactly what you are talking about.
    Senator Lugar. Secretary Beers.
    Ms. Beers. I think your question about research is very 
insightful, because I just noticed a new poll recently that 
said how much Muslim youth like America, in complete contrast 
to what we have been hearing, so how you ask the question is, 
in fact, an art form. We just prepared some messages that are 
like minidocumentaries on Muslim life in America as a way of 
opening the door to a dialog on faith. If we went out and said, 
look how faithful we are, we would not have any listeners, so 
we talk about this amazing story of Muslim life in our country 
as a way of opening the door.
    These documentaries will run in Middle East television 
satellite stations, and we have a media program ready to go. 
Importantly, though, we use those messages as a stimulus to do 
consumer research, which is not typically done in any of our 
organizations. That is why Norm and I like to share the 
research we get in, and one of the things we learned is how to 
talk about it. For example, in every case they came back and 
said, show us pictures of our people in the company of other 
Americans. Well, we did not have that in the visuals. It is a 
very important indicator of self-esteem. Am I part of the 
group? Are you accepting me?
    So every time we do these pieces of research we come back 
with a data bank we are collecting on what causes the attitude? 
Can you get past the policy issues into long-term attitudes? We 
just feel that a news study in all the Muslim countries, it is 
much more ambitious in terms of asking about attitudes and 
feelings. If we cannot pull out the feelings we really cannot 
properly address the programs.
    The interesting thing was, people predicted that they would 
not like to see all of these overt messages from the United 
States and the general response back was, tell me more, and 
then we learned we have to do this research from Indonesia, 
where we started some of the studies in Jakarta. In each case 
we learned how much emphasis to put on faith. We are doing a 
soccer player, we are doing a TV documentary on the Egyptian 
Nobel Prize-winner, we are doing Iman and his family, and we 
have all of these fantastic cross-populations in the United 
States.
    The same thing in a way is what we find about independent 
media. I find when the media becomes freer and more independent 
we are much closer to being able to describe the process of 
law, the rule of law, the democracy. We just saw something 
amazing happen in Kosovo, which is just beginning to have a lot 
of media that is free to experiment. They did their own series 
on rule of law and democratic process, but that can be deadly 
dull.
    In fact, they brought in local actors, they produced 
something like a soap opera within the embassy and their people 
and the local actors, so that you could not only see and hear 
what the process is about, but because of the independent 
media--this was a small television station. Its success was so 
clear that the big, state-owned media people bought the 
program, so it is not just independent media, it is training 
them, giving them program content, and teaching them how to do 
something that attracts the audience.
    The last thing was about who is in charge. I think the 
structure we now have at the State Department is clearly 
responsible for any and every articulation of editorial policy, 
and as a member of the board of BBG I get to wear both those 
hats, and it is very constructive. I think our collaboration is 
first-rate. I know we have all worked on it, importantly, but 
for example, Radio Sawa now has its next obstacle path, which I 
think I am very comfortable with the approach in this of 
producing editorials and more U.S. advocacy in such a way that 
these audiences can hear it, as opposed to turn away in 
distrust and cynicism.
    Senator Lugar. Let me intervene at this point, because I am 
advised there is a minute-and-a-half left in the first vote, 
and Senator Dodd and I will want to vote and return. We are 
going to have another vote immediately following this one, so 
the chairman has asked that I temporarily recess the hearing.
    Senator Dodd. Before you do that, and I will recess it for 
you, but I just wanted to commend both of you here for this 
effort. I hope people hear what you had to say. I talked to 
Charlotte I think a couple of months ago when the former 
Ambassador from Pakistan called me with the suggestion of doing 
this, and that is inviting some of the very people who are most 
talented in producing and putting together programming, to 
invite them, and it is not new. You go back and look at the era 
of Franklin Roosevelt, what he did with Bill Paley and CBS in 
Latin America, what he did with the Disney companies.
    There are plenty of historical examples historically where 
people understood symbols in programming to be able to have 
some influence on the younger generation, so it is very 
exciting to have you here. I regret I cannot come back after 
this to hear more of the testimony, but I thank both of you, 
and really I like the idea of putting up our own satellite. I 
have got to tell you, I think that is the only way you are 
going to guarantee that we have some real influence in 
penetrating these markets. In the absence of doing that, I 
think it is going to be very difficult in a lot of ways. The 
money goes down the drain.
    So I like that concept you are working on, and the 
invitation of independent production companies even in this 
country to be able to have access to these markets is a way 
also of having some influence, and so with that, we thank both 
of you, and I apologize again. We will stand in recess until 
the chairman comes back.
    [Recess.]
    The Chairman. The hearing will come back to order. I thank 
the panel and the other witnesses for their patience. As 
Senator Hagel just said, we just had a minor vote on raising 
the debt limit so we would not default for the first time since 
Hamilton on the debt. It was a very painful exercise to watch 
some of my colleagues do this. I am already in the tank anyway, 
so I have been voting responsibly for 30 years, but not 
popularly on that issue, but at any rate, so we may have a 
chance to get you more money because we may actually pay our 
debts.
    But all kidding aside, Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you. I am grateful, as 
we all are, for your time this morning and preparation, and 
most of all what you do for our country, especially at this 
historic, challenging time in the world. I wanted to go back to 
a couple of points that you each made, and Norm, I would start 
with you. We have had some opportunities to visit previously 
about what you are doing, and I have not had an opportunity to 
hear the update which you have provided this morning, which is 
most encouraging, and it is about what you had framed and 
defined when we last met as to what your objectives were and 
your intentions, and so I congratulate you and your colleagues, 
and even though you have a heavy burden to carry, and Tom 
Korologos, nonetheless you have managed to do well, so please 
extend our congratulations to your colleagues, your team for 
the job they have done.
    And Secretary Beers, we will talk in just a minute here, 
but I wanted to ask one question of you, Norm. In your 
conversations with us this morning, you recited your 
observations after the trip that you took and you documented 
that, and you talked about the media war that was going on. 
Would you define in a little more detail the competition that 
is out there? What are we facing here?
    You mentioned it in general terms, but define it a little 
more clearly. What is it that we are up against as far as--we 
understand Secretary Beers approach, some of this as well, but 
the kind of resources and the technologies and the 
sophistication of the other side of this that you are having to 
deal with, not just the underlying philosophy, but the assets 
on the other side?
    Mr. Pattiz. Sure. I have to say I just recently returned 
from a trip to the region, where I spent a good deal of time in 
the gulf in places like Doha and Manama in Bahrain, and also in 
Dubai, and I had never spent that kind of time in the region. I 
had only been in Doha before that, and I was very much 
impressed with what I saw. Doha is, of course, the home of Al 
Jazeera. Al Jazeera is the Arab satellite station that is most 
well-known by Americans, most likely because of the joint 
agreements that it has had with CNN and others over here.
    But Al Jazeera is not the most-listened-to satellite TV 
service or media outlet in the region. There are significantly 
larger outlets, and what you have throughout the region is very 
sophisticated technology. When I went to Abu Dhabi and saw 
that, it is like Emerald City. I mean, it is like a brand-new 
city. People who think that is like walking through Amman or 
Cairo, forget it. The things they have, and the new media 
center and high technology centers they are building in those 
regions are incredible. We are going to locate our Middle East 
Broadcast Center in the Media City in Dubai, and there are a 
whole lot of other international broadcasters that are doing 
the same thing.
    So they have the resources, and they definitely have the 
support of their governments, because in the case of a place 
like Qatar, for instance, Al Jazeera has really put them on the 
map. Without Al Jazeera most people would not know how to 
pronounce it, how to spell it, anything about it.
    Al Jazeera, positioned itself as the Arab CNN. It is not. 
It is kind of, CNN meets Jerry Springer. You know, they have 
news presentation which is CNN-style, and then they have talk 
shows that are inflammatory and inciteful and what have you, 
and that is not unique. That kind of programming exists 
throughout the region.
    The Chairman. It exists here in the United States.
    Mr. Pattiz. But that is somebody else's problem right now, 
and I do not want to talk about that, because some of that 
might be mine.
    But anyway, to be serious, there are tremendous resources 
available, and there are multiple media channels available, and 
when you get down to it, there are some radio stations, some of 
them that are licensed and some of them that are not licensed, 
clandestine radio stations that literally preach hate 24 hours 
a day, and part of that has to do with us and what we stand for 
and what we believe in.
    So it is an incredibly challenging area, but I have to say 
that we received very good cooperation from some of the 
moderate Arab governments. I believe that it was a fairly--
well, it was a pretty easy way to show support after 9/11 for 
our war on terrorism for some of our Arab friends, when some 
other activities we might have requested would have been a 
little more difficult.
    Senator Hagel. Thanks, Norm.
    Ms. Beers. I want to comment on that before we leave it. 
These organizations are always at the State Department looking 
for interviews and creating a dialog, and Chris Ross, my deputy 
and I, meet with them, and they are undergoing the same kind of 
budget crunch and profit issues that many organizations will go 
through, especially television, and I think their number one 
problem coming up is going to be programming. Like, the 
audience participation and interest in Al Jazeera drops 
dramatically every time they lose a bin Laden tape.
    You also have to remember, some of their programming is 
actually helpful to us. For example, that last tape, which we 
did not honor with a lot of response and dialog, included the 
confession of one of the 19 hijackers. It had a profound effect 
on the media newspaper journalists in that area, because they 
no longer attempted any more to say that this was not bin Laden 
and al-Qaeda, which they actually could hitch onto for a while, 
and so we have got to deal with the fact that they can be 
uneven in their coverage and sometimes positive.
    And the other thing that is left out of this discussion is 
what could happen if we help support independent news 
facilities at the time that the government might show an 
opening or a welcoming to that, as we just discussed for Kosovo 
and the power of that independent medium, and those are 
variables in the mix.
    Mr. Pattiz. If I can give you one concrete example, since 
our tech is sitting over there, what I would like to do, and 
this is very quick. I do not even think it is 30 seconds of 
material. Let me play you a lead-in to one of our newscasts in 
Arabic, and then I will translate what comes right after that 
in English so that you can hear the kind of information we are 
putting out. Story is about an Arabic newspaper that is 
reacting to Radio Sawa. Can you just hit that?
    [A CD was played.]
    Mr. Pattiz. Now, I listen to this every day, and there are 
a number of stories that are going on, but I want to read you 
one of the things it is reporting on, because it comes out of 
the Arab press, as a matter of fact. It says, the danger of----
    The Chairman. Are you reading to us what we just heard in 
Arabic?
    Mr. Pattiz. I'm reading to you a commentary in the 
indigenous press about that broadcast. ``The danger, of course, 
is not in the music, it is in the news that usually begins with 
a moderate, neutral tone that shifts gradually toward the 
terminology that serves the United States' interest in the 
area.''
    Radio Sawa's Web site refers to a long-term U.S. interest. 
Long-term means slow osmosis of terminology from one generation 
to another. This technology does not serve our national 
interest, and does not reflect our views of things. In the 
midst of the Church of Nativity crisis, I used to hear phrases 
on Radio Sawa referring to armed Palestinians trapped inside 
the church. This is not correct. In truth, Israelis were the 
ones who were armed on the outside, where the ones on the 
inside were unarmed.
    Radio Sawa uses phrases like, parties to the Middle East 
conflict. This is a very dangerous phrase that transforms the 
Zionist occupation of Palestinian lands to a broader conflict 
between two neighboring countries and, by default, denies the 
Arab cause and right to retain the holy shrines important to 
Muslims.
    This is the kind of stuff that goes on in the indigenous 
press that we attempt to debunk in news reports that we put on 
the air pointing out the inaccuracies of many of those things, 
and I think that relates directly to your question.
    Senator Hagel. It does, and I appreciate it, and it is 
helpful to give us, as I said earlier, some definition of what 
generally you were referring to.
    Secretary Beers, may I ask you a question? Before I do, let 
me express my gratitude to you and to your team as well for the 
work you are doing. You said something to the effect, and I 
guess you asked it in a rhetorical question type way, what 
about those under 20. I think that is the essence of everything 
we are about, or should be about.
    The military option is but one part of this war, an 
important one, but only one part of it. Where you are focused 
and concentrated is absolutely critical for the future of this 
country, the future of the world, and I do not think I 
overstate that, and I am a strong supporter of what you are 
doing here.
    Something else you talked about, common denominator values, 
love of family and faith, we need to do a far better job of 
connecting that, and that is what you of course are doing, and 
Norm and others, and we will work, as the chairman said here, 
to provide the kind of resources you need, but you should know 
that you have a lot of support up here, and that we need to go 
much further and deeper and wider than we ever have here.
    We are losing a war across the globe that we need not lose, 
we should not lose it, and I think of Iran and the great debate 
we are having in some of these areas among my colleagues up 
here. I mean, here is a country of 70 million people where most 
of those people were born after 1979. Now, why would we 
needlessly push away an entire generation by a foolish policy, 
and that is why we look to you and the educational gap and the 
cultural and information gap that you are trying to fill, and 
through what Norm is doing and his team, it works.
    So I make that statement because I suspect occasionally you 
both wonder if anybody is paying attention. We are paying 
attention, and we are grateful for what you are doing.
    Now, let me ask a question. You mentioned in your 
testimony, Madam Secretary, the point about working with the 
private sector, and by the way, I think we are all pleased that 
we are finally being able to bring together the talent from the 
private sector and the governmental sector, the State 
Department, other professionals who have been at this, along 
with some creative touch that the private sector brings, not 
that the government does not, but it is a waste of resources 
when we do not do that, and this is a very good example of how 
we are doing that, and we are doing it very well and in the 
interests of this country.
    But your point about--you say we are also working to engage 
the private sector. Could you give us some examples how you are 
doing that?
    Ms. Beers. Yes. I think that what is important is that none 
of this effort at the moment is funded in terms of people ask, 
well, if they are going to do it, why do we have to have any 
funding. Because of the sheer machinery of making contacts, 
building teams, organizing dialog, making sure that the 
affinity for the embassy and for the work that happens in the 
field is in sync, and it is complex, but the good news is, I am 
often asked to give speeches, and I choose those that have a 
large number of CEO's in the room. I grew up with a lot of 
these people, and the basic response back is, guide us, we will 
do this, and as you spend more time with the multinational 
heads they tell you about the number of invitations or requests 
they have, so part of what we have to do is coordinate our 
efforts, which I think you have asked us about in the past.
    The other thing we have to do is guide them somewhat by 
giving them the kind of information you have been asking us 
about, which is, why do they feel this way, and also what are 
the universal values that we can safely discuss. For instance, 
somebody used the word, freedom, but that is one of the loaded 
words in terms of communicating with the Middle East and the 
Muslim population, so we have to tap into our sophistication in 
our bureaus, and then guide the outside world, the CEO and the 
multinationals.
    But what is encouraging is, I had a meeting with, the head 
of Johnson & Johnson who said, we have 4,000 people in the 
Middle East. What shall we ask them to do? And Procter & Gamble 
and Unilever and these companies make a point of hiring locals, 
and they talk all the time about how their locals would ask to 
take part.
    Now, it is delicate, because you cannot send them out as 
missionaries, or ask them to be speakers on the road, but you 
can equip them with, say, a wonderful discourse on the music of 
the United States. You can show them--we can provide them with 
materials and cultural insights, and speakers if they choose to 
activate them, but the point is, they are the ones that have 
the resources to take on the huge job of the very young, and 
that has a lot to do with education and curriculum, and the 
things the State Department and many other agencies are working 
on, but they have employees and depth, and great understanding 
and daily dialog, and I think we have to harness those assets.
    Senator Hagel. Well, thank you again. Mr. Chairman, thank 
you.
    The Chairman. I have many more questions of both of you. 
This has been, and I am sure will continue to be, one of the 
best hearings we have had in a long while. I think the point 
that Senator Hagel makes, particularly to you, Secretary Beers, 
you have a lot of friends up here. You are going to have the 
problem of us trying to give you more resources, and maybe your 
outfit will not say, we should give you those resources.
    Ms. Beers. I have noticed that problem.
    The Chairman. But all kidding aside, and we have great 
respect for you, you come from the private sector, and you come 
from a high-powered portion of the private sector, and it has 
been an asset, and we appreciate it.
    I also want the record to show that you oversee a lot more 
than just what we have talked about here today. There are many 
other aspects of your responsibility, including a quarter-
billion a year in direct appropriations for the Exchange 
Bureau, including another $150 million for the SEED Act and a 
lot of other things we are spending money on that I want to ask 
you about, but I am going to submit the questions to you in 
writing.
    I am not doing this cavalierly. I would very much like some 
detailed answers to these questions, because part of the 
legislation, for example, that Senator Lugar has with Senator 
Kennedy, and I support the notion, is this issue of, do we 
vastly increase our exchange programs with this area of the 
world? We necessarily and successfully for 50 years made a 
significant investment in Eastern Europe and Russia, and Europe 
generally, and I would argue it paid off.
    Dick and Chuck and I travel the world in our 
responsibilities. Dick and I have been chairman or the 
subcommittee chairman of Europe for years and years. I bet you 
70 percent of the people who are heads of state now, or people 
in positions of significant authority are people who have been 
educated here in the United States of America.
    Ms. Beers. One hundred fifty percent of the Worldwide 
Coalition were all exchange students, and the number is much 
higher if you just take down their second-level people, but one 
of the things that was fascinating was the Freedom Support Act, 
and the fact that I can go there and look at the capacity of 
the public diplomacy when it was in a high support system, and 
the results are very impressive, and you can walk into a town 
in a new emerging democracy and find an information center, a 
library, a dialog going.
    The Chairman. There was a fellow named John Ritch who used 
to be assistant staff director up here. I get credit for having 
written the so-called SEED Act, which was followed by the 
Freedom Support Act. It was John Ritch's idea, and that was the 
biggest thing Dick and I fought for those centers, just having 
the physical capability of somebody being able to walk in.
    It is kind of like what is happening now in every major 
corporation. They are building chat rooms--for example, there 
is ING, which is a large banking system. I met with them in 
Delaware yesterday. They are building these chat rooms. The 
chat rooms are not really chat rooms. What they do is, they 
have coffee shops with the high-speed computers there where you 
can do banking online with them and other things while you are 
sitting there having a cup of coffee.
    Well, these are very important things, and I just want you 
to know, we know, and the public should know, your portfolio 
far extends beyond what we are talking about now, and I have a 
series of questions, about a dozen, that relate to that aspect 
of your portfolio. I do not want you to think because we are 
not getting to them, it is not because they have an equal 
interest and consequence here.
    I would also point out, and I do not say this cavalierly, 
and I do not say this because he is a personal friend, but Tom 
Korologos has been involved in this for a long, long time, and 
had we the time I would ask Tom to come up, but we have a long 
list of witnesses to go here. Tom is one of the leading 
Republicans in this town, and has been for years and years. 
This is not a partisan thing.
    My former AA of 25 years and Tom, a guy named Ted Kauffman 
and Tom have been friends for years. They both serve on the 
Board. This is something that spans, and everyone should know 
this, that spans the ideological divide, as we will sure see in 
a moment with Speaker Gingrich, who is incredibly articulate on 
this subject.
    So I just want you to know that I think it matters a lot. 
We have a tendency to say, this is a historic hearing, and this 
is--you know, we are self-important, but the truth is, I think 
this is one of the most important hearings that we have had in 
a long time here, and I want to particularly thank you, Norm, 
for doing what we have a tendency in government not to do very 
well.
    I always say to my staff, you have got to tell a story. You 
have got to tell a story to the people back home. You cannot 
just give them all the facts. You have got to tell a true 
story, and I know you and I met for a long time over lunch, and 
you kind of looked at me quizzically when I said, come and tell 
a story, play the disk, connect the dots, a phrase that is 
becoming very popular here, but what you did today to anybody 
listening to this is, they now picture it. They now understand 
what they mean.
    I do not have to say now to everybody as I push this, you 
know, when you fly across the country and you put on the head 
set and you listen to preprogrammed music, well, that is a guy 
named Pattiz, and what does he do? He does things like, play 
the music you like, and interview the artist, and the artists 
tell their story, and you get into this whole thing. I said, 
that is programming. That is what these guys and women are 
doing now on a much broader scale, and people would look at me 
and say, I think I got it.
    But by playing that 3\1/2\ minute CD, you cut through 
here--in my view you cut through a layer of confusion, a fog 
that now, when I go home and say, look, I want to spend more 
money on this--I introduced a bill that would have given you 
guys, and you helped write it, about $\1/4\ billion dollars in 
terms of being able to--for hard asset, and another $\1/4\ 
billion a year to make it run.
    The President was enamored with it, and I guess at the last 
minute he concluded that maybe we should go slower, and I am 
not being critical. But the point is, we have got to make the 
public understand. This is a two-way communication. We have got 
to explain to our folks back home why we are asking their very 
hard-earned tax dollars to be spent on a radio station or a 
television station or an exchange program with 1.2 billion, 
hopefully, eventually, now much less, just focusing on the Arab 
portion of the Muslim world.
    So I cannot thank you enough, and we are going to be 
calling you back. Obviously, Charlotte, you will be back a lot. 
You are a critical component here, but we are going to ask you 
and the Board to come back. I have questions to you as well, in 
writing, on the relationship--and it is not meant to be 
pejorative, but the relationship between the Board as Senator 
Helms and I and Senator Lugar and others envisioned it when we 
did this reorganization and the State Department. How is that 
working? But really and truly, what do we do to make it better 
or worse? How can we help?
    The last point I want to make, I want the record to show 
that notwithstanding what my 21-year-old daughter might think, 
I do not want to go down as a footnote in the history of this 
committee as being the first chairman to bring rock and roll to 
the Foreign Relations Committee. I hope I will be known for 
something beyond that, but I cannot think of a time I walked 
out, one of the people outside said, I have never heard rock 
and roll or Britney Spears played in the Foreign Relations 
Committee room, so I think it is a first.
    We appreciate it very much. We look forward to having you 
back. Thank you for great work, and we are going to be trying 
to see if we can--that old bad joke, we are from the Federal 
Government, we are here to help. We are going to try to see 
that you have the assets and resources that you need. Thank you 
very, very much.
    Mr. Pattiz. Thank you.
    Ms. Beers. Thank you.
    The Chairman. Our next panel is the former Ambassador to 
Morocco, and executive director and CEO of Northstar Equity 
Group, Hon. Marc Ginsberg, the former Speaker of the House, 
Newt Gingrich, Mr. David Hoffman, president of Internews from 
Arcata, California, and Veton Surroi, a very distinguished 
journalist from Pristina, Kosovo, so we would ask all of those 
to come forward if they can make it up here, and thank them for 
their patience.
    Welcome. It is good to see you Mr. Surroi. Last time I met 
with you we were in a different circumstance.
    Let me suggest, notwithstanding the fact that a former 
Ambassador is of higher rank, where I come from no one outranks 
the Speaker of the House of Representatives, so we are going to 
start, with all due respect to the rest of the panel, with 
former Speaker Gingrich. Mr. Speaker.

STATEMENT OF HON. NEWT GINGRICH, FORMER SPEAKER, U.S. HOUSE OF 
REPRESENTATIVES; SENIOR FELLOW, AMERICAN ENTERPRISE INSTITUTE, 
                         WASHINGTON, DC

    Mr. Gingrich. Thank you very much, Mr. Chairman. I want to 
thank you and Senator Lugar for holding a hearing on what I 
think is in some ways one of the two or three most important 
topics about America's role in the world and America's 
survival. I think this is really important. I thought the first 
two panelists you had were tremendous, and did a very good job 
in explaining the initial steps that the Bush administration 
has taken, and I commend you for encouraging further steps.
    If I could try to summarize fairly quickly, as you well 
know we live in an information age, and from television to the 
Internet to radio and other mechanisms of public information, 
are actually decisive in shaping public opinion and informing 
the public, and as societies grow freer, the impact of public 
opinion grows more important. I think traditional state to 
state diplomacy was the key to the agrarian and industrial 
ages, but it is clearly inadequate in the information age.
    If we in the United States cannot communicate with the 
people of countries we care about, we cannot sustain 
government-to-government relations. When a people turn 
decisively against America, their government will be 
increasingly at risk if it does not acknowledge the views of 
their people. Thus, for example, in the 1981-1982 fight in 
Europe over matching the Soviet Union by fielding mobile 
missiles, there had to be a very strong public information 
campaign that sustained the diplomatic initiatives at the 
government level.
    When we are faced with an organized, ruthless minority that 
is gaining ground through dishonest propaganda and through 
violence, we have to both meet its security challenge and its 
information challenge. In the late 1940s, a significant 
American education and information campaign in France, Italy, 
Greece, and other countries played a major role in the survival 
of freedom and the defeat of Communist tyranny.
    When we win militarily, we also have to be prepared to win 
culturally, educationally, informationally, and economically. 
People everywhere want to be safe, healthy, prosperous, and 
free. To the degree they see America as their ally in that 
quest, they will be strongly in favor of allying with America. 
We have to have fulfillment campaigns in Afghanistan and other 
countries after we defeat the extremist wing of Islam.
    One of my strongest messages in the Pentagon has been, 
forget exit strategies. They do not exist. They are nonsense. 
They are not going to happen. Instead, think about fulfillment 
strategies that enable governments like that headed by Mr. 
Karzai to create safety, which is the precursor to health, 
prosperity, and freedom, but I recognize that we care about all 
four.
    Let me also emphasize, we have been successful at doing 
this. Germany, Italy and Japan after World War II became 
profoundly different countries. South Korea after the Korean 
war was nurtured for many, many years by the United States from 
an authoritarian and to a dramatically open and democratic 
society. If we apply the same techniques and the same 
investment of capital, values, and education we can succeed 
again today.
    This requires a five-pronged continuing American effort 
against extremist Islam, against those Islamic dictators who 
would acquire weapons of mass destruction, against disorder and 
barbarism, and genocide, and in favor of health, safety, 
prosperity, and freedom for all people, and I want to emphasize 
I think it is a mistake to not be clear that there is an 
extremist fanatic faction of Islam which is prepared to impose 
tyranny on its own people and is prepared to kill others, and 
unless you are willing to confront this and win this argument, 
it is very hard to distinguished all of the decent, honorable, 
hard-working people in Islam, many millions of whom, 6 million 
of whom now live in America, and live full lives pursuing 
freedom and happiness within a religious framework which also 
recognizes the rights of others.
    I think there are five stages. First, that where necessary 
the United States and its allies have to be the guarantor of 
physical safety against the terrorists, the murderers, and the 
committers of genocide. This is particularly a challenge, I 
think, in the Israeli-Palestinian situation, but it is a 
challenge anywhere, that you have a totalitarian regime or a 
terrorist movement that will kill those who seek moderation and 
who seek freedom.
    Second, having established safety, the United States and 
its allies have to implement strategies of wealth creation 
based on private property rights, the rule of law, and a 
rewarded work ethic. That is, if you go to work, you end up 
being rewarded for it. Information age technological 
infrastructure, for example, mobile phones and the Internet, 
modern systems of health and health care, and the culture of 
freedom and self-government.
    I want to emphasize, this is only partially a resource 
issue. I hope this committee will look carefully at how AID is 
structured, will look carefully at the World Bank and at the 
IMF. The fact is, if you took all the money spent over the last 
40 years on the poor parts of the world, you have to raise the 
profound question of why it has not worked, and whether that is 
a question of strategies as much as it is a question of 
resources. I think most of the failures of development in the 
last four decades have been failures to exploit the ideas which 
underpin wealth creation, and that is largely a function of 
public diplomacy, or public information operations.
    Third, when we are confronted with a coherent ideological 
opponent such as Nazism, fascism, Japanese militarism, 
communism, or the extremist fanaticism wing of Islam, it is 
necessary to develop a countervailing intellectual 
communications effort on behalf of freedom, modernity, and 
individual rights. Young people growing up have to be given the 
choice between hatred, violence, and tyranny, and the 
alternative of peace, opportunity, and freedom. Only a 
systematic educational and public information campaign can 
really give them a choice. In our current conflict, the 
madrasas of extremism have to be replaced with schools that 
educate young men and women into productive modern lives that 
are the basis of prosperity and integration into the modern 
world.
    Fourth, in order to sustain these first three efforts, 
there has to be a strategic public information campaign that 
explains to our own people, our allies in Europe and around the 
world, the nonfanatic, nonextremist elements in Islam, and 
others, of our efforts, our sincerity, and our idealistic 
goals. This campaign has to be run within a framework 
acceptable to the White House, but the White House cannot run 
it.
    The single key figure, probably Secretary Beers in the 
State Department, should be empowered to coordinate all 
American public information operations on a daily basis, 
coordinating with the White House. To the degree possible, our 
allies in nongovernmental institutions, including celebrities, 
should be recruited and included and involved in a broad public 
information strategy and campaign.
    I might note, for example, that Disney invented both a 
Brazilian character and a Mexican character during the Second 
World War who were very popular. These were cartoon characters 
interacting with Mickey, proving that Mickey Mouse, the 
American, could work with local folks. While that may seem 
simple, it was a very powerful and very subtle kind of cultural 
outreach that used celebrity status.
    Finally, the White House has to lead the daily and public 
information effort, because the President is so decisively the 
primary communicator of the American system. The White House 
should shape and direct the first four stages, but it should 
implement only the fifth stage.
    And let me commend you for this hearing, because we are 
frankly unprepared to engage in the scale of a public 
information campaign and the sophistication that it needs to be 
to create safety in the 21st century. I commend on the other 
side of the building Chairman Henry Hyde for his important 
leadership in introducing and passing out of committee the 
Freedom Promotion Act of 2002. I know you have a similar 
initiative, which I want to commend you and hope that in the 
short legislative schedule left, that it will be able to move 
through the Senate and move ultimately into law.
    Let me just close with this thought. The ultimate scale of 
resources needed to defeat the extremist fanatic wing of Islam 
will resemble the resources we used to defeat communism. The 
combination of educational efforts, communications campaigns, 
covert activities, economic assistance, and aggressive efforts 
to communicate our view of reality were the underpinnings for 
the nearly 50-year containment of Soviet communism.
    Creating a stable, safe world requires a public information 
capability and a public diplomacy capability far beyond 
anything we have to date. I just want to suggest, Mr. Chairman, 
you were much closer to right in the scale of resourcing we are 
going to need, and folks ought to go back and look in constant 
dollars at what we invested to save Europe in the forties and 
fifties and recognize that, if we are serious about helping 
those people, the overwhelming majority in the Islamic world 
who want to have a better future, that we have to be prepared 
to make the same scale of commitment, starting in Afghanistan, 
but extending across the Islamic world. If we do, we will 
succeed. If we do not, I do not care how many terrorists we 
kill, the conditions will simply create new waves of terrorism.
    [The prepared statement of Mr. Gingrich follows:]

  Prepared Statement of Newt Gingrich, Former Speaker of the House of 
                            Representatives

    Thank you, Mr. Chairman (Senator Biden), and thank you, Mr. 
Chairman (Senator Helms) for the opportunity to appear before you 
today.
    As we are all aware, we live in an information age. Television, the 
Internet, radio and other mechanisms of public information are decisive 
in shaping pubic opinion and informing the public.
    As societies grow freer the impact of public opinion grows more 
important. Where state-to-state diplomacy was appropriate to the 
agrarian and industrial ages, it is clearly inadequate in the 
information age. If we cannot communicate with the people of countries 
we care about, we cannot sustain government-to-government relations. 
When a people turn decisively against us their government will be at 
increasing risk if it does not acknowledge their people's views. Thus, 
the 1981-82 fight in Europe over matching the Soviet Union by fielding 
mobile missiles required a strong public information campaign to 
sustain the diplomatic initiatives.
    When we are faced with an organized ruthless minority that is 
gaining ground through dishonest propaganda and through violence, we 
have to both meet its security challenge and its information challenge. 
In the late 1940s a significant American education and information 
campaign in France, Italy, Greece and other countries played a major 
role in the survival of freedom and the defeat of communist tyranny.
    When we win militarily we also have to be prepared to win 
culturally, educationally, informationally and economically. People 
everywhere want to be safe, healthy, prosperous, and free. To the 
degree they see America as their ally in that quest, they will be 
strongly in favor of allying with America. We have to have fulfillment 
campaigns in Afghanistan and other countries after we defeat the 
extremist wing of Islam. Instead of exit strategies we have to create 
fulfillment strategies that enable governments like that headed by Mr. 
Karzai to create safety, health, prosperity and freedom for its 
citizens.
    We have been successful in the past and in Germany, Italy and Japan 
after World War II, South Korea after the Korean War. If we apply the 
same techniques and the same investment of capital, values and 
education we can succeed again today.
    This requires a five pronged continuing American effort against the 
extremist fanatical wing of Islam against those Islamic dictators who 
would acquire weapons of mass destruction, against disorder and 
barbarism and genocide and in favor of safety, health, prosperity, and 
freedom for all people.

          a. Where necessary, the United States and its allies have to 
        be the guarantor of its physical safety against the terrorists, 
        the murderers, and the committers of genocide.

          b. Having established safety, the United States and its 
        allies must implement strategies of wealth creation based on 
        private property rights, the rule of law, and a rewarded work 
        ethic, information age technological infrastructure, (e.g. 
        mobile phones and the internet) modern systems of health and 
        healthcare and the culture of freedom and self-government. This 
        is only partially a resource issue. Most of the failures of 
        development in the last four decades have been failures to 
        export the ideas which underpin wealth creation and that is 
        largely a function of public diplomacy or publicinformation 
        operations.

          c. When confronted with a coherent ideological opponent such 
        as Nazism, Fascism, Japanese Militarism, Communism or the 
        extremist fanaticism of Islam it is necessary to develop a 
        countervailing intellectual communications effort on behalf of 
        freedom, modernity and individual rights. Young people growing 
        up have to be given the choice between hatred, violence and 
        tyranny and the alternative of peace, opportunity, and freedom. 
        Only a systematic educational and public information campaign 
        can truly give them a choice. In our current conflict, the 
        madrasas of extremism have to be replaced with schools that 
        educate young men and women into productive modern lives that 
        are the basis of prosperity and integration into the modern 
        world.

          d. In order to sustain these first three efforts there has to 
        be a strategic public information campaign that explains to our 
        own people, our allies in Europe and around the world, the non-
        fanatic non-extremist elements in Islamic world and others of 
        our efforts, our sincerity and our idealistic goals. This 
        campaign has to be run within a framework acceptable to the 
        White House but the White House cannot run it. A single key 
        figure, probably in the State Department, should be empowered 
        to coordinate all American public information operations on a 
        daily basis with the White House. To the degree possible our 
        allies, in non-governmental organizations, including 
        celebrities, should be recruited and included and involved in a 
        broad public information strategy and campaign.

          e. The White House has to lead the daily public information 
        effort because the President is so decisively the primary 
        communicator of the American system. The White House should 
        shape and direct the first four stages but it should implement 
        only the fifth stage.

    The United States is today unprepared to engage in a public 
information campaign on the scale needed to create safety in the 21st 
century. I commend Chairman Henry Hyde for his important leadership in 
introducing and passing out of Committee the Freedom Promotion Act of 
2002. This important initiative provides for a significant increase in 
our efforts of public diplomacy. While more must be done this act is an 
essential first step and I urge the Senate to join in passing something 
along those lines.
    The ultimate scale of resources needed to defeat the extremist 
fanatic wing of Islam will resemble the resources we used to defeat 
Communism. The combination of educational efforts, communications 
campaigns, covert activities, economic assistance and aggressive 
efforts to communicate our view of reality were the underpinnings for 
the nearly 50-year containment of Soviet Communism.
    Creating a stable safe world requires a public information 
capability and a public diplomacy capability far beyond anything we 
have developed to date. The new emerging information-age has new 
requirements for tactical information on a daily basis and complex 
requirements for the Internet, cell phones, satellite television, radio 
and long-term educational efforts. These activities can often be 
implemented by non-governmental organizations but the resourcing and 
the general strategies and systems implementation require government 
leadership.

    The Chairman. Mr. Speaker, our usual practice is to go down 
and have everyone speak, but Senator Lugar is going to have to 
leave. Let me just say one thing to you. First of all, I 
literally--and I am not going to make any humorous comment 
about this--truly agree with everything you have said, 
especially your phrase, fulfillment strategy.
    If I can make an analogy, and I hope you will not be 
offended by it, Senator Helms in the courageous step he took to 
help us thread the needle of support for the United Nations by 
dealing with our debt at the United Nations, had a dramatic 
impact on the attitude and potential utility to us of the 
United Nations, not in merely that it paid the debt, but that 
by Senator Helms standing up, he essentially de-demonized the 
notion that we would participate at all in the United Nations. 
It was a gigantic, gigantic step, and I would have been 
prepared to yield even more just to get him to do that, and he 
did not need my convincing.
    You are the single most articulate voice on the right, in 
my view. I mean that sincerely, my word, and the fact that you 
would use the words, fulfillment strategy, I think is the 
single most significant contribution you can make, because as 
you know, I think the President shares your view, but there are 
many on the right and left who view it only in terms of exit 
strategy.
    They are not willing to--I had a debate with my very close 
friend, a Democrat, and one senior Republican at the White 
House on Bosnia, and the point that had to be raised was, I 
said, what would we have done if you guys had prevailed in 1955 
or 1960 or Senator Mansfield had prevailed in 1961 or 1962 or 
1963, and withdrawn American troops from Europe. This is a 
long-haul deal. Your stature, your significance, your ability 
to articulate is, I think, maybe one of the greatest 
contributions you can make at this moment, because until we 
move, in my view, to this notion of a fulfillment strategy, we 
are going to be in real trouble.
    So I want you to know this forum is available to you any 
time you want it. I mean this sincerely. You and I have been, 
not in a personal sense but in a political sense at odds with 
one another on many things over our careers, but I have great 
respect for you. I am not being solicitous. I have great 
respect for you, and I think the contribution you are making on 
this subject is even more consequential than the contribution 
that Senator Helms made relative to the United Nations, and I 
just wanted to say that while Senator Lugar was here, and I 
apologize to the rest of the panel for interrupting.
    Mr. Gingrich. Let me just say--and as you know, I have to 
leave, but I want to say to both of you, I know how many years 
both of you have spent criss-crossing the world and criss-
crossing the House and Senate trying to explain the world you 
have seen. We are at one of the great turning points equal to 
the period 1947 to 1952, when we finally came to grips with our 
role in the world. September 11--and I cannot overstate the 
importance of the President's own process, I think, of thinking 
this through.
    September 11 said to the American people, either we are 
going to learn to lead the world toward safety, prosperity, 
health, and freedom, or the world will in the end tear us down 
because it will not be able to stand the jealousy of thinking 
that only Americans have those things. That has to be a 
cultural, educational communications strategy with a military 
component, not the reverse, and one of the first big tests has 
to be in Afghanistan and, if I might, to just take advantage of 
your very generous and, frankly, very humbling comments, 
Senator Biden, I am very touched that you would say what you 
did.
    I believe if we could take the African initiative and 
rethink it as a sub-Saharan initiative, and take Africa 
seriously enough to not accept pouring money into the failed 
bureaucracies, but from the ground up to design a genuine 
strategy--and I would love to come back and chat with the two 
of you and Senator Helms, and maybe at some point ask that we 
might have a hearing on this topic conceptually, I think doing 
the right things in the Islamic world and the right things in 
sub-Saharan Africa, change who we are in the world, changes the 
world's understanding of us, and gives our grandchildren a much 
safer and freer planet to live on, and I think that is the 
goal. At least now that I have two grandchildren I am more 
worried about their future than mine. That is the kind of world 
I would like to live in.
    So I would like to extend, if I might as a private citizen, 
come and visit with you all and then maybe to later consider 
that prospect.
    The Chairman. I guarantee you, within the next couple of 
days we will set up a time. I am anxious to do that. I know 
Senator Lugar has to leave, and I apologize.
    Mr. Ambassador, the floor is yours.

   STATEMENT OF HON. MARC C. GINSBERG, FORMER AMBASSADOR TO 
  MOROCCO; CEO AND MANAGING DIRECTOR, NORTHSTAR EQUITY GROUP, 
                         WASHINGTON, DC

    Ambassador Ginsberg. Mr. Chairman, Senator Lugar, it is a 
great honor to be here. My testimony, which I will summarize, 
is focusing more on the ground war rather than on the air war.
    Following September 11, I undertook as a private citizen 
several initiatives to help both the U.S. Government and the 
private sector focus additional effort and resources to 
recalibrate and improve our public diplomacy initiatives in the 
Middle East. Mr. Chairman, I was raised in the Middle East and 
have worked extensively in the region, and I had the privilege 
of serving our country as Ambassador to Morocco, and travel 
still extensively around this country and the region to explain 
the history of Islam and the fight that we are up against, to 
Americans as well as to others, but to rebuild our power to 
persuade and to win that important war of diplomacy, and public 
diplomacy in the war on terrorism, the United States has got to 
understand why the Middle East sees us so differently than how 
we see ourselves, and determine what resources we must mobilize 
to turn the tide of anti-Americanism against us.
    We can begin by opening up lines of communication that have 
until now been off-limits and out-of-bounds by our diplomats. 
In an article I offered in the Washington Post in October, I 
proposed the creation of a new public-private sector United 
States Middle East Policy Engagement Commission to promote two-
way dialog and to bring together under one roof the Nation's 
leading Middle East experts.
    This initiative, Mr. Chairman, led to the formation of an 
ad hoc group of Middle East experts I helped convene to explore 
how the private sector could support America's public diplomacy 
initiatives in the region and to assess what needed to be done 
to engage the private sector in this effort. This steering 
committee has been working throughout the spring to focus on 
three specific short-term objectives, a media exchange program, 
the development of a dialog Web site, and a plan to enlist and 
support entertainers respected and admired in the Arab world.
    I also serve on the Council on Foreign Relations Public 
Diplomacy Task Force under the chairmanship of Pete Peterson. 
This task force, which includes over 60 experts, has devoted 
many months of time and effort to develop a comprehensive 
blueprint for improving U.S. public diplomacy, indeed, Mr. 
Chairman, to revolutionize our public diplomacy functions. This 
report, which will be issued shortly, will unveil many 
important recommendations for reorganizing the public diplomacy 
functions within the U.S. Government under a new Presidential 
directive.
    It is clear to those like myself who have worked 
extensively in the United States and abroad that the State 
Department, the White House, and our embassies all need to be 
working more closely together to fix a system that is simply 
not working well enough to win the war of public diplomacy in 
the Middle East and beyond. Despite the integration of the USIA 
into the Department of State, public diplomacy and policy 
formulation are almost two ships passing in the night. The 
council's report will address these issues, and I am confident, 
Mr. Chairman, you will find it an extremely important 
contribution to your efforts to improve America's public 
diplomacy programs.
    I listened very carefully to what Norm had to say about 
television media efforts that he and others are planning to do. 
I was recently asked to serve on the board of directors of a 
new private sector initiative known as Al-Haqiqa, otherwise, in 
English, ``the truth,'' an effort to develop a new U.S.-private 
sector satellite television station and program content for the 
Arab world.
    Al-Haqiqa is currently planning, as its initial objective, 
to develop American-style Arabic language news-oriented 
programming to be broadcast on existing Arabic cable and 
satellite systems in the Middle East. This effort has the 
bipartisan support of a very distinguished group of American 
leaders, and is chaired by former President George Bush. I hope 
Congress will encourage the media program development efforts 
of this enterprise, and for the government to proceed quickly 
to make a final determination whether the U.S. Government or 
the private sector will launch its own Middle East satellite or 
cable broadcasting initiative, a decision that cannot afford to 
be postponed much longer.
    Mr. Chairman, during my tour of duty in Morocco, I tried to 
undertake several unprecedented public diplomacy initiatives, 
because I understood, even at the height of the Middle East 
peace process, at the very moment when we began realizing that 
there was hope for peace in the Middle East, we were under 
verbal assault from overly opinionated journalists and 
religious demagogues. They were aided by Islamic extremists and 
their underground network throughout the region, and that is a 
fact that we still must take into account, because that network 
of hatred is still there.
    Unfortunately, the more effective public diplomacy will 
only mitigate this hatred. We also have to look at the policy 
problems that we face in the region as well, but we surely can 
do a great deal to lessen the misunderstanding and to arm our 
friends in the region with the tools necessary to take on our 
enemies more effectively. Our embassy undertook a series of 
unprecedented public policy and diplomacy initiatives which I 
explained in my testimony.
    The velocity and frequency of unanswered attacks against 
America from mosques to media have taken their toll, 
undoubtedly, as you know, on our image, yet our public 
diplomacy programs in the Middle East and our embassy resources 
allocated to public diplomacy are simply not up to the 
challenge. Mr. Chairman, whatever we do here in Washington, 
whether it is with radio as well as with Under Secretary Beers' 
office, we have got to understand that it is our diplomats and 
our people in the field who are on the front line in this 
ground war, and it is they who must be trained and equipped to 
redress the public diplomacy imbalance, and it is they who must 
be supported by battle-tested and highly mobile and mobilized 
public diplomacy apparatus.
    The President can offer some of the leadership that is 
essential to ensure that public diplomacy is accorded its 
proper role in the formulation of foreign policy, that the two 
have to go hand-in-hand. Public diplomacy has got to be, Mr. 
Chairman, in the take-offs and not just on the crash-landings. 
In this regard, there must be better public diplomacy 
coordination between Washington and its diplomats stationed 
abroad.
    There exists a short-circuit, Mr. Chairman, in the 
illogical wiring diagram between the short-staffed Under 
Secretary of Public Diplomacy and her ability to direct U.S.-
funded public diplomacy programs and to charge and to assess 
what is going on in the field. Bureau public affairs officers 
since the reorganization have no authority to task officers in 
the field and, in turn, officers in the field are largely being 
ignored.
    Let me add, Mr. Chairman, that the components of an 
effective public diplomacy campaign must involve all the assets 
of the U.S. Government to muster and to persuade. We have a 
better story to tell than we realize. It involves not only 
policy communications, but reminding our audiences that we have 
done a great deal to help their countries in the region. Far 
too few Arabs understand the work of our Peace Corps or our 
foreign assistance programs, or the magnitude of American 
private generosity.
    Second, our diplomats, starting with our Chief of Missions, 
have to reengineer our embassies, Mr. Chairman, and I 
recommended this in our Council on Foreign Relations report. I 
outlined a new mission program plan that would help or 
reengineer our embassies to deal more effectively with public 
diplomacy programs.
    The Internet era's 24-7 news cycle will require an end to 
the 9-to-5 syndrome prevalent in our embassies, and our 
Diplomatic Corps must be motivated to reverse long-held beliefs 
about how they are to work and act with host country 
governments and opinion leaders.
    This, Mr. Chairman, is not what diplomats have been trained 
to do. They are not trained to confront. They are not trained 
to engage in dialog with peoples and groups that are not 
necessarily part of the mainstream of diplomatic activity at 
the top echelons of society. They are not rewarded for making 
waves. They are not trained how to use media technologies and 
to experiment with new ideas, and many do not believe they can 
afford to be part of some political campaign centered on ideas, 
and as part of the Council on Foreign Relations Task Force I am 
sure that you will see that some of these issues have been 
addressed.
    Finally, Mr. Chairman, our budget for public diplomacy is 
inadequate, and our apparatus for training our diplomats has 
got to be improved. Most officers, as I said, have never 
received media training, and hesitate to appear on local radio 
and television shows, mostly because of deficiencies in foreign 
languages, and because of their inadequate training.
    Throughout the Middle East, U.S. cultural centers have been 
closed, consulates have been ordered shut, there is no 
representation for public diplomacy, and if we have no fixed 
assets on the ground, Mr. Chairman, on the front line in this 
effort, how, may I ask, are we going to accomplish our 
objectives?
    Mr. Chairman, as a private citizen, in closing I want to 
assure you that the private sector can lend a better hand to 
help train our diplomats. The range of support that can be 
mustered from public affairs, public relations, communications, 
and media and advertising industries is staggering, and I look 
forward to working with the committee and with Under Secretary 
Beers and with Norm and the others to bring these resources to 
bear to make this a truly effective effort in the war on 
terrorism.
    Thank you very much.
    [The prepared statement of Ambassador Ginsberg follows:]

Prepared Statement of Hon. Marc Charles Ginsberg, Former Ambassador to 
                                Morocco

    Mr. Chairman, thank you for inviting me to testify regarding the 
status of U.S. public diplomacy and its role in the War on Terrorism, 
particularly as it relates to our challenges in the Middle East. I want 
to commend you and the Committee for examining the new challenges 
facing U.S. public diplomacy programs--mindful that our public 
diplomacy strategy and the level of commitment to its success by the 
U.S. Government represent crucial weapons in our War on Terrorism.
    Following September 11th, I volunteered to undertake several 
initiatives to help both the U.S. Government and the private sector 
focus additional effort and resources to recalibrate and improve our 
public diplomacy initiatives in the Middle East. I was raised in the 
Middle East and have worked extensively in the region. I have had the 
privilege of serving as U.S. Ambassador to Morocco and continue to 
address audiences throughout the Arab world as a former diplomat and as 
a businessman during frequent appearances on Al Jazeera, CNN 
International and Fox News Channel. I am deeply committed to the 
economic and social development of the Middle East as a strategic 
objective of U.S. foreign policy. And I am confident, even in the face 
of the propaganda onslaught against the U.S. throughout the Middle 
East, that we can turn the tide in the war of ideas, however 
challenging that may seem to us right now. But to rebuild our power to 
persuade and to win that important front in the War on Terrorism, the 
United States must first understand why the Middle East sees us so 
differently than how we see ourselves and determine resources must be 
mobilized to turn the tide of anti-Americanism against us. We can begin 
by opening up lines of communication that have until now been off 
limits and out of bounds by our diplomats.
    In an article I authored in the Washington Post dated October 23, 
2001, I proposed the creation of a new public/private sector U.S. 
Middle East Policy Engagement Commission to promote two-way dialogue 
and to bring together under one roof the nation's leading Middle East 
experts to serve as a resource for our public diplomacy in the Middle 
East. This initiative led to the formation of an ad hoc group of Middle 
East experts I helped convene with my co-chair Prof. Shibley Telhami, 
in December 2001, under the auspices of Search for Common Ground and 
the Woodrow Wilson Center for Strategic International Studies. We came 
together to explore how the private sector could support America's 
public diplomacy initiatives in the region and to assess what needed to 
be done to better engage the private sector in this effort.
    A Steering Committee of this ad hoc group has been meeting 
throughout the Spring to develop several short term public diplomacy 
initiatives including: 1) a media exchange program; 2) the development 
of a ``dialogue website''; and 3) a plan to enlist the support of 
entertainers respected and admired in the Arab world to participate in 
public diplomacy outreach. We hope to meet shortly with Under Secretary 
of State Charlotte Beers to share with her our recommendations and to 
offer our expertise to help our Government achieve its objectives in 
the war of ideas now being waged in the Middle East.
    I also serve on the Council on Foreign Relations Public Diplomacy 
Task Force under the Chairmanship of Peter Peterson. This Task Force, 
which includes over 60 experts, has devoted months of time and effort 
to develop a comprehensive blueprint for improving U.S. public 
diplomacy--indeed to revolutionize our public diplomacy functions. The 
quality of the effort and the scope of the Council's Report will surely 
warrant the attention of this Committee, Congress and the Executive 
Branch as it considers reforms to America's public diplomacy functions 
and budget. The Report will unveil many important recommendations for 
reorganizing the public diplomacy functions within the U.S. Government 
under a new Presidential Directive. It is clear to those like myself 
who have worked in the State Department, the White House and at 
embassies abroad that there is urgent need to fix a system that is 
simply not working well enough to meet the challenges of a new war.
    Despite the integration of USIA into the Department of State, 
public diplomacy and policy formulation are almost two ships passing in 
the night. The Council's Report directly addresses this challenge and 
explores new ways to improve the coordination of foreign policy 
formulation and public diplomacy functions in Washington and in our 
missions abroad. The Report will also propose a new way to budget 
public diplomacy programs, recommend new training programs and opinion 
research skills for public diplomacy professionals, and outline new 
programmatic initiatives that would greatly expand exchanges. It will 
also recommend the creation of a new entity to encourage universities, 
foundations and NGOs to make public diplomacy a central priority.
    I am confident you and the Committee will find it an 
extraordinarily important contribution to your efforts to improve 
America's public diplomacy programs.
    I also serve on the Board of Directors of a new private sector 
initiative known as Al-Haqiqa (the Truth)--an effort to develop a U.S. 
private sector satellite television station and program content for the 
Arab world, which has been launched by one of America's distinguished 
former diplomats Ambassador Richard Fairbanks, a Special Middle East 
Negotiator under President Reagan. Al-Haqiqa is currently planning as 
its initial objective to develop Americanstyle Arabic language news-
oriented programming to be broadcast on existing Arabic cable and 
satellite systems in the Middle East. This effort has the bi-partisan 
support for a very distinguished group of American leaders and 
statesmen, including former President George Bush, James Baker, Sandy 
Berger, Lee Hamilton, George Shultz and Richard Allen, just to name a 
few. But any American effort to compete with Al Jazeera and other Arab 
media will require private sector resources and talent to develop 
content programming. I hope Congress will encourage the media program 
development efforts of Al-Haqiqa pending a final determination whether 
the U.S. Government itself intends to launch its own Middle East 
satellite or cable broadcasting initiative--a decision that cannot 
afford to be postponed much longer.
    During my tour of duty in Morocco--a country which by all accounts 
is a truly great friend of America, I recall that at the most favorable 
junction in the Middle East Peace Process, America, its policies, and 
its leaders were nevertheless under verbal assault from overly 
opinionated journalists and religious haters, cynics and doubters. They 
found it spiritually and materially rewarding and politically correct 
to run roughshod over the truth about America. They were aided by the 
Islamic extremists and their underground network next door in Algeria 
whose government was waging an important struggle against Islamic 
extremism largely out of sight of America. Why the anger and 
disillusionment seemed to surface at such a moment of promise is 
subject to much debate. Certainly, our foreign policies both in the 
Middle East and around the world contributed to this resentment--a fact 
that must be taken into account if we are to develop adequate public 
diplomacy initiatives in the region. Unfortunately, more effective 
public diplomacy will not completely reverse the resentment and 
mistrust of America that have taken root in the Middle East without 
changes in our policies. But we surely can do a great deal to lessen 
the misunderstanding, and arm our friends in the region with the tools 
necessary to take on our enemies more effectively than we can do alone.
    Indeed, under the rubric that ``no good deed shall go unpunished'' 
every fault facing the region is being laid at our doorstep even though 
we have done so much to greatly improve the lives of ordinary citizens 
from Casablanca to Cairo and beyond. Too many Islamic clerics have a 
favorite anti-American sermon--each one more diabolical and disturbing 
than the one preceding it. They do not make great bedtime reading. Too 
many journalists (many of whom are on the payrolls of governments which 
are recipients of American taxpayer assistance) lavish derision on our 
motives and our culture. We could do nothing right then and certainly 
that attitude has worsened in recent months. It was clear to me then as 
it is so clear to me now that something had to be done to take on this 
growing deluge of criticism and hatred.
    Without any need for direction from Washington our embassy 
undertook a series of unprecedented public diplomacy initiatives to 
open up lines of communication with journalists, Islamic clerics and 
university faculty and students--in other words the opinion elites in 
the Middle East. These encounters were at times difficult and 
emotional. I recall once when I took New York Times columnist Tom 
Friedman into one of these sessions he told me afterwards that he felt 
he had just attended a 60s version of an Arab League meeting. I urged 
my colleagues in other posts to do the same and an informal network of 
ambassadorial exchanges soon commenced in order to begin sharing 
information about the challenges we were facing--not an easy task since 
most embassies are not on the receiving end of other embassy cable 
traffic back to Washington.
    The velocity and frequency of unanswered attacks against America 
and Americans from mosques to media have taken their toll on our image 
in the region and has helped fuel anger and resentment that is directly 
responsible for the success of Islamic extremism in the Middle East. If 
we are to turn the tide in the War on Terror, we ignore this cascade of 
hatred at our peril. Yet, our public diplomacy programs in the Middle 
East and our embassy resources allocated to public diplomacy are simply 
not up to the challenge ahead of us.
    Whatever we do in Washington to reverse the tide we must understand 
that our diplomats are on the frontline in this war of words and it is 
they who need to be trained and equipped to redress the public 
diplomacy imbalance. And it is they who must be supported by a battle-
tested and highly mobile and mobilized public diplomacy apparatus in 
the U.S. Government that is not consumed by traditional bureaucratic 
inertia and shopworn artificial distinctions between public diplomacy 
and hard-core policy formulation.
    What can be done?
    First, Presidential leadership is essential to ensure that public 
diplomacy is accorded its proper role in the policy formulation and 
implementation process--preferably within the White House under the 
National Security Council--that would establish a public diplomacy 
component as well as serve as a coordinating structure that links all 
of the policy and public diplomacy components of the government. A 
Presidential Determination should make clear that public diplomacy is a 
strategic component of U.S. foreign policy and that it represents a 
crucial component of our diplomats' duties and responsibilities that 
can no longer be marginalized. To be effective, public diplomacy must 
be in on the ``take offs'' and not just the ``crash landings'' and 
there must be a process in place to regularly assess its effectiveness 
and to shift priorities and resources as needed.
    In this regard, there must be better public diplomacy coordination 
between Washington and its diplomats stationed abroad. For example, it 
is clear that there exists a shortcircuit in the illogical wiring 
diagram between the short-staffed Under Secretary of Public Diplomacy 
and its ability to direct U.S. funded public diplomacy programs and the 
public affairs officers operating in our posts abroad. Bureau public 
affairs officers have no authority to task public affairs officers in 
the field. In turn, officers in the field are being ignored because 
their reporting is not integrated into a process that can swiftly act 
on the advice they are sending in from the field. In fact, they do not 
even report to the Under Secretary of Public Affairs, but to the 
regional assistant secretaries. It makes absolutely no sense to see 
public diplomacy on the periphery of policy development--almost as an 
afterthought to those who think that mainstream policy formulation can 
somehow be undertaken without a plan to ensure its receptivity.
    I had hoped that the integration of USIA into the Department of 
State would herald a closer relationship between public diplomacy and 
the development and execution of foreign policy. I am afraid that this 
has not been the case. We are going to have to redefine the role of 
U.S. public diplomacy such that it is an integral part of policy 
formulation from its very inception and launch--rather than an 
afterthought relegated to non-mainstream diplomats.
    Mr. Chairman, let me add that the components of an effective public 
diplomacy campaign should involve all assets that the U.S. Government 
can muster to persuade and influence. We do have a great story to tell. 
It involves not only policy and communications, but reminding our 
targeted audiences of the efforts Americans have made to help their 
countries. Far too few Arabs know of the wonderful work of our Peace 
Corps operating in their countries. Far too few know how much foreign 
assistance has been given to help their nations. Far too few appreciate 
the magnitude of American private generosity through non-governmental 
organizations and charities that operate in their countries.
    Second, U.S. diplomats, starting with Chiefs of Mission and the 
Deputy Chiefs of Mission must be mandated through each embassy's 
``Mission Program Plan'' or ``MPP'' and promotion precepts to integrate 
public diplomacy functions into each MPP. The Internet era's ``24/7'' 
news cycle will require an end to the ``9-5'' syndrome prevalent at our 
embassies so that we can better and more rapidly respond to the media 
attacks on us. Until September 11, public diplomacy duties had been 
largely relegated to press attaches who are not fully integrated into 
the embassy's political operations. Our diplomatic corps must be 
motivated to reverse long held beliefs about how they are to work and 
act with host country governments and opinion leaders and penalized if 
they resist. They will have to be better sensitized to the fact that no 
matter how justified a particular foreign policy may be to us, without 
an effective complimentary public diplomacy program all of that hard 
policy work may ultimately fail.
    This is not what diplomats are trained to do. They are not trained 
to confront and to open dialogue with peoples and groups that are not 
necessarily part of the mainstream of diplomatic activity or at the top 
echelons of society. They are not rewarded for making waves with host 
governments or detractors. They are not trained how to use media 
technologies or to experiment with new ideas. They do not believe they 
can afford to be part of a ``political campaign'' centered on ideas. 
Yet, opening up channels of communication with our detractors is more 
important than ever before.
    As part of my work for the Council on Foreign Relations Public 
Diplomacy Task Force I drafted a model Mission Program Plan for Public 
Diplomacy and I am hopeful that it will be integrated into the 
Council's Report. This draft model would require each Ambassador to 
establish a mission Public Diplomacy Task Force, chaired by either the 
Ambassador or his Deputy Chief of Mission, which would be responsible 
for and coordinate all agency public diplomacy initiatives and spell 
out mandated public diplomacy functions for each embassy's officer, 
including officers from other agencies. The MPP would also compel each 
embassy to provide the Department and the White House feedback and 
analysis on the effectiveness of public diplomacy programs. Additional 
budget resources will need to be increased to meet program objectives 
including funding for new media streaming fees to local media outlets, 
new website improvements and exchange and outreach initiatives. This 
will require Ambassadors to:

  <bullet> Complete an assessment of what key policy and message 
        elements need to be promoted to different audiences in a host 
        country.

  <bullet> Assess how best to mobilize Post resources to accomplish key 
        public diplomacy objectives.

  <bullet> Determine ways to measure the impact and capacity of his or 
        her team to recalibrate public diplomacy initiatives.

  <bullet> Identify, by priority order, key public opinion targets and 
        determine whether Department or private sector resources are 
        needed to reach these targets.

  <bullet> Determine how the embassy can best help the White House 
        facilitate public diplomacy considerations into policies that 
        affect policy to the host country.

    Third, our budget for public diplomacy is inadequate and our 
apparatus for training our diplomats in public diplomacy is virtually 
non-existent. Other than Public Affairs Officers, most officers have 
never received media training and often hesitate to appear on local 
radio and television shows, mostly because of local language 
deficiencies and inadequate training. Throughout the Middle East, U.S. 
cultural and cultural centers have been closed. Consulates have been 
ordered shut. There is no representation budget for public diplomacy. 
If we have fixed assets on the front line in this effort how, may I 
ask, are we going to accomplish our objectives?
    Our private sector can lend a hand to help better train our 
diplomats at the newly named George Schultz Foreign Affairs Training 
Center. The range of support that could be mustered from the public 
affairs, public relations, communications, media and advertising 
industries is staggering and it has indeed been offered if we can help 
the U.S. Government accept these offers from the private sector. In 
this regard junior, mid-level and senior officers should be required to 
fulfill fundamental public diplomacy training as part of their 
promotion requirements and the private sector can help train our 
officers. That training could include a variety of disciplines such as 
public speaking; media and opinion analysis, how to use media for 
message delivery and how to integrate public diplomacy into policy 
functions.
    Mr. Chairman, in summary, I believe that the War on Terror compels 
us to reexamine, replenish, and reform our public diplomacy functions 
both in Washington and in the field. I look forward to helping this 
Committee and the Congress in accomplishing this vital war objective. 
Thank you.

    The Chairman. Mr. Hoffman.

  STATEMENT OF DAVID HOFFMAN, PRESIDENT, INTERNEWS, ARCATA, CA

    Mr. Hoffman. Thank you, Mr. Chairman. I am president of 
Internews, a nonprofit organization that supports open media. I 
think you will agree with me that media is one of the most 
important and powerful forces for social change in the world 
today, and I have been in the business for 20 years, and I have 
been astounded that we carry on so much of our foreign policy 
without paying attention to media, so I compliment the chairman 
for putting the attention on this very important issue.
    Clearly, 9/11 has put this in front of us. We recognize 
that terrorism has been born in societies that have very closed 
media, and we are kind of astounded to see that there is such 
virulent anti-American propaganda happening on state-controlled 
media from governments that are our allies. The things we have 
been reading are in Tom Friedman's articles, quotes from 
Egyptian newspapers, or newspapers in which the editors are 
appointed by President Mubarak, and this is happening across 
the board, and we have to look at this.
    We also are aware, as has been said today, that there is 
not an infrastructure of local media where moderate voices can 
answer some of the extremist Islamist propaganda that is coming 
across state-controlled media. The good news is that the great 
majority of Muslims around the world want a free media.
    There is no better example for that, no better proof for 
that than Iran, where 80 percent of the people have voted in a 
relatively free election for a reformist President where the 
major issue is freedom of the press. Now, they have not been 
able to get that freedom of the press, but it is very clear 
that in an Islamist country like Iran the people demand that, 
and will eventually get that.
    The concept of local media which Senator Lugar was 
referring to earlier when he was asking about indigenous local 
media, the concept of local broadcast media is a relatively new 
phenomenon, even in Western Europe. We began U.S. Government 
assistance for independent broadcast media in the former Soviet 
Union around 10 years ago. In that time we have spent 
approximately $250 million, no small amount, on it, but it has 
been pretty much an untold story. It is one of the great 
success stories in American foreign aid. I will speak just for 
my own organization, Internews.
    We have supported 2,000 independent broadcasters, mostly 
television, some radio. Broadcasts produced or coordinated by 
Internews reach over 300 million people. Most of those stations 
are on 24 hours a day. In those 10 years of broadcasting we 
have not received a single complaint from a U.S. Embassy or a 
U.S. Government agency that any of those stations are 
broadcasting anything that is considered anti-American. We have 
raised the standards--I think there has been general agreement 
that we have raised the journalistic standards of those 
independent broadcasters. It is effective, it is working, and 
it can work in the Muslim world as well, as we have proven 
recently in Indonesia, I think.
    There are the great examples, of course, such as the 
overthrow of Milosevic and the role of B-92. Just recently one 
of the stations we have supported, Rustovi-2 in Georgia, 
broadcast revelations of corruption. After going through a 
training program on investigative journalism they took it very 
seriously and investigated the corruption of government 
officials. When they broadcast that the Ministry of the 
Interior sent militiamen to close down the station. They put 
the cameras on live. Thousands of people took the streets, and 
Shevardnadze was forced to dismiss his entire government.
    There are many, many examples--as you will hear about 
Kosovo, there are many examples where independent media has 
played a critical role in the transformation of societies that 
were previously under dictatorships to democracy.
    We live in a different world. We live in a world of 
proliferation of information that is coming from all sources, 
including from satellites and Internet. The boundaries that 
existed before are breached by this new technology every day. 
We have to be able to meet that.
    We put a lot of attention on Al Jazeera, and it is natural 
that we would think that we should compete with Al Jazeera with 
Arabic language satellite television, but I do not believe that 
any amount of foreign broadcasting is going to change the sense 
of powerlessness and Western domination that Arabs today feel. 
The only thing that is going to change the feelings that they 
have is to change their societies, to help them democratize, to 
help them modernize, and the best way to do that is to support 
local media. It is far more cost-effective.
    We are spending $20 to $25 million a year, and we are 
reaching 300 million people every single day. I think that is a 
compliment to the traditional foreign broadcasting strategies 
that we should look at very carefully.
    Local broadcasting is always more credible than foreign 
broadcasting. Tom Friedman a couple of days ago wrote, he said 
that the Bush team wants to spend money on TV or advertisements 
to broadcast our message in Arabic to the Arab world. Frankly, 
there is no modern, progressive message we could broadcast in 
Arabic that would begin to compare and influence the one that 
would come from Egypt, and I would say to one that would come 
from any local country, so it is not a matter of choosing 
between these two. It is a matter of seeing them as 
complimentary.
    But in pursuing our foreign broadcasting, let me recommend, 
if I can, that the greater the degree of editorial independence 
you can give broadcasters the more effective they are going to 
be. On the other hand, if they are fully editorially 
independent, then what you are really competing with is not Al 
Jazeera, you are competing with the other commercial American 
broadcasters that are already out there, and so the question is 
raised, to what degree is there really value added to that?
    If they are not editorially independent, these foreign 
broadcasts lose credibility to the extent they are seen that 
way, and you should never underestimate your audience. The 
people we are trying to reach have spent their lifetime being 
propagandized. They are experts at it. They can tell a mile 
away what is propaganda and what is good news.
    Finally, I would like to say that in a lot of these 
countries the State Department and our embassies have had a 
kind of benign neglect about independent media, and the media 
regimes in these countries. This is particularly true in Saudi 
Arabia, in Egypt, and a great deal more pressure needs to come 
from our State Department to demand that these countries 
institute media reform. It is coming. Pakistan just completely 
liberalized their broadcast media with private television and 
radio just a few months ago. There is pressure from the 
satellite companies for all these locals to open up their media 
because otherwise they are going to lose their audience, but we 
also need pressure from the State Department.
    The President in Monterrey talked about conditionality and 
our foreign aid in general. I think there should be specific 
benchmarks that should be listed by our State Department, by 
the Secretary, that would be conditions that countries would 
need to meet in order to get other forms of foreign assistance.
    There are moderates out there who are not getting on the 
airwaves. We should support those moderate Muslim voices. They 
are out there. If we build it, they will come. If we help the 
Muslim world with the resources that we have given to, say, the 
former Soviet Union, we will find that the attitudes of the 
populations there will change very rapidly once the moderates 
there are empowered.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Hoffman follows:]

       Prepared Statement of David Hoffman, President, Internews

    Mr. Chairman, members of the committee: thank you for inviting me 
to testify on the issue of independent media and public diplomacy. The 
Chairman should be congratulated for consideration of US government 
support for independent media, which is a relatively new phenomenon in 
our foreign assistance portfolio.
    Since September 11th, the United States Government has given 
increased attention to the broad question of public diplomacy and the 
role of information in shaping public opinion around the world. A clear 
articulation of American policies and values is central to the success 
of our overall foreign policy agenda. But as we seek to shape our 
message to foreign audiences, we should also keep in mind the critical 
role of indigenous independent media as a complement to our traditional 
public diplomacy strategies. Simply put, we need to look not only at 
what we say to other countries, but how other countries disseminate 
information locally and how that affects their views of America.
    Media is the most powerful force for social and political change in 
the world today. Radio, television, print, and the Internet are 
information vehicles through which citizens from every country form 
their opinions of the world. And where these information vehicles are 
used to propagate misinformation, misperceptions and erroneous 
reporting overseas, our national security is endangered.
    In many countries in the Middle East, the media remain state-
controlled or heavily influenced by the government. In some cases the 
government-run media is consciously used as a safety valve to deflect 
anger and frustration that arises from domestic problems. In other 
cases, journalists are subjected to draconian media laws compounded by 
self-censorship fueled by fear and uncertainty about the arbitrary ways 
in which the laws could be applied.
    Nevertheless, in several countries with predominantly young Muslim 
populations like Pakistan or Indonesia, where much of ``the street'' 
are still susceptible to negative and hostile propaganda directed 
against the United States, there are new and hopeful signs of media 
liberalization and privatization.
    U.S. government sponsored overseas broadcasting and traditional 
public diplomacy, alone, will not reverse this growing anti-American 
sentiment and inflammatory opinion that pervades the Arab and Muslim 
world in particular. Although overseas broadcasting has the advantage 
of being able to control the message and is vital in closed societies 
that have no other access to Western news reporting, it is not a long-
term solution to the endemic repression of independent sources of local 
media. Foreign broadcasts do not contribute to the building of 
democratic media institutions in these countries. As long as local 
media remains suppressed, democracy cannot grow. Local media is the 
oxygen of democracy.
    The State Department should therefore make it a high priority to 
reform media law and policy in predominantly Muslim countries in order 
to open their societies to a diversity of opinion and models of fact-
based journalism. For too long we have turned our heads and tolerated 
government repression of local media in many of these countries as long 
as their governments continued to meet our fossil fuel needs and 
support our foreign policy goals. But since September  we have learned 
how dangerous it can be to ignore the information culture of ``the 
street.'' The State Department should be encouraged to make the 
establishment and growth of free and independent media in countries 
with predominantly Muslim populations a priority for U.S. foreign 
policy and assistance strategies in the region. In line with the 
President's statement in Monterrey, Mexico about the conditionality of 
American aid tied to improvements in human rights and democracy, the 
Secretary of State should establish benchmarks for acceptable standards 
of freedom of expression and the rights of independent media.
    To help countries achieve open media, we must provide legal advice 
and assistance, journalistic training in ethics and reporting, help to 
media owners and managers in the financing and management of 
independent media companies. We need to provide funding for equipment, 
production and programming that will help independent media outlets 
compete with state-run media. And we must provide this training, not 
directly from the U.S. government, but through qualified non-profit 
organizations that have proven track records and credibility in the 
region.
    This last point is a sensitive issue but extremely important. 
America has always been the leader in the development of independent, 
nongovernmental media. Non-governmental, commercial broadcasting is 
still a relatively new phenomenon in the world, even in Western Europe. 
But the world is rapidly recognizing the vitality and importance of 
nongovernmental electronic media. As we provide assistance to 
independent media in countries transitioning to democracy, we must be 
especially careful to respect the editorial independence of the 
recipients. This is the point at which traditional public diplomacy 
must give pause and have faith in the play of democracy and the free 
press, which have made our own country strong.
    Providing resources and expertise to local independent media 
through qualified American non-profit media organizations has 
successfully addressed the dilemma of government assistance to non-
governmental media. There is always some risk that independent media 
companies, which are recipients of US government assistance, will 
broadcast news reports that are hostile to America. But it is 
interesting to note that after a decade of support to more than two 
thousand independent broadcasters, Internews has received virtually no 
complaints from any US Embassies or government agencies about any anti-
American reports on these channels. On the contrary, our training 
programs and support have been universally acclaimed to have raised 
professional standards and contributed to a far greater degree of 
objective, fact-based reporting from these stations.
    It is an approach that has worked successfully in the past 
throughout the former Soviet Union, in Bosnia, Serbia, Kosovo, 
Indonesia and East Timor. When Congress, in its wisdom, began to give 
modest amounts of foreign aid to independent media in the former Soviet 
Union, the results were astonishing in the speed and effectiveness with 
which a multiplicity of voices emerged. At least 2000 independent 
broadcasters and 30,000 journalists and media professionals have 
benefited from U.S. sponsored training and technical assistance 
programs in the former Soviet Union and Eastern Europe. U.S.-assisted 
independent media played a critical role in overthrowing the 
dictatorship of President Slobodan Milosivic in Yugoslavia, and 
recently in exposing corruption in the Republic of Georgia. In 
Indonesia, US funds supported the first radio program for women in a 
Muslim country where it quickly became the most popular show in the 
country. In all these cases, US support for indigenous local media 
succeeded in creating a culture of Western-style news reporting that 
goes beyond packaging America's story.
    And the results of supporting open and independent media are 
concrete and measurable. According to the World Bank's ``World 
Development Report 2002,'' countries with privately owned, local, 
independent media outlets had less corruption, more transparent 
economies, and higher indices of education and health. A free press 
facilitates multiparty elections, freedom of expression, transparency 
of both government and business, improved human rights, and better 
treatment for women and disenfranchised minorities.
    None of this is to suggest that there is not a role and an 
important need for traditional public diplomacy, especially the 
cultural exchange programs, which give foreign nationals a first-hand 
experience of America, something no media program can ever match. 
Overseas broadcasting can be a lifeline to people who live in totally 
closed societies. U.S. governmental programs like Radio Sawa, which 
provides young people with Western and Arabic news and music through 
the Middle East Radio Network appear to be gaining audience and should 
continue.
    But before spending vast sums of money on an expensive satellite 
television network for the Islamic world in order to beam our messages 
directly into these societies, we should question whether it is far 
more cost-effective to expend resources on developing local media. 
Given the limits on resources for overseas media, I would encourage us 
to focus on individual countries like Egypt, Pakistan and others where 
we can significantly alter the local media landscape through media 
assistance and training. It is unlikely that a U.S. government produced 
satellite channel can outperform American and European commercial news 
and entertainment media companies, which already are competing for 
these audiences. Rather than devote enormous resources to expensive 
technological satellite equipment, we should be examining media law and 
regulatory reform which are essential ingredients in the creation of an 
``enabling environment,'' in which independent media can compete fairly 
with state-run media.
    In the end, limits on freedom of the media will hinder even the 
most vigorous and sustained public diplomacy campaign. Populations 
lacking access to free and open media and a plurality of news sources 
are susceptible to negative and hostile propaganda directed against the 
United States. Support for terrorism is greatest in countries where the 
public has little access to outside information or free and independent 
news media. Free and independent media will not automatically guarantee 
moderation, but it does open new space for moderate voices that can 
combat anti-Western propaganda.
    And so it is in the national interests of the United States to 
support the growth of free and open media around the world as an 
extension of our public diplomacy work. In the final analysis support 
for free and vibrant local media are the best investment we can make in 
building a safe, secure and democratic world. I have no doubt that the 
extension of American values of pluralism, tolerance and freedom of 
expression will follow from this investment in local, independent open 
media.

    The Chairman. Thank you very much. Our last witness, who 
probably is the single most appropriate witness we could have 
after that, is Veton Surroi, who is one of those people we are 
talking about. Are we kidding ourselves, Veton? Are we playing 
a game here, or are we really able to impact positively and 
truthfully on what is going on around the world, and the 
attitude toward us? The floor is yours.

    STATEMENT OF VETON SURROI, CHAIRMAN, KOHA MEDIA GROUP, 
                        PRISTINA, KOSOVO

    Mr. Surroi. Thank you, Mr. Chairman. Let us just judge from 
what happened 9 months ago on this date. While the United 
States was being attacked, I was sitting in my office saying in 
despair, what can I do, and so I wrote an editorial and I said, 
let us go out to the streets tomorrow at the same time as we 
used to do in the Milosevic times, and let us protest against 
this attack, and let us also express some solidarity about it. 
Well, on September 12 at 3 p.m. you had hundreds of thousands 
of Kosovars in all of our cities protesting against terrorism 
and expressing solidarity with America.
    Now, of course, this happens not only because of an 
editorial, we all know that. It happens because Kosovo is 
probably the most pro-American place in Europe today and is 
obviously thankful for a very diligent U.S. policy to which you 
have personally contributed as well for many years, but it 
happens because in our society, media have a role of civil 
society, and media can mobilize positively--they can mobilize 
negatively, but certainly positively, and they can mobilize for 
the right cause.
    Now, how did that happen? That credibility was built over 
years, because that is paper, and the other media outlets were 
built in times of repression, so the media actually became--the 
newspaper, the editorial became a symbol of resistance against 
an oppressive society, against Milosevic, and therefore its 
credibility was actually one of participating in liberation.
    This is a contribution, certainly, which could not have 
existed, these conditions, without a concerted effort, a 
contribution from the international community, from the United 
States, from the European donors, and from private donors, and 
all of this, of course, with a clear view in having a self-
sustained media after a period of time.
    Now, for me, it is rather challenging to find some 
parallels, not because Kosovo is a majority Muslim background, 
because the Kosovars are basically identified as Albanians in 
their majority, and not with their religious background, but it 
is challenging in a sense to find parallels between what we 
have gone through and what the Muslim societies in the Arab 
world are going through right now, and the question is actually 
first of all the extremism of an ideology.
    Milosevic misused ethnicity and brought his people to that 
position, and the Taliban and al-Qaeda are misusing Islam and 
bringing their own people and the societies surrounding them to 
destruction, so we are dealing with the extreme forms, or 
manifestations of these totalitarian ideologies, which 
unfortunately have to be fought by force. But underneath those 
ideologies are a vast group of people and many regimes who are 
actually, to a certain extent, by being closed are contributing 
to the extremism.
    So what we are talking about now, today, I think, is about 
opening of closed societies in the Muslim world. It is a more 
challenging task, I think, than simply broadcasting a message 
here and there about what the American position is. It is about 
opening those societies, opening those regimes, and it is not 
about opening a dictatorial regime. It is not about opening 
Iraq, because we cannot do it at this stage with these means, 
but it is about opening those societies where America has a 
leverage, about opening those societies that consider 
themselves American allies, but nevertheless do not allow 
freedom of expression the way we know, and I am glad to say we 
know it, we the Americans and the Kosovars do. What a day.
    So it is about free reformed societies, and you ask, how do 
you act in those societies? Well, our experience is the 
following. First of all, you get effective dissemination of 
information, and certainly what we have heard today about the 
radio stations, and that Radio Sawa will help in many of these 
societies. Nevertheless, what is certainly more needed, and 
this has been our experience with VOA and BBC, is the more 
local input into these organizations, the better, the more 
local stringers, the better.
    The second, and I think of utmost importance, is 
amplification of indigenous voices. You cannot have a 
successful campaign of opening societies if local papers, local 
stations do not do that, and it is certainly not about 
projecting this media and international network. It is the 
importance of the local newspaper that can do that.
    Now, the local newspaper cannot do it unless it is also 
being supported in terms of newsprint, or in terms of a 
printing press, or in terms of setting up a distribution 
system. A local journalist is being confronted with an 
authoritarian system, and that authoritarian system controls 
airwaves, frequencies, printing presses, ways of import of news 
print. It also controls the ways of distribution of the 
newspapers. It is a rather ample fight, but once you start 
fighting it, you see the satisfaction of winning, actually, 
that war.
    There is no other way in which these independent media can 
be developed in that region without direct support. It is not a 
question of only supporting it politically. It is a question of 
supporting it also financially. Certainly it is about, as you 
said, drawing up also forms of conditionality that will protect 
the journalist. There are many courageous people everywhere in 
every authoritarian society, but those courageous people will 
amplify, there will be more of them only if a powerful country 
like the United States actually starts protecting, the 
journalist actually starts telling the closed regimes, or semi-
closed regimes that they cannot go on arresting journalists.
    Now, we have to be, of course, inventive in that support, 
and we have to use all the technologies. You have in many 
countries inventive people. Serbia was a good example. Radio B-
92 was a very good example. The downfall of Milosevic could not 
have happened in that fashion if B-92, a very courageous 
station, had not continued, despite being closed, trying to 
broadcast on the Internet, trying to do it on the satellite and 
get news out.
    The fourth and, I think, critical point that is being 
debated as I have seen it in parts of this society here in the 
United States is whether the support to the independent media 
will actually create more extremist voices in the region. Now, 
I think the debate is false in the sense of, if you support the 
media you will simply find many pro-American media in that 
region. I think you should not expect that.
    The independent media in the Balkans in our region, in our 
crisis were sometimes critical. We are the most pro-American 
society in the region. We were critical of the U.S. policy on 
Bosnia, on inactivity on Bosnia. We were critical for what we 
saw were flaws in U.S. policy, but we nevertheless considered 
that only an open and critical media can also deliver on its 
credibility on the one hand, and on the other hand, only a 
critical and open debate--a critical and open debate is 
possible only with friends.
    The Chairman. And the virtue of being correct, I would 
remind you.
    Mr. Surroi. I do not think anybody should be afraid of 
support of a media that will be critical of the United States. 
It is not a question of whether it is critical or not critical. 
The real debate is between the existing media that created 
conspiracy theory that this whole thing of the United States is 
a Zionist, a Vatican and what-have-you conspiracy against 
Islam, which we used to hear from Milosevic all the time. That 
is not the point. The point is actually to bring them to a 
rational debate, and see what the pros and cons of each and 
every policy.
    The end result actually ought to be, the ideal end result 
would be a paper in Amman or in Cairo or somewhere that 
publishes the pros and cons of America's position, that gets 
Senator Biden to write about this or that segment of the 
policy, and has an intellectual debate with somebody else on 
the other side who will say, well, we need--this or that 
problem.
    And the fifth is the question of opening the debate within 
the society. The media in the Arab world I think in this pre-
reform state of the Arab world will play an important role in 
creating a debating space in the society. When you do not have 
a functioning parliament the way the Western world knows it, 
when you do not have a public control over expenditures, when 
you do not have that space to debate about all of these things, 
you have the media actually to create the space to be a 
parliamentary force, and that is part of the deal.
    The second is to create pluralism in the Arab society. Not 
all Arab societies are the same. Arab covers a very wide space 
as we know it.
    The third is to create a debate between, in this case, in 
the Middle Eastern case, between the Arabs or the Palestinians 
and the Israelis. I think that the media will not resolve the 
Palestinian-Israeli conflict, but without the media to open up 
the debate within the Palestinian society and within the 
Israeli society, and to reach a standard by which these 
societies can be critical to each other within each other's 
society, I do not see a way that it is going to be resolved 
either.
    I think--and with this I will finish, Mr. Chairman. I think 
the end result of U.S. public diplomacy ought not to be the 
expectation that after an effort the Arab world, or particular 
parts of the Arab world will love you, but I think the 
immediate result that is needed is that hate speech in that 
part of the world is for the first time confronted with 
rational speech, and I think that ought to be the aim.
    Thank you.
    [The prepared statement of Mr. Surroi follows:]

     Prepared Statement of Veton Surroi, Chairman, KOHA Media Group

    Members of the Committee, Ladies and Gentlemen:
    Nine months ago on this date I was sitting in my office in 
Prishtina, gathering information on what was going to be known as a new 
way of waging war against the United States, and indeed, war against 
democratic society as a whole. Being a Kosovar, coming from a society 
that has gone through a very long period of violence including a 
genocidal war, there was no need for detailed explanations of the 
shock, the pain, and the sense of loss that we were seeing directly on 
TV that day of September 11.
    Also, being a Kosovar, coming from a society that has been 
liberated thanks to American leadership--an effort that for many years 
was waged by a bipartisan group of Members of Congress, especially 
Senators Biden and Lugar of this distinguished Committee--the September 
11 attack against the United States was clearly understood as an attack 
against Kosova as well. On that day, I could not do much more than 
write an editorial, explaining to my fellow Kosovars why all of us 
should be out on the streets of our cities, the way we protested before 
against the Milosevic regime, now expressing our full solidarity with 
the American people and our condemnation of terrorism. On September 
12th, hundreds of thousands of people all over Kosova were out on the 
streets with a simple message: ``America we are with you.''
    As chairman of an independent media group, comprised of a leading 
television station and the biggest newspaper in Kosova, I have 
experienced the power of the freely expressed word. So to me it was not 
surprising at all to see this gathering of the people of Kosova, 
assembled by their own will, without any governmental or party 
direction, on September 12th.
    Civil society, with the independent media at its heart, played a 
crucial role in resistance against the Milosevic regime over the past 
decade. First the weekly KOHA, and then the daily newspaper KOHA 
Ditore, emerged as critical voices during the long years of oppression. 
These and other indigenous media voices, independent from the political 
parties, bridged the gap between the dark reality of those years and 
the democracy our people are now building. This vital role of the free 
media, of course, would not have been possible without the sustained 
political and material support of the United States, as well as 
European and private donor organizations, among which the most 
prominent was the Soros foundation. That support was not, and was not 
intended to be, endless: KOHA developed a policy of self-sustainability 
and was the first newspaper in the region to achieve that status only 
three months after the war. I believe that our independence and 
standards will allow us to play an important role in democracy and 
state-building in Kosova for decades to come.
    In transitional countries, there is continuous conflict between the 
forces that want to expand the freedom of the individual and society, 
and the forces that want to deny that freedom. And this conflict is not 
only about authoritarian rule vs. democracy, as was the clear-cut case 
of Milosevic vs. all of us. This struggle also continues in many post-
authoritarian societies that are trying to build democracy, where the 
authorities undermine the economic foundations of independent media so 
that official policies and messages can go unexamined and uncriticized.
    In my homeland, we have gone through all phases of repression, 
terror, and conflict. Journalists and media were prime targets for the 
Milosevic regime, as they always are for such regimes around the world. 
But no matter what the cost, our journalists remained close to the 
center of Kosova's story. And we learned some lessons from this ordeal:

  <bullet> There is no alternative to indigenous, independent 
        journalism. A message from international broadcasters, however 
        good it is, and even when delivered in the local language, 
        still lacks full credibility within the society. A message from 
        journalists within the society has much more credibility and 
        respect.

  <bullet> Set professional standards of journalism. Bad policies in a 
        country also derive from bad journalism. Bad journalism is the 
        best ally of the authoritarian mind set.

  <bullet> Persevere in your work and get international support. 
        Authoritarian rulers in this interconnected new world can still 
        get away with imprisoning many people, but they think twice 
        about imprisoning a journalist.

  <bullet> If you persevere, you might get support, but if you don't 
        get support it will be much harder to persevere. The more 
        pressure the regime puts on you, the more international and 
        indigenous support you will need.

  <bullet> As you struggle to open up a closed society, be 
        professionally critical not only towards the repressive regime, 
        but also towards your own society. Credibility is raised not 
        only through your critical attitude towards a ``natural foe'' 
        (as in the Milosevic case) but also by a fair and critical 
        attitude towards your collective self.

  <bullet> An independent media needs to be independent in terms of 
        infrastructure as well. Authoritarian regimes control 
        independent media not only through open repression, but through 
        the control of printing presses, availability of newsprint, 
        radio and TV frequencies, broadcasting equipment, financial and 
        legal repression, and other means.

    In the post-conflict period, after liberation by NATO forces, we 
also learned important lessons:

  <bullet> An independent media is crucial to building democratic 
        institutions where there were none. An independent media is a 
        precursor and precondition for those democratic institutions.

  <bullet> The absence of authoritarian rule does not automatically 
        bring freedom of the media. In the Kosovar case, a combination 
        of weak democratic institutions and bad international policies 
        have brought major new threats to the independent media. This 
        is clearly evident in the case of Bosnia and Kosova, where the 
        international administration's overwhelming support for a 
        ``public broadcasting'' monopoly risks re-creating the state 
        television dominance of the past, instead of creating the level 
        playing field needed to assure the pluralism of healthy private 
        and public broadcasting.

    I do think that some lessons we learned in Kosova can be applied in 
the Middle East, Central and South Asia. However, my recommendations 
for U.S. media policy in the Muslim world are based not so much on 
Kosova's having a majority population with a Muslim religious 
background. Kosovar society is identified more by ethnicity than by 
religion. Our experience of transition from communism to democracy, and 
from oppression to statehood, is actually more relevant. We know how to 
operate within a repressive system and what kind of support is needed.
    It is political Islam that has the clearest parallel to the 
adversary the the United States did so much to defeat in the Balkans. 
The Taliban/Al Qaeda, from my perspective, are no different than the 
Milosevic ideology. Milosevic used ethnicity to create a fascist 
movement the same way the Taliban used religion to create its own 
version of totalitarian rule. In the end, ethnic chauvinism and 
religious fundamentalism create the same result: destruction of their 
own society and surrounding societies. The extreme manifestations of 
these ideologies, as we have seen both in the case of Milosevic and the 
Taliban, are to be fought by force. And just as major U.S. and 
international support has been essential for the substantial effort to 
transform Balkan societies--before and after departure of authoritarian 
regimes--the same is true in those parts of the Muslim world where 
political Islam prevails or is a threat.
      some specific steps are needed for this long-term struggle:
    One: More effective dissemination of information. We who have lived 
in closed societies know the value of a radio transistor that receives 
VOA or BBC broadcasts in our mother tongue. And these broadcasts ought 
to be done as a concerted effort. Nevertheless, this is also the age of 
satellite dishes and the Internet: there is more space and more 
competition for information. A transistor receiving an external 
broadcaster in Arabic is insufficient. The key is the indigenous talent 
that reports from the region and helps bring professional standards 
back home, providing unbiased information from within the society.

    Two: Amplify indigenous voices. External broadcasting services and 
international commercial newscasts are not sufficient. The people of 
closed societies also need to get verification of those messages and 
information from indigenous media. The content of the message is 
important, but so is the form of it: once there are independent, 
indigenous journalists it is a sign of contradiction not only of the 
messages of authoritarian rule but of the very nature of that rule. 
Authoritarian rule is based on an image of invincibility. Independent 
media can contradict that. In every closed society there is a group of 
journalists who question that society. The key is to identify and 
support them with whatever can help amplify their voices.

    Three: Direct support for independent media. The indigenous 
independent media are confronted with an official system, and that 
system has structures of print media, distribution of press, allocation 
of frequencies, transmission systems, etc. Establishing independent 
media means establishing competing systems. Wherever possible, this 
means establishing independent printing presses, Internet-based or 
terrestrial transmitters, alternative distribution organizations for 
media products. It also means competing with the authoritarian regime 
in terms of technology and information systems. In Kosova, the 
independent media could not have survived had there not been an 
independent printing press, alternative distribution of the newspapers, 
and independent Internet capacity. Similarly, the independent media in 
Serbia, which were crucial to the defeat of Milosevic, could not have 
done their job had there not been alternative ways of broadcasting 
Radio B92, for example, via the internet and satellite.

    Four: Independent media and pluralism. Independent media voices by 
definition will be critical voices. But the concern that opening up the 
media in the Muslim world, and international support for this effort, 
will fuel anti-American criticism ignores the longterm and even medium-
term strategic benefits. The independent journalism that could be 
supported today in the Muslim world may be critical of American policy 
in the Middle East. However, state-controlled media in many of these 
countries are already full of harsh criticism of U.S. policies. 
Independent media will be critical of everything around them, including 
the lack of reform and transparency at home. What the Muslim world 
certainly needs is a healthy debate--both within and between its 
different societies--and part of that debate will be about American 
policy. Nevertheless, it will be in a context in which those societies 
will analyze themselves, a vital function which has been mostly lacking 
until now.
    The Balkans may serve as an example. We in Kosova, however pro-
American, have had criticisms of some American policies now and then, 
especially in the initial stages of the Bosnian war. But the 
independent media helped build the culture of free expression into our 
society, creating the foundation for a healthy democracy. The 
independent media in Serbia criticized U.S. policies in the Balkans 
even more, but these media were a key part of the effort that pushed 
Milosevic out, and are now helping push reform forward in Serbia.
    The choice in the Muslim world is between the present dominant 
media which are by definition anti-American (pushing a prejudiced 
message of a great ``Zionist-American-Vatican'' conspiracy against the 
Muslims, quite similar to the propaganda message of the Milosevic era), 
or the at barely existing independent media which if supported will 
bring badly-needed pluralism on all issues. In the long run, American 
foreign policy will be more successful if it can be debated with pro-
and-con articles in the editorial pages of competing newspapers and 
local broadcasters in Cairo, Damascus or Teheran, rather than only 
through ``Death to America'' slogans being chanted in the streets of 
those cities. If Muslim societies cannot benefit from the growth of 
independent media (which has begun in Afghanistan since its liberation 
from the Taliban), then they are uniquely different from all other 
societies we know.

    Five: Independent media and pragmatism. There is also a crucial 
need for the media to be bridges within a conflict, and bridges in the 
post-conflict period. If one looks only at the Palestinian problem, 
there is a need for both the Israelis and their neighbors to understand 
each others' societies through a similar professional level of 
journalism. Throughout the conflict in ex-Yugoslavia, independent media 
on different sides of the conflict have kept continuous communication. 
And now in the post-conflict period, they are the first ones in a 
position to build bridges of communication between our different 
societies which must co-exist and define long-term common interests. 
Independent media by nature are much more flexible and pragmatic than 
the state- and mullah-controlled media that now dominate in so much of 
the Muslim world.

    Most of the Muslim societies today are in a pre-reform state. The 
U.S. and its coalition of European and private media donors have 
succeeded, in Europe and elsewhere, in opening up many closed 
societies. Some of these techniques cannot be automatically applied, 
but much in the experience can be adapted to new conditions. The 
important thing, I believe, is to make a political decision not to 
leave these societies to transform themselves alone. For many of us who 
have lived and still live in transition societies, any success would 
have been impossible without a concerted, sustained international 
support effort.
    Since America's first years of democracy, when Jefferson said he 
would rather have newspapers without a government than a government 
without newspapers, transition societies around the world have depended 
on free media. The United States should lead the way in recognizing 
that the same facts of life are true for the Muslim world as well. When 
the U.S. came to this conclusion about the Balkans, it was a key 
component in assuring the freedom and peace that my homeland enjoys 
today. I hope and I expect that a similar decision by America toward 
the Muslim world will help open up the societies from which terror now 
targets your homeland. And opening up those societies to their own 
voices will help bring the more normal, productive and stable lives 
that their citizens want most of all. Opening up more Muslim societies 
to their own mainstream forces can only be good for the common 
security, as it has been for so many years of American leadership in so 
many places.
    Thank you for the honor of addressing the Committee.

    The Chairman. Thank you, Veton. Speaking for myself, I 
think it is very important that we have realistic expectations. 
I have been a Senator for along time, and the one thing I have 
always tried not to do, not because I like to think myself 
honest, but for very practical political reasons, is never 
over-promise.
    For the last 30 years as the architect of most of the 
criminal justice policy on the Democratic side of the equation 
at least, I do not talk about wars on drugs because there is 
always going to be the problem of drugs out there, and to offer 
the notion that you are going to eradicate all drug abuse is 
not realistic. To fundamentally alter it is possible.
    In this area what I do not want to do is be part of 
advertising to the American public if they just increase 
expenditures what is going to happen is we are going to be 
embraced by the Muslim world as their savior, as the nation 
they love. Americans, I try to explain to Europeans--and we had 
this discussion in your office, Veton, and I think my son, when 
he was stationed in Pristina, got to meet with you as well--is 
that most Americans, we think ourselves--the average American 
is a decent, honorable person. They truly are confused as to 
why people do not like us. They do not understand why Biden 
says send troops to Bosnia and Kosovo, and why Biden says send 
troops to Afghanistan, and they acquiesce in doing that, send 
their sons and daughters, and people do not like us for doing 
that.
    They do not understand why, when my motivation, Veton, and 
you know it better than anyone, back in the early nineties, 
when I started the drum beat to get involved in the Balkans, 
was because of the genocidal activities against Muslims, yet no 
one in the Arab world understands that, that we went to Bosnia, 
we went to Kosovo, those who were there in the very beginning, 
because Muslims primarily were being destroyed, not just--not 
merely--it was a lot of people, but it was the death camps in 
Bosnia. They were about Muslims. The rape camps were about 
Muslims. They were Bosniaks, but they were Muslims because of 
their religion, and nobody knows that. Nobody knows that, or at 
least if they know it, it has not gotten through.
    You mentioned the Middle East, all three of you. I have had 
a number of discussions, not all fruitful, not any fruitful, 
probably, alone with Mr. Arafat in his compound in the West 
Bank and here, and when I asked him why Taba was not a 
possibility he said, well, we have not prepared our public 
sufficiently. There was no effort to prepare the public, none, 
zero, none. None at all, and that is why I have been somewhat 
critical of our Saudi friends and our Egyptian friends, that if 
they want to be treated like mature nations, they have to act 
like mature leaders.
    You cannot on the one hand run editorials in the state-
controlled papers saying that the pastries that are going to be 
prepared for a religious holiday in Judaism have to be made 
from the blood of non-Jews as an essential ingredient and run 
that as news in a state-controlled paper and expect me to 
believe you have any interest in being a positive force in the 
region, so all of what each of you have said makes a great deal 
of sense.
    I have a couple of very specific questions, and again, back 
to where I began with this. Veton, your, I think, very 
practical expectation that we should be offering to the 
American people here about if our efforts succeed, what impact 
they will have, what is the measure of success here, because we 
will be measured. As you know, Mr. Ambassador, we will be 
measured a year and two and three from now as, what has 
happened, what is happening.
    Now, the issue of independence for indigenous independent 
press and U.S. aid, how do you thread that needle? How do you 
thread the needle where we, quote-unquote, the American 
taxpayers, pay for a printing press, pay for supplies, pay for 
salaries, even of staff, because those are the kinds of 
things--it is not merely saying, as you said that one time, you 
cannot just say it is enough to tell governments that are our 
friends that there is conditionality here, but there is also 
the need to literally have the money to buy the ink, 
figuratively speaking--it is not ink any more--to buy the 
paper, to have a studio, to have a roof. How do you square that 
circle? Yes, Mr. Hoffman.
    Mr. Hoffman. This is one of the key issues that you point 
your finger at, the key paradox. We are trying to teach people 
about the benefits of nongovernmental independent media, and we 
are doing it with governmental money, so we are confronted by 
this question all the time. I think that there are mechanisms 
that could be put in place that could increase the sense of 
independence that we have on the ground, but so far I must say 
I do have to say parenthetically USAID has done a really good 
job in keeping its hands off and not interfering editorially, 
and so that practice certainly helps, but it is something we 
have to overcome all the time.
    Our strategy in dealing with this has been to support the 
development of local NGOs. In every country where we work there 
is a local Internews or a local media NGO that we support.
    The Chairman. Now, let me make sure, because I do not think 
most people listening to this will understand what a local NGO 
press person is. In other words, people think of NGOs as 
Catholic charities, Irish relief workers, whatever. NGOs are 
nongovernmental organizations. Now, are there NGOs that are 
also newspapers, or are also radio stations? What do you mean?
    Mr. Hoffman. What I mean is, there are media assistance 
NGOs, so in Russia there is--Internews Russia is an all-Russian 
organization of 100 people, with lawyers and producers and 
what-not that basically support the hundreds of local 
broadcasters that are commercial operations.
    The Chairman. Very important. I just wanted for the record 
to make sure what we are talking about. We are talking about, 
these NGOs are to the media what the NGOs that are teaching 
people how to set up accounting systems in corporations that 
never existed in the former Soviet Union are. I mean, they 
provide an expertise. They provide the legal framework. They 
provide other means by which they assist private organizations.
    Mr. Hoffman. There are really two key points I would like 
to make. One is a need to support those local NGOs, but also 
for the U.S. Government to give all its assistance through 
international NGOs or American NGOs. There was an attempt back 
in 1989 or 1990 to create the international media fund, you may 
remember, after Secretary Baker called for it in his Charles 
University speech, and frankly that did not work, because it 
was seen as too closely tied to the U.S. Government, whereas 
other efforts of the U.S. State Department and USAID working 
through American and international NGOs to give that assistance 
works much better.
    The Chairman. Mr. Ambassador, you know the Arab world quite 
well. You are one of the most qualified people we have ever had 
in place when you were Ambassador. Before he became the guy who 
runs this operation, the staff director of the Foreign 
Relations Committee, Tony Blinken wrote an article in which he 
said, ``now the United States has global interests and no 
ideological rival whose vices remind the world of its 
virtues,'' meaning our virtues.
    In other words, in the past, and Veton kind of alluded to 
this, when Milosevic was around, you had opposition newspapers, 
underground newspapers. Part of their very legitimacy was, they 
were stacked up against this very bad guy out there. We were 
able to, I would argue, one of the reasons why Radio Free 
Europe and Radio Liberty were such an incredible success, there 
was a known ideology called communism pursued and pushed by a 
totalitarian government in Moscow that everything that we said 
or did was measured against.
    Now, we do not have an ideology that we are confronting 
around the world. There is all other ideologies as it relates 
to the way the marketplace works. The way the world economies 
function have basically been concluded to be more or less 
bankrupt, although there is great doubt about this fear of 
unfettered capitalism and free markets, but there is no 
ideology to replace that yet. I mean, no ideology to replace 
it. We have a different dilemma now. How much of our problem in 
having, if you will, the truth filter through the societies, 
both the good and bad about us, how much of the difficulty of 
that truth filtering through relates to not having a 
counterpoint against whom we are measured?
    When you are sitting in Baghdad or you are sitting in 
Cairo, or you are sitting in Amman, or you are sitting in 
Indonesia, or various places in Indonesia, and the debate is 
between these two superpowers, the American choice does not 
seem to be as pernicious or as dangerous or as counterintuitive 
to accept, even in the Muslim world, I would argue. Now that is 
gone. What is this new thing we have to--and I am not being 
very articulate.
    Ambassador Ginsberg. Mr. Chairman, the dilemma we face 
since the end of the cold war in the Middle East is that the 
very underground press that should be most interested, at least 
in our judgment, of promoting democracy and freedom and ideals 
is actually the Islamic extremist express. It is the sermons 
that are being put on cassettes that are attacking the local 
governments. It is the underground newspapers. Indeed, most 
Arabs in the region understand the difference between reading a 
newspaper that is controlled by the government and a newspaper 
that they know is being put together by forces of that are 
opposed to the government.
    My thesis in this is that we Americans do not realize at 
times that we are caught up in a civil war in the Middle East, 
that what we face between those governments that use incitement 
as a way of deflecting attention from their shortcomings, and 
the more extremist elements that are battling those very 
governments, is the sense that we somehow have stumbled in 
between the two and are being used by both as a way of 
deflecting the war that was already taking place on the ground 
between them, and all of a sudden we became the target.
    Mr. Chairman, as you know, in Egypt, the war that 
ultimately led to the creation of al-Qaeda and its operational 
arms was being waged by extremists against the government for 
years, where hundreds of thousands of civilians were harmed and 
injured. The war in Algeria killed hundreds of thousands of 
Algerians in the name of Islamic extremism.
    What these countries are facing is that their populations 
are dissatisfied with their leadership and blame us for in 
effect appearing to protect them and doing very little to 
change them, and if I can go down into the ground, and to say 
to myself, what do we do with the newspaper reporters who put 
the venom out and who keep writing the most incredible vitriol 
against the United States, this is all due, in fact, to the 
belief that we Americans fail to appreciate and understand 
their unhappiness and their concerns and their lack of hope and 
the despair on the ground about what we have failed to stand 
for.
    Mr. Chairman, this is not something that just happened 
overnight. On the other hand, as I said, at the height of the 
peace process, when we had the great hope and expectations that 
we were on the verge of a breakthrough when Prime Minister 
Rabin was alive, that hatred was still very much part and 
parcel of the region. The attack on the World Trade Center in 
1993 by the forerunner of al-Qaeda was essentially trying to 
cutoff the umbilical cord between us and Egypt, and we have got 
to understand that that is what we are facing in order to deal 
more effectively with the challenge before us. I am not sure if 
that gets to your question.
    The Chairman. No, it does get to it. Veton, and then I 
apologize, I am going to have to end this. I have taken you 2 
hours beyond what I told you you would get, and I am supposed 
to be, an hour ago at a Democratic Caucus, but anyway, please.
    Mr. Surroi. Combining both of your questions, I think an 
important element is actually to establish a coalition. It is 
important in terms of, to your previous question of how do you 
support. I think what we have seen in the Balkans from 1995 
onwards was that the form of support in which the U.S., the 
E.U., and the private institutions helped develop is the best 
way to deal with this, and there are many very good people who 
have worked in direct assistance who have experience in dealing 
with this issue.
    Second, it is important to develop this coalition also, 
because the other missing power, as you have said, is being 
developed, and the missing ideology is being developed, which 
is political Islam, and political Islam is actually trying to 
be the substitute for reform and for opposition in closed 
societies, and that is a real danger, because political Islam 
is basing itself on ethnicity in the Palestinian case, it is 
basing itself on poverty all over the Arab world, and on 
oppression.
    In many of these societies we still have a feudal 
mentality, and that is why the coalition-building actually is 
important and especially the coalition-building that will try 
to undermine these three areas which the political Islam is 
basing itself on.
    The Chairman. Well, we have a good deal of work to do, to 
state the obvious, but I really think for the first time in the 
last 5 years--and let me end by telling you a question I was 
asked between the time I voted and walked back here by a very 
competent foreign policy reporter. He asked me, what did I 
think about the prospects for foreign aid genuinely increasing 
in the United States on the part of the U.S. Government, and I 
use this hearing as an example.
    I think, to use a phrase that was new when I started in 
public life during the struggle for women in the women's 
movement was, sensitivity sessions they used to talk about, how 
do you sensitize the public to the plight of women in the 
sixties. That was a phrase that was very much in vogue.
    I think there has kind of been a national sensitivity 
session that is sort of taking place here, and the realization 
on the part of the average American, to use a--he has been 
quoted several times today--a Tom Friedman phrase that maybe he 
did not originate, I do not know, but it is one I associate 
with him, which was, if you do not visit the bad neighborhood, 
the bad neighborhood will visit you.
    I think there is a growing awareness on the part of the 
average American that we have to rethink how we make our case 
in a more complicated world so that all of the natural 
tendencies of human nature are that you, as I tell people, when 
you go home and your dad has just been laid off because his 
plant has closed down, and the next-door-neighbor drives in at 
the same time with a new Lexus, you do not sit at your dinner 
table saying, isn't it wonderful our neighbor has got a new 
Lexus. Isn't that a wonderful thing?
    If your neighbor is smart, the neighbor will put the new 
Lexus in the garage once they have learned that their friend 
next door has lost his job. Nations are not able to be that 
sensitive, I do not suspect, but there is this notion out there 
on the part of the American public that a lot of this has to do 
with how we communicate. They would not call it public 
diplomacy. They would say, how do we tell our side of the 
story? How do we get involved?
    And foreign aid is going to have easier sledding here now, 
because the American public understands you cannot have 3 to 5 
billion people living on $2 a day in the world and not have a 
problem eventually. People are pretty smart. Just like the 
people in Amman, or excuse me, in Riyadh know the difference 
between the state-owned press and press they get that is not 
state-owned, people here understand these basic fundamental 
things as well,
    So I really do think, with your help, and I am not being 
solicitous, with your help and the help of others that 
testified today and some that have not, that we really can 
begin to build something that is solid and substantial that 
will not only benefit the United States but benefit--and I 
think this is one of those--we always thought during the cold 
war that it is a zero-sum game. This is a win-win situation, if 
we are smart about it, and I am going to rely--Congress is 
going to rely on the three of you and others to help us figure 
out the formula.
    But I do think--maybe I am, you know, being an optimist is 
an occupational requirement. Maybe I am being a little too 
optimistic, but I do think we are on the cusp of some real 
progress in dealing with this notion of public diplomacy and 
how we interact in the world, and I look forward to working 
with all three of you, as others do here, as we do that. We 
have the draft report. We look forward to the final report from 
the Council, and we welcome any suggestions you have as we go 
on.
    I have a couple of questions for each of you, if you would 
be willing, to submit them to you in writing. I do not want to 
make work for you, but I do appreciate your being here.
    Veton, welcome, and thank you for the hospitality and the 
willingness to speak to me 6, 8 years ago and ever since. You 
were a rational voice in a sea of chaos when I was in your 
office, and I appreciate that, and I want to publicly say I 
admire your persona, courage, your personal courage that you 
showed. Over here, a press person takes a risk, he or she may 
get fired, and if they are overseas I might note more media 
people have been killed covering these things than a lot of 
other people, but in your country at the time you were speaking 
out the penalty for doing the wrong editorial might have been 
getting shot, so it is a very different deal. I admire your 
personal courage.
    And I admire your input, all three of you. I thank you very 
much. This hearing is adjourned.
    [Whereupon, at 2:10 p.m., the committee adjourned, to 
reconvene subject to the call of the Chair.]
                              ----------                              


       Responses to Additional Questions Submitted for the Record


Responses of Hon. Charlotte Beers, Under Secretary of State for Public 
 Diplomacy and Public Affairs, to Additional Questions for the Record 
              Submitted by the Foreign Relations Committee

    Question. What is the Department of State doing to ensure adequate 
interagency coordination on public diplomacy issues? What impact will 
the White House Office of Communications' apparent efforts to fulfill 
this function have on the Department of State and its leadership in the 
field of public diplomacy?

    Answer. The most important element in coordinating our messages 
overseas is the coordination of communications within the 
Administration. At present, the White House, the State Department, the 
Defense Department, and the NSC staff are working to create more formal 
mechanisms for interagency coordination on two levels. A Policy 
Coordination Committee (PCC) on Public Diplomacy is under 
consideration, which would set strategy and focus the use of resources 
by the several federal agencies that conduct public diplomacy 
activities abroad. The White House is meanwhile considering the 
establishment of an Office of Global Communications to represent the 
President's priorities and offer the President's voice to our public 
diplomacy efforts. While the precise relationship between these two 
levels has not yet been defined, the public diplomacy practitioners at 
both the White House and the State Department enjoy very close working 
relations in which State's role as the lead agency in public diplomacy 
is clearly recognized.

    Question. What are you and your colleagues doing to realize the 
spirit of Presidential Decision Directive 68 (issued by President 
Clinton)? Have any presidential directives on public diplomacy been 
issued by President Bush?

    Answer. The Bush Administration recognized the value of a unified 
message to the rest of the world by retaining a forum for interagency 
coordination on public diplomacy. After the emergency created by the 
terrorist attacks of September 11, the White House Coalition 
Information Centers brought assertive, day-to-day leadership to the 
task. At this time, we at the State Department are in consultation with 
the White House, the National Security Council and the Defense 
Department to establish more permanent structures. We want to assure a 
unified message and to bring together the assets and capabilities of 
the foreign affairs agencies of government to project it in the most 
effective manner.

    Question. Do we need a national information strategy? What can we 
do to make sure that our public diplomacy and international information 
professionals from State, the Department of Defense, USAID, and other 
agencies are coordinating to develop national, international, and 
regional international information plans?

    Answer. Yes, a national information strategy would help the U.S. to 
carry out public diplomacy more effectively in a world of cross-cutting 
national and transnational issues influenced by international and 
national media, NGOs, corporations, international organizations, and 
other outside groups.
    This strategy would provide direction and a unified voice for the 
different international communications vehicles within the U.S. 
government. Such a ``deliberate planning'' exercise, parallel to the 
Administration's National Security Strategy, would enable the U.S. to 
speak with one voice and to respond to contingencies in a quicker, more 
effective fashion. White House leadership would be essential with such 
a plan. Because government operational strategy cannot be run 
effectively by committee, it is important to affirm the State 
Department's leadership role in government-wide public diplomacy 
activities.
    We coordinated with our allies through the Coalition Information 
Centers. It was primarily the British, but the Canadians, Germans, 
Spanish and others were brought in for closer consultations as they 
became more heavily engaged. We do not normally coordinate with the UN, 
though we do consult with them through our U.S. Mission in New York. 
The most important thing is that we've developed a mechanism to 
coordinate a task-force like operation like the CIC. We also know that 
even if we aren't in a situation that would require a CIC operation, 
the White House can coordinate messages through a number of mechanisms 
with other USG agencies as well as other countries.

    Question. Former USIA Director Edward R. Murrow used to say that 
public diplomacy needed to be incorporated into U.S. policy-making at 
the lift off as well as the crash landing. As you know, one of the 
goals of the merger of USIA into the State Department was to make 
public diplomacy an even more central part of American diplomacy in 
general. This is particularly important in light of the changes wrought 
by the information and communications revolutions. Is the culture of 
the State Department changing to better incorporate public diplomacy 
perspectives? What more needs to be done to encourage this critical 
transformation in the culture of our foreign policy institutions?

    Answer. Public diplomacy has been strengthened since the merger of 
the U.S. Information Agency with the Department by bringing public 
diplomacy insights into play sooner as foreign policy is developed, 
rather than after the fact. Moreover, the Department requested an 
increase in our programs for FY 2003--the first program increase for 
public diplomacy programs in ten years--and public diplomacy staffing 
is being increased by 56 positions above attrition levels this year. An 
additional 28 positions are planned in the Department's Diplomatic 
Readiness request for 2003. In addition, the Department's leadership 
has fully supported public diplomacy strategies and themes to focus and 
augment our traditional programs.
    While we continue to work within the Department to improve the 
effectiveness and coordination of these programs, the Department is 
currently evaluating the cohesion and structure of the public diplomacy 
organizational structure.

    Question. At present the Department of State only budgets about 
five million dollars a year for foreign public opinion polling. Is this 
enough? Is enough reliable information about foreign public opinion 
being brought into the policymaking process? What more can be done to 
address this apparent shortfall? Do we need to allocate more money for 
polling and focus groups, and how can this type of market analysis best 
be integrated into U.S. government public diplomacy efforts?

    Answer. Polling is an essential tool in understanding the trends of 
public opinion in foreign countries and regions. Since September 11, we 
have gained valuable information from a variety of polling sources, 
including our own polling in the State Department. As a result, we 
have, for example, ample data on attitudes about America and Osama Bin 
Ladin. This data has been integrated into our overall public diplomacy 
strategies and our tactical planning and outreach in certain market 
segments.
    We are now working to supplement our data on what people believe 
about the United States and Bin Ladin with information on why and to 
what degree they hold their beliefs. This will increase our ability to 
determine the most effective strategies and tactics for public 
diplomacy. To the extent possible, we are seeking to do this within 
existing resources.

    Question. How can the United States make better use of the Islamic-
American community in our international public diplomacy efforts?

    Answer. We are reaching out to the Muslim community in the United 
States, not only to gain valuable information from them about the 
Islamic faith and belief system, but also to articulate to them the 
ways in which we are seeking to communicate to the Muslim world. By 
educating, informing, and consulting these groups, we are actually 
reaching out overseas, as they communicate to their friends and 
neighbors living abroad.
    We are very encouraged by the amount of interest Muslims in America 
have shown in helping to articulate the common values and shared 
beliefs Americans have with other cultures. Recently, we confirmed that 
there is a newly formed group called the Council of American Muslims 
for Understanding, which is seeking as its mission to educate both 
Americans and people outside the United States about the many important 
achievements of Muslims in America and throughout history. To achieve 
these goals, the Council will host and sponsor seminars, speaking 
engagements, engage in media relationships, produce and distribute its 
own work, and organize cultural and educational exchange programs.
    These kinds of organizations, which are more flexible and often 
more credible than government bodies, will be indispensable in telling 
our story and forming an active dialogue. Dialogue demands two-way 
communication. If such organizations can provide a framework for non-
Americans to speak to Americans, that answers an important need, which 
is for us to be seen as listeners, not just talkers.

    Question. What is the degree to which U.S. Ambassadors are provided 
with public diplomacy training prior to deployment?

    Answer. I meet with the Ambassadors-designate individually as well 
as during the Ambassadorial Seminar where we have a collective exchange 
of views regarding public diplomacy and its central role in American 
diplomacy. Also included in the Seminar program are:

          1. A 45 minute interactive discussion on the importance of 
        Public Affairs/Public Diplomacy with one or more of my senior 
        Public Diplomacy officers.
          2. Two days of intensive media skills training with a 
        professional media trainer.
          3. A session with a representative of the State Department 
        Press Office to respond to specific concerns of Ambassadors 
        regarding State Department rules and practices for dealing with 
        the media (e.g., what they can say prior to Senate 
        confirmation, prior to presentation of credentials in the host 
        country, and coordination of their activities and messages 
        overseas with Washington).

    The Public Diplomacy Training Division of the Foreign Service 
Institute can, as a standard practice, coordinate with the respective 
bureau Public Diplomacy offices and Public Affairs Offices in the 
Ambassador's country of assignment to create a profile of public 
diplomacy activities being carried out at the post.
    In addition, during consultations in Washington, most ambassadors 
meet with Public Diplomacy officers in their respective bureaus to gain 
greater familiarity with the types of public diplomacy activities being 
undertaken in their countries of assignment.

    Question. Has any aspect of the Smith-Mundt or Zorinsky 
restrictions on dissemination of public diplomacy materials interfered 
with your ability to engage effectively in public diplomacy overseas or 
to garner American support for public diplomacy efforts?

    Answer. These laws have not affected our public diplomacy effort. 
Since USIA's consolidation into the State Department, it has been a 
challenge to respect these restrictions while facilitating the 
integration of public diplomacy programs and expertise into State's 
mainstream foreign policy process. We have been able to accomplish this 
successfully, though admittedly the active use of the internet to carry 
out our public diplomacy mission overseas poses particular challenges.
    The continued applicability of both section 501 of Smith-Mundt and 
the Zorinsky Amendment was discussed during consolidation and affirmed 
in the Foreign Affairs Reform and Restructuring Act of 1998, as 
amended. The continued applicability of these restrictions on domestic 
dissemination of public diplomacy materials enables us to continue to 
focus effectively on one of our core missions--to inform and influence 
foreign audiences.

    Question. How can we measure success in our public diplomacy 
efforts, and how can we sell this success to the American people?

    Answer. We do not ``sell'' our successes to the American people. 
Rather, through periodic congressional hearings, speeches before 
interested audiences, and media activities, we inform the American 
people and their elected representatives about what we are doing.
    The success of our outreach to the Muslim world and all PD efforts 
is defined, as it has been in the past, by the successful completion of 
individual programs, such as the educational exchanges, International 
Visitors programs, speakers and journalist tours, and television co-ops 
and broadcast vignettes. All of these efforts offer international 
audiences a look inside the U.S., and highlight the long-term 
contributions these programs make to establishing a world of 
democracies.
    We show continuous progress toward these goals through specific 
examples of how public diplomacy has helped to effect change in the 
international policy arena and contributed to successful practices 
throughout the world--for example, of heads of state of countries 
joining the Coalition Against Terrorism, 50 percent were International 
Visitors through State Department public diplomacy programs; this 
exposure to the U.S. at a critical stage in the political education of 
these leaders had a real impact on how they conduct their relations 
with the U.S. today.
    Another example of how we measure results is through the alumni of 
the Department's educational exchange programs, who have been very 
active in their countries talking about their experiences in the U.S. 
and helping to bridge the perception gap that exists between different 
cultures. We are going to develop a database to keep up with 
individuals who have participated in our educational exchange programs. 
As we follow their careers and continue to reach out to these alumni, 
we will see the results of their visits time and again over the course 
of their lives.
                              ----------                              


             Additional Statements Submitted for the Record


 Prepared Statement of Senator Russell D. Feingold, U.S. Senator from 
                               Wisconsin

    I am particularly pleased to welcome Under Secretary Beers, who has 
been leading an impressive State Department effort to improve our 
public diplomacy in the aftermath of the attacks of September 11. I am 
also pleased that Governor Pattiz of the Broadcasting Board of 
Governors will be joining us today to discuss our nation's efforts to 
promote our values and objectives through broadcasts in local languages 
in communities across the globe. The perspectives on the second panel 
today should also help clarify our efforts to support reliable 
independent media efforts in other countries.
    At the hearing today, I will also join many of my colleagues in 
recognizing that we must take steps, as a priority, to reach out to 
Muslim and Arab communities around the world to counter unfortunate 
misunderstandings about American policy or American objectives in the 
campaign against global terrorism. By reaching out to these Muslim 
communities, we also have an important opportunity to demonstrate that 
the Islamic world is not unified in opposition to our country or our 
way of life.
    As Chair of the Subcommittee on African Affairs, I have been 
particularly active in urging the Secretary of State to reach out to 
Muslim leaders in Africa. And I am pleased to have had an opportunity 
to travel this year to several African nations that have important 
Muslim communities. Through those travels, I have sought to initiate a 
direct dialogue with Muslim leaders. As a nation, we must continue to 
make such public diplomacy a priority. And I am particularly pleased to 
support legislation that is now pending in Congress to expand public 
diplomacy in predominantly Muslim countries, including in countries 
across Africa and Asia.
    But we must also recognize that effective public diplomacy must 
always build on and reinforce our core values as a society. Those 
values include a commitment to accurate and reliable information on 
United States policy and on the vibrant diversity of opinions and 
beliefs that makes us such a strong and prosperous democracy. Our 
public outreach must also reinforce our core commitment to human rights 
principles. In particular, we must ensure that our friends and allies 
understand that we will not ignore human rights in the interest of 
building an immediate anti-terrorism coalition.
    I look forward to considering how we can build on the efforts that 
are already underway to improve our ability to communicate our nation's 
core beliefs to other countries and communities. This hearing today 
offers an important opportunity to initiate that discussion.
                                 ______
                                 

Statement of Senator Edward M. Kennedy, U.S. Senator from Massachusetts

    Mr. Chairman, I commend you for holding this hearing in the Senate 
Foreign Relations Committee on the important issue of public diplomacy. 
I welcome the opportunity to submit testimony.
    One of the clear lessons of September 11th is that our country 
needs to do more to ensure that future generations in the Islamic world 
understand American values and culture. Nearly 1.5 billion people live 
in the Islamic world. If we ignore the anti-American attitudes so 
prevalent in those countries, we do so at our own peril.
    If we address the problem directly, by teaching American values to 
young people from the Islamic world, we have a chance, in the long run, 
of changing negative attitudes. It's a long process, but September 11th 
has taught us that we must begin it now.
    There are many ways to share America's values with others, and this 
important hearing will highlight many of them. Among the most effective 
public diplomacy actions at our disposal are international educational 
exchange programs. There are no better ambassadors for American values 
than Americans themselves. Student exchange programs have proven to be 
effective in reaching out to the next generation of leaders. As 
Secretary Powell said in his August 2001 Statement on International 
Education Week, ``I can think of no more valuable asset to our country 
than the friendship of future world leaders who have been educated 
here.''
    On May 10, Senators Lugar, Leahy, Chafee, Dodd, Hagel, Gordon 
Smith, Cochran, Brownback, Jeffords, Durbin, Feingold, and Landrieu 
joined me in introducing the Cultural Bridges Act of 2002. Our 
legislation, S. 2505, seeks to increase funding for student and other 
exchanges between Americans and visitors from the Islamic world. It 
would also create a new high school exchange program for students from 
the Islamic world.
    The Cultural Bridges Act would authorize $75 million above current 
appropriations in fiscal years 2003 through 2007 to expand the 
activities of the State Department's existing educational and cultural 
programs in the Islamic world. It would also authorize $20 million in 
fiscal years 2003 through 2007 for the Department to establish a new 
high school student exchange program to enable competitively selected 
students from the Islamic world to study in the United States at a 
public high school for an academic year.
    The State Department currently manages a number of international 
student educational and cultural exchange programs that have helped 
foster mutual respect and understanding in many countries worldwide. 
These programs enable approximately 5,000 Americans to travel abroad 
and 20,000 foreign visitors to travel to the United States annually to 
study, teach, and engage in people-to-people programs. They have been 
successful in promoting American values and cultural tolerance.
    Unfortunately, visitors and students from the Islamic world are 
significantly underrepresented in many of these programs. Individuals 
in the Islamic world represent approximately 25 percent of the world's 
6.2 billion people. However, in fiscal year 2000, less than 10 percent 
of the participants in State Department cultural and educational 
exchange programs were from the Islamic countries covered under our 
legislation, and less than 12 percent of the budget was spent on these 
countries. According to the State Department's Bureau of Educational 
and Cultural Affairs, funding for exchanges has fallen by almost a 
third since 1993 when adjusted for inflation.
    The additional $75 million our legislation authorizes for existing 
programs to be expanded in the Islamic world is essential to the 
objective of promoting greater understanding of American values and 
ideals. Existing programs provide the essential building blocks for an 
expanded and sustained effort to reach more broadly into these 
societies, to foster mutual respect, and to counter the hatred that can 
lead to acts of terrorism.
    Last October, President Bush spoke eloquently about the need to 
reach out in friendship to the Islamic world. In a speech to students 
at Thurgood Marshall Extended Elementary School in Washington DC, the 
President said that America is ``determined to build ties of trust and 
friendship with people all around the world--particularly with children 
and people in the Islamic world.''
    To facilitate the President's goal of reaching children, our 
legislation would also create a new program for high school students 
from the Islamic world to study in the United States. No federal 
program currently exists to facilitate such student exchanges with the 
ever-increasing number of youths in the Islamic world.
    There are many benefits to reaching out to students while they are 
young and openminded to enhance cultural understanding and tolerance. 
Today's high school students are tomorrow's leaders, and we need to 
begin working with them now to inform them about our country.
    In an January 20, 2002 article in the Washington Post, a former 
Fulbright scholarship recipient from Egypt expressed concern that his 
university in Egypt was and continues to be fertile ground for 
recruiters from terrorist or extremist organizations. Our challenge is 
to provide young students with the opportunity to learn about America, 
participate in all aspects of American family life, and understand our 
values before they reach that stage.
    The high school student exchange program authorized in our 
legislation is modeled on the State Department's highly successful 
Future Leaders Exchange Program (FLEX), which brings approximately 
1,000 students ages 15-17 from the nations of the former Soviet Union 
to the United States each year to attend an American high school for a 
year and live with an American family.
    The FLEX program has been effective in shaping attitudes among the 
students selected to participate from those nations. A 1998 U.S. 
government study, which compared Russian FLEX alumni with other Russian 
youth of the same age, found that the FLEX alumni are more open to and 
accepting of Western values and democratic ideals. They are more likely 
to want to become leaders in and to make a contribution to their 
society. They tend to be more optimistic than other Russian youths 
about the future of their country--especially its evolution to a more 
democratic, rule-of-law society.
    Importantly, the FLEX program has been successful in the six 
predominantly Islamic countries of those nations--Azerbaijan, 
Kazakhstan, Kyrgyzstan, Tajikistan, Turkmenistan, and Uzbekistan. More 
than 1,500 students from those Muslim countries have studied and lived 
in the United States since the program began. FLEX alumni in Azerbaijan 
and Turkinenistan are teaching English in their home countries, and 
alumni in Kyrgyzstan and Tajikistan have been involved in activities to 
develop democratic practices. Given the track record in these 
countries, there is every reason to believe that a high school student 
exchange program would succeed throughout the Islamic world.
    Like the existing FLEX program, our legislation requires 
participating students in high school exchanges from the Islamic world 
to be selected competitively and in a manner that ensures geographic, 
gender, and socio-economic diversity. To qualify, students must be 
tested extensively and interviewed under State Department guidelines. 
As with the FLEX program, the State Department will work with 
experienced American non-governmental organizations to recruit, select, 
and place students, and will remain in close contact with the public 
high school, the American host family, and American non-governmental 
organizations while the students are in the United States.
    All students and visitors participating in programs authorized in 
the legislation must be admissible under all our immigration laws and 
procedures. Legislation recently signed into law will improve our 
ability to screen foreign students by requiring increased communication 
among the State Department, the INS, and the schools enrolling foreign 
students, and by closing gaps in the existing foreign student 
monitoring program.
    Our legislation has been endorsed by the Alliance for International 
Education and Cultural Exchange, AMIDEAST, AFS, the Academy for 
Educational Development, the American Councils for International 
Education, the American Institute for Foreign Study, the Institute of 
International Education, the National Council for International 
Visitors, Sister Cities International, World Learning, and World Study 
Group.
    As the Director of the Alliance for International Educational and 
Cultural Exchange, a coalition of 65 organizations with chapters in all 
50 states, former Ambassador Kenton Keith, wrote: ``Winning the war on 
terrorism will demand more than just our military prowess. It will 
require us to engage the peoples of the Islamic world about our society 
and values if we are to forge the mutual understanding and respect that 
will be the basis of peaceful productive relationships. The exchanges 
authorized in your bill are the most cost-effective way to encourage 
the positive personal and institutional relationships that will enhance 
our long-term national security.'' I ask the committee to include 
copies of this letter and other endorsement letters in the hearing 
record.
    America must respond to the terrorist threat on many levels. We 
need to ensure that our defenses are strong, our borders are secure, 
and our relationships with allies are vibrant. We also need to do more 
in the area of public diplomacy.
    It is clearly in America's national security interest to promote 
more people-to-people contacts throughout the Muslim world. In a May 
3rd address to the World Affairs Council in California, Deputy 
Secretary of Defense Paul Wolfowitz spoke about the need to reach out 
and strengthen voices of moderation in the Islamic world and to bridge 
the ``dangerous gap'' between the West and the Muslim world. He said 
America must `begin now . . . the gap is wide and there is no time for 
delay.''
    After September 11, many of the Muslim countries condemned those 
attacks and pledged to help the United States fight terrorism. As we 
have seen in Afghanistan, Pakistan, and elsewhere in the Muslim world, 
some individuals and factions within a country support terrorists and 
terrorist organizations, while others seek to resolve issues 
peacefully. America can reduce support for terrorism by reaching out 
more effectively in friendship to all nations in the Islamic world.
    Building bridges of understanding and tolerance across cultures 
will help ensure that Americans and people of the Islamic world will 
truly understand and know each another. Clearly, international 
educational and cultural exchanges can play a significant role in 
America's public diplomacy efforts in the Islamic world.
    I understand the Chairman intends to propose legislation to address 
these and other important public diplomacy issues in the near future. I 
welcome this leadership, and I urge the committee to include the 
Cultural Bridges Act in public diplomacy legislation.

    [Letters in support of the Cultural Bridges Act of 2002 follow:]

                                 World Study Group,
                                         San Francisco, CA,
                                                     April 2, 2002.

Hon. Edward M. Kennedy, Hon. Richard Lugar,
  and Hon. Lincoln Chafee,
U.S. Senate,
Washington, DC.

    Dear Senators Kennedy, Lugar, and Chafee: On behalf, of the World 
Study Group, I write to thank you for your leadership in introducing 
the Cultural Bridges Act of 2002. The World Study Group and its 
affiliated J-1 visa programs are dedicated to increasing understanding 
and trust between people through international cultural exchange.
    Building productive ties with the Muslim world will require a 
sustained and serious commitment that reaches well beyond our current 
efforts. The exchanges authorized in your bill are the most cost-
effective way to encourage the positive personal and institutional 
relationships that will enhance our long-term national security goals. 
Breaking down misunderstanding requires that our peoples know each 
other better.
    Congressional leadership will be crucial to this endeavor. Student 
exchanges from the Muslim world are among the lowest of any region, and 
significant new resources will be required to jump-start this effort. 
Moreover, a clear federal commitment will leverage private sector 
support and will immediately engage the American people directly in the 
conduct of this high priority foreign policy initiative.
    Your legislation is the right bill at the right time. On behalf of 
AYUSA, AuPairCare, and Intrax Inc., we thank you. You have the 
gratitude and support of our staff and field representatives throughout 
the United States.
        Sincerly,
                                      John Wilhelm,
                                                 President.

                                 ______
                                 

                                    World Learning,
                                            Washington, DC,
                                                     April 1, 2002.

Hon. Edward M. Kennedy, Hon. Richard Lugar,
  and Hon. Lincoln Chafee,
U.S. Senate,
Washington, DC.

    Dear Senators Kennedy, Lugar, and Chafee:  Thank you for your 
leadership in introducing the Cultural Bridges Act of 2002. Enactment 
of this legislation will make possible increased opportunities to bring 
current and future leaders from the Islamic world to the United States 
and to send Americans to Muslim countries to teach and study.
    Expanded opportunities for citizen exchange between the United 
States and the Islamic world will help to engender increased respect, 
understanding and trust between our peoples. Building this mutual 
understanding will enhance our national security by broadening the 
range of productive interactions between the United States and Muslim 
countries.
    Currently, student and other exchange flows with Muslim countries 
are lower than with other regions of the world. The programs which the 
Cultural Bridges Act authorizes would provide for significant increases 
at this crucial time for our nation. Thank you again for your 
leadership in working to strengthen these important programs.
        Sincerely yours,
                                              Robert Chase,
                                                    Vice President.

                                 ______
                                 

                       Sister Cities International,
                                            Washington, DC,
                                                     April 1, 2002.

Hon. Edward M. Kennedy, Hon. Richard Lugar,
  and Hon. Lincoln Chafee,
U.S. Senate,
Washington, DC.

    Dear Senators Kennedy, Lugar, and Chafee:  On behalf of Sister 
Cities International and the 700 U.S. cities joined in cooperative 
sister city partnerships with 1,500 international cities in 121 
countries, I applaud your leadership in introducing the Cultural 
Bridges Act of 2002. The Cultural Bridges Act of 2002 will be a vital 
tool in the conduct of U.S. foreign policy and public diplomacy in 
response to new challenges facing the United States.
    The need for increased international understanding and cooperation 
has never been more imperative than in the aftermath of September 11. 
International education and exchange programs are critical elements in 
advancing U.S. foreign policy and national security, as they build 
understanding and cooperation between Americans and future foreign 
leaders. Nearly 150 present and past foreign heads of state made their 
first visits to the United States on exchange programs. This powerful 
tool for building productive, positive relationships has served the 
United States extraordinarily well over the years, and has included 
visits from world leaders such as Anwar Sadat and Indira Gandhi, French 
Premier Lionel Jospin and British Prime Minister Tony Blair.
    Perhaps most importantly, the Cultural Bridges Act boldly leads the 
way for the federal government to encourage sustainable, cooperative 
relationships between the United States and the Islamic world. In the 
fight against terrorism and efforts to improve our national security, 
there can be no doubt that fostering international exchanges will help 
diminish negative stereotypes and build an environment of mutual 
understanding and respect for differences. Furthermore, the Cultural 
Bridges Act will help foster citizen diplomacy initiatives that will 
promote the involvement of local citizens in international engagement. 
Now more than ever, the federal government must invest in capacity 
building at the community level to promote citizen diplomacy, 
particularly with regard to the Islamic world. As we know, resources 
allotted for these activities are drastically insufficient in the 
current climate, and we hope the introduction of the Cultural Bridges 
Act will move our nation in the right direction of enhanced 
cooperation.
    Thank you again for your leadership on this pressing issue.
        Sincerely,
                                         Tim Honey,
                                        Executive Director,
                                       Sister Cities International.

                                 ______
                                 

       National Council for International Visitors,
                                            Washington, DC,
                                                     April 1, 2002.

Hon. Edward M. Kennedy, Hon. Richard Lugar,
  and Hon. Lincoln Chafee,
U.S. Senate,
Washington, DC.

    Dear Senators Kennedy, Lugar, and Chafee:  On behalf of the Board 
and members of the National Council for International Visitors (NCIV), 
we thank you for your initiative in introducing the Cultural Bridges 
Act of 2002. NCIV members--nonprofit program agencies and 95 community 
organizations across the United States--organize professional programs, 
home visits, and cultural activities for participants in the State 
Department's International Visitor Program and other exchanges. More 
than 80,000 volunteers are involved in NCIV member activities each 
year, including WorldBoston, International Center of Indianapolis, and 
the World Affairs Council of Rhode Island.
    NCIV members promote citizen diplomacy--the idea that the 
individual citizen has the right, even the responsibility, to help 
shape U.S. foreign relations ``one handshake at a time'' through 
exchanges. We are grateful for your leadership in introducing this 
legislation that will make more of these handshakes possible with 
participants from underserved areas of the world.
        Sincerely,
                                             Alan Kumamoto,
                                         Chair, Board of Directors.

                                   Sherry L. Muller, Ph.D.,
                                                         President.

                                 ______
                                 

              Institute of International Education,
                                              New York, NY,
                                                     April 2, 2002.

Hon. Edward M. Kennedy, Hon. Richard Lugar,
  and Hon. Lincoln Chafee,
U.S. Senate,
Washington, DC.

    Dear Senators Kennedy, Lugar, and Chafee: On behalf of the 
Institute of International Education, including our Trustees and 
volunteers across the country, please accept IIE's thanks and 
appreciation for the leadership you are showing by introducing the 
Cultural Bridges Act of 2002. Your initiative could not be more 
relevant and timely.
    As always, the leadership of Congress in international educational 
exchange is critical. Now, in vulnerable areas of the world where 
peace, understanding and progress through education are vitally needed 
to insure that terrorism and intolerance are eliminated, your 
legislation addresses key areas where we can work to build shared 
values.
    Exchanges of high school and college students, graduate students 
and young professionals, as well as others, who can help create the 
climate we need where progressive democratic developments flourish are 
sorely needed in Africa, the Near East, Central and South Asia, and 
Southeast Asia. The focus of your Cultural Bridges Act of 2002 on 
members of the Organization of Islamic Conference includes virtually 
every nation we need to reach if we are serious about making people to 
people diplomacy work for youth. As you know, the Institute has always 
regarded the Mutual Educational and Cultural Exchanges Act of 1961 as 
one of the most important of all this nation's foreign policy 
documents. By directing the Department of State to establish new 
initiatives through the authority of the 1961 Act you will assure that 
the philanthropic and higher education sectors not only support your 
efforts but help you leverage government resources for important common 
purposes.
    Please let me know if there is anything the Institute can do to 
assist you in this critically important endeavor at a time of great 
national need.
        Sincerely,
                                          ----  ----  ----,
                              Institute of International Education.

                                 ______
                                 

              American Institute for Foreign Study,
                                              Stamford, CT,
                                                     April 2, 2002.

Hon. Edward M. Kennedy, Hon. Richard Lugar,
  and Hon. Lincoln Chafee,
U.S. Senate,
Washington, DC.

    Dear Senators Kennedy, Lugar, and Chafee: As a member of the 
Alliance for International Educational and Cultural Exchange, I write 
to thank you for your leadership in introducing the Cultural Bridges 
Act of 2002.
    Winning the war on terrorism will demand more than just our 
military prowess. It will require us to engage the peoples of the 
Islamic world about our society and values if we are to forge the 
mutual understanding and respect that will be the basis of peaceful, 
productive relationships. As September 11 and its aftermath make clear, 
our public diplomacy has fallen short.
    Building productive ties will require a sustained and serious 
commitment that reaches well beyond our current efforts. The exchanges 
authorized in your bill are the most cost-effective way to encourage 
the positive personal and institutional relationships that will enhance 
our long-term national security.
    Congressional leadership will be crucial to this endeavor. Student 
and exchange flows from the Muslim world are among the lowest of any 
region, and significant new resources will be required to jump-start 
this effort. Moreover, a clear federal commitment will leverage private 
sector support from universities, schools, businesses, and communities 
across the U.S. This initiative will engage the American people 
directly in the conduct of the highest priority foreign policy.
    Your legislation is the right bill at the right time. You have the 
gratitude and support of members of the exchange community throughout 
the United States. 
        Sincerely,
                                         Robert J. Brennan,
                                                         President.

                                 ______
                                 

               Academy for Educational Development,
                                            Washington, DC,
                                                     April 2, 2002.

Hon. Edward M. Kennedy, Hon. Richard Lugar,
  and Hon. Lincoln Chafee,
U.S. Senate,
Washington, DC.

    Dear Senators Kennedy, Lugar, and Chafee: On behalf of the Academy 
for Educational Development, a non-profit organization serving people 
in more than 160 countries, I want to thank you for your leadership in 
introducing the Cultural Bridges Act of 2002.
    International exchange programs are a critical component of the war 
on terrorism. Exchange programs enhance mutual understanding and build 
long-term bridges with individuals in other countries. Expanding the 
flow of people, ideas and information will promote greater 
understanding of the United States and will advance our foreign policy 
objectives.
    The International Visitor Program has been particularly effective 
at reaching future foreign leaders and at advancing key foreign policy 
objectives. For example, a recent leadership development program 
brought student leaders from the Middle East and North Africa for 
exchanges with student leaders across the United States. Another 
program on the role of religion in the United States brought 
administrators from religious educational institutions, or 
``madrassahs,'' in Pakistan to meet with civic and religious leaders in 
several cities. Programs such as these that target key issues and 
leaders should be significantly expanded in the Islamic world.
    Although the world's attention has been focused on the Muslim 
world, exchange programs from countries with large Islamic populations 
are underrepresented in U.S. government-sponsored exchange programs. 
Your bill will significantly enhance the capacity to reach out to 
individuals in these countries through people-to-people exchanges that 
are among our best tools of diplomacy.
    We thank you for your leadership, vision and commitment in 
introducing this critical piece of legislation.
        Sincerely,
                                        Stephen F. Moseley,
                             President and Chief Executive Officer.

                                 ______
                                 

                                     AFS-USA, Inc.,
                                              New York, NY,
                                                     April 1, 2002.

Hon. Edward M. Kennedy, Hon. Richard Lugar,
  and Hon. Lincoln Chafee,
U.S. Senate,
Washington, DC.

    Dear Senators Kennedy, Lugar, and Chafee: I am writing on behalf of 
our staff, volunteers, and board members located in all 50 states to 
express our pleasure and thanks for initiating the Cultural Bridges Act 
of 2002.
    AFS is the oldest, largest, and most diverse high school exchange 
program in the United States and in the world. We understand and 
appreciate the leadership you have demonstrated in sponsoring this 
bill. Public diplomacy in the Islamic world requires the focus and 
funding contained in your bill. Our 54 years of experience in the field 
of exchange tells us that a serious commitment, sustained over a number 
of years, will be needed to defeat terrorism at its roots by increasing 
understanding and tolerance among people of different countries, 
beliefs and values. AFS exchanged students from Germany and Japan with 
the U.S. almost immediately after World War II. Today those countries 
are our allies. Democratic principles, respect for others, and 
individual freedom are our values, and they can be powerful when seen 
through daily interaction with our families and students.
    You are doing the right thing. We stand ready to support you in any 
way we can. Thank you for your pursuit of peace and freedom.
        Sincerely,
                                            Alex J. Plinio,
                                                         President.

                                 ______
                                 

Alliance for International Educational and Cultural 
                                          Exchange,
                                              New York, NY,
                                                     April 2, 2002.

Hon. Edward M. Kennedy, Hon. Richard Lugar,
  and Hon. Lincoln Chafee,
U.S. Senate,
Washington, DC.

    Dear Senators Kennedy, Lugar, and Chafee: On behalf of the 65 
member NGOs of the Alliance for International Educational and Cultural 
Exchange, I write to thank you for your leadership in introducing the 
Cultural Bridges Act of 2002.
    Winning the war on terrorism will demand more than just our 
military prowess. It will require us to engage the peoples of the 
Islamic world about our society and values if we are to forge the 
mutual understanding and respect that will be the basis of peaceful, 
productive relationships. As September 11 and its aftermath make clear, 
our public diplomacy has fallen short.
    Building productive ties will require a sustained and serious 
commitment that reaches well beyond our current efforts. The exchanges 
authorized in your bill are the most cost-effective way to encourage 
the positive personal and institutional relationships that will enhance 
our long-term national security.
    Congressional leadership will be crucial to this endeavor. Student 
and exchange flows from the Muslim world are among the lowest of any 
region, and significant new resources will be required to jump-start 
this effort. Moreover, a clear federal commitment will leverage private 
sector support from universities, schools, businesses, and communities 
across the U.S. This initiative will engage the American people 
directly in the conduct of the highest priority foreign policy.
    Your legislation is the right bill at the right time. You have the 
gratitude and support of members of the exchange community throughout 
the United States.
        Sincerely,
                                           Kenton W. Keith,
                                         U.S. Ambassador (retired),
                                         Chair, Board of Directors.

                                 ______
                                 

     American Councils for International Education,
                                            Washington, DC,
                                                     April 2, 2002.

Hon. Edward M. Kennedy, Hon. Richard Lugar,
  and Hon. Lincoln Chafee,
U.S. Senate,
Washington, DC.

    Dear Senators Kennedy, Lugar, and Chafee: I write to commend you 
for your leadership in introducing the Cultural Bridges Act of 2002, a 
legislative initiative designed to engage the diverse Islamic 
populations around the world through international exchange programs. I 
particular want to thank you for focusing on high school exchanges as a 
highly effective mechanism for introducing the United States to this 
audience, and them to our fellow Americans.
    While our country's public diplomacy efforts--which include 
exchange programs--have earned us many friends in parts of the world, 
the dramatic events of September 11th and our examination of our 
standing with key populations in the Islamic world since those 
terrorist attacks have revealed that we have neglected a critical world 
population stretching from West Africa to Southeast Asia. This arc 
crosses the Arab Middle East, through Southeastern Europe and Central 
Asia to Indochina approximately 1.4 billion people populate the 
countries along this arc. Your initiative would make it our national 
policy to reach out to the peoples of these countries to build mutual 
understanding.
    The Cultural Bridges Act of 2002 would capitalize on our nation's 
capacity to educate and inform by bringing individuals to the United 
States to learn about our culture, language, and aspirations--all while 
studying in school, mastering their chosen profession, or doing 
research. It provides a highly effective (and low cost) way to 
positively influence foreign populations through citizen diplomacy, 
something we've done well with post-war Europe and Japan, Latin 
America, and most recently with the countries of the former Warsaw 
Pact.
    My own organization has utilized academic and youth exchanges for 
more than 25 years with the former Soviet Union. Among our many 
successes in fostering understanding of the United States in that 
region, some of the most impressive results result from exchange 
programs involving youth, like the Future Leaders Exchange Program, and 
secondary school teachers, like the Excellence in Teaching Awards 
Exchange Program--both funded through an earlier congressional 
initiative, the FREEDOM Support Act. The Cultural Bridges Act that you 
are introducing in the Senate would facilitate similar successes in the 
Islamic World.
    The American Councils has experience with working in the Muslim 
communities of the NIS--communities that exist throughout the 12 
countries of the old Soviet Union. Some of the most dynamic needs for 
expanded exchange opportunities in the NIS are apparent in the 
predominately Islamic countries of Azerbaijan, Kazakhstan, Kyrgyzstan, 
Tajikistan, Turkmenistan, and Uzbekistan--countries that are critical 
to addressing our urgent security concerns in Central Asia and all of 
which would be eligible to benefit from your legislation.
    Your exchanges initiative is both an effective bulwark against 
ignorance of the United States and a proactive measure for securing the 
peace we hope to achieve through our current military campaign. I 
applaud your leadership in introducing this bill, and look forward to 
its enactment.
        Sincerely,
                                    Dan E. Davidson, Ph.D.,
                                                         President.

    Prepared Statement of Amb. Kenton W. Keith, Chair, Alliance for 
    International Educational and Cultural Exchange and Senior Vice 
                President, Meridian International Center

    Good morning. I'm Kenton Keith, senior vice president of the 
Meridian International Center and chair of the board of directors of 
the Alliance for International Educational and Cultural Exchange. The 
Alliance is an association of 65 U.S.-based exchange organizations, and 
as you know, Mr. Chairman, we have worked closely with this committee 
over the years on a variety of issues. MIC is a nonprofit organization 
that promotes international understanding through exchanges of people, 
ideas, and the arts.
    Prior to taking up my current positions, I was a Foreign Service 
Officer with the United States Information Agency. Much of my career 
was spent in the Middle East, including my appointment by President 
Bush in 1992 to be U.S. Ambassador to Qatar. Following that assignment, 
I headed USIA's area office that supervised all the agency's operations 
in the Near East and South Asia. More recently, I took on a temporary 
assignment for the State Department during which I established and 
directed the Coalition Information Center in Islamabad.
    Mr. Chairman, both in my present capacities and based on my past 
experiences, I welcome the opportunity to provide this statement for 
the record about the importance of public diplomacy, especially in the 
wake of the horrific events of September 11 and in support of our 
national campaign to rid the world of terrorism.
    To win the war on terrorism, the United States will need more than 
the might and skill of our armed forces, To ultimately defeat 
terrorism, we must also engage the Muslim world in the realm of ideas, 
values, and beliefs. No previous foreign affairs crisis has been so 
deeply rooted in cultural misunderstanding, and we must address this 
gulf of misunderstanding if we are to succeed.
    Policy disagreements alone cannot account for the fact that many in 
Islamic countries regard the United States, the greatest force for good 
in human history, as a source of evil. As a nation, we have not done an 
adequate job of explaining ourselves to the world, or of building the 
personal and institutional connections with these countries that 
support healthy bilateral relationships.
    As a long-term solution to the profound problems of cultural 
misunderstanding, there will be no substitute for public diplomacy. It 
must be a key component of our long-term effort to eradicate terrorism. 
We applaud your leadership, Mr. Chairman, and that of your committee in 
focusing attention on what must be a critical element in our successful 
anti-terrorism strategy.
    People-to-people ties are an essential part of our public 
diplomacy. As Ambassador Arthur Burns once said, ``The achievement . . 
. of true understanding between any two governments depends 
fundamentally on the kind of relationship that exists between the 
peoples, rather than on the foreign ministers and ambassadors.''
    In the Islamic world, we dearly have not done an adequate job of 
fostering relationships between our peoples. A February Gallup poll 
reports that 61 percent of Muslims believe that the attack on the 
United States was a riot carried out by Arabs. Mr. Chairman, that 
statistic alone speaks somber volumes about our failure to project our 
values and ideals effectively in Islamic nations.
    We must recognize that we begin this effort in a very unfavorable 
position. Changing minds--or merely opening them--is a long, 
painstaking process. There are no quick fixes. And if we are truly to 
win the war on terrorism, there will be no avoiding the need to build 
bridges between the American people and the people of the Muslim world. 
Mr. Chairman, we must begin this process now.
    This effort will require us to be creative, disciplined, and 
patient as we try to reach audiences whose attitudes towards us range 
from profoundly skeptical to openly hostile. We will not succeed in 
opening every mind, but we do not need to do so. What we must succeed 
in doing is challenging and changing a climate of opinion that unjustly 
paints the United States as a source of evil. Improving the 
relationships that exist between our peoples is the best way to do 
that. And if we succeed, terrorists will find it much more difficult to 
gain support or sympathy, either from governments or from general 
publics.
    Increasing the State Department's exchanges with the Islamic world 
will give us the means to build a range of productive, positive 
relationships based on shared interests. Such an initiative will engage 
the American public--in our communities, schools, and universities--in 
this effort to project American values. We will find no better or more 
convincing representatives of our way of life.
    And the engagement of the American public will leverage significant 
additional resources to support this effort.
    Under such an initiative, the United States could undertake a broad 
range of exchange activities that would enhance U.S. national security. 
These programs could include:

  <bullet> Greater numbers of Fulbright students and scholars working 
        together on issues such as public health, cultural studies, 
        conflict resolution, and economic development;

  <bullet> More American universities with linkages to institutions in 
        the Muslim world in fields like journalism, American studies, 
        and business;

  <bullet> Increased numbers of emerging leaders from Islamic countries 
        meeting their American professional counterparts and visiting 
        American homes and communities as part of the International 
        Visitor program and other citizen exchange programs;

  <bullet> More young people from the Islamic world encountering the 
        U.S., its people, and its culture through long and short-term 
        exchange programs, school-to-school projects. or by learning 
        English from an American teacher;

  <bullet> Exchanges of teachers between the U.S. and Muslim countries 
        exposing students on both sides to differing perspectives and 
        more balanced, objective curricula.

    This will require a major effort, requiring us to engage a very 
broad range of countries, in an area reaching from Africa to the Middle 
East, stretching further eastward from Central Asia to the Indian 
subcontinent to Southeast Asia. Addressing so many countries and 
cultures will demand thoughtfully differentiated approaches to public 
diplomacy. In some countries, significant increases in our traditional 
exchanges, such as the Fulbright and International Visitor programs, 
will be appropriate, welcome, and effective. In other countries, such 
an approach may be seen as threatening. Particularly in those cases, we 
must be creative in finding ways of reaching more skeptical publics, 
such as journalists and religious communities.
    This initiative will also require significant new resources. The 
scope of the task is too great, and its importance to our national 
security too critical, to be able to accomplish our goals by simply 
shifting money from other regions of the world. The importance of 
maintaining a broad, worldwide coalition to combat terrorism suggests 
strongly that shortchanging one area of the world in order to 
temporarily emphasize another will be an ineffective strategy. To do 
this job right will require new funding.
    Reductions in public diplomacy over time have limited out reach: we 
have closed posts and cultural centers, reduced numbers of public 
diplomacy positions in our embassies, and steeply reduced the number of 
exchange participants. As populations in significant Muslim countries 
have increased by approximately 15 percent over the past 10 years, the 
numbers of exchange participants from key countries such as Egypt, 
Indonesia, Pakistan, and Turkey have declined by approximately 25 
percent.
    In the face of those reductions, Mr. Chairman, it is important for 
us to recognize the dedication, hard work, and effectiveness of the 
State Department's corps of public diplomacy officers. Faced with 
diminishing resources and a major reorganization that abolished USIA 
and moved their function and careers into State, these professionals 
have performed in their typical fashion: professionally and 
effectively.
    Mr. Chairman, a meaningful and effective Islamic exchange 
initiative will require $95 million above the current appropriation for 
State exchanges. We recognize that this is a significant amount of 
money. We believe, however, that this funding level is necessary and 
appropriate, given the expanse of the Muslim world and the urgency and 
importance of the task at hand. Moreover, this amount of money to be 
spent on promoting our ideas and values is very small when compared to 
the sums we will expend on military hardware, but is no less crucial to 
our success.
    Mr. Chairman, we welcome the opportunity to discuss this proposal 
with you and your staff, and we have found broad bipartisan support for 
an Islamic exchange initiative in both chambers. As you know, Senators 
Kennedy and Lugar have recently introduced the ``Cultural Bridges 
Act,'' calling for an additional $95 million annually for exchanges 
with the Muslim world. Their bill has already attracted twelve 
additional cosponsors, drawn from both sides of the aisle. In the 
House, International Relations Committee Chairman Hyde's ``Freedom 
Promotion Act'' also authorizes new funds for exchanges with the Muslim 
world. The Hyde bill has been marked up by the Committee and has been 
reported to the House for its consideration. This level of support from 
senior members of both parties and both chambers underscores the 
timeliness and importance of this initiative. This is a moment when our 
national interests require Congressional leadership to build these 
cultural bridges. The U.S. exchange community stands ready to assist 
you in this effort, and is grateful for your support.

        In addition to his Alliance testimony, Kenton Keith submits to 
        the Committee an additional statement based more directly on 
        his Foreign Service experience. The text of that addendum 
        follows:

    Mr. Chairman, it is indeed timely for the committee to examine our 
public diplomacy assets in the wake of the attacks on our nation. I 
would like to draw your attention to problems that handicap the 
dedicated individuals who carry out public diplomacy in Washington and 
in the field. Structural problems stemming from the amalgamation of 
USIA into the Department of State have had the unintentional effect of 
diminishing the thrust of our public diplomacy efforts.
    I also would like to comment briefly on the new regional 
broadcasting initiative launched by the Voice of America.
Structural Faults: An Opportunity Deferred
    I served as the USIA representative on the Planning Committee. In 
the months of our deliberations it was clear to me that the 
disappearance of the USIA Area Offices would be the biggest challenge 
to the effective linkage of Washington to the field operations. The 
Area Offices, which corresponded to the State Department regional 
bureaus, had tremendous clout. They were headed by the Agency's senior-
most career officers, they controlled field budgets, they had direct 
and regular access to the Agency's Directors and the political 
appointees who headed the Information and Educational and Cultural 
Exchange bureaus, and they shared with Ambassadors abroad the 
performance evaluations of our PAOs, the public diplomacy directors in 
the field. In other words, PAOs were accountable to both their 
ambassadors and their area directors.
    In almost every case, Area Directors sat in on the meetings of 
State Department regional Assistant Secretaries. Indeed, it was most 
often the case that they had long professional relations with those 
Assistant Secretaries from shared field assignments, and there was a 
mutual respect and trust built over time. Thus, it was natural that 
they were aware of the short- and medium-range policy concerns of any 
given period. They were also the custodians of the long-range public 
diplomacy effort to create better understanding by foreign audiences of 
American culture, institutions and values.
    In discussions of the foreign affairs reorganization, the 
interagency planning team was unable to reach a consensus on how to 
replace these vital functions, and the final report went forward with 
``bracketed language,'' indicating this disagreement. In the event, the 
amalgamated Area Offices were reduced in size and power. Area Directors 
were replaced by office directors within the State regional bureaus. 
Also, some public diplomacy officers, usually even more junior, were 
assigned to functional bureaus. Moreover, budget control for field 
operations was moved to the Executive Officers in the regional bureaus 
in Washington, and to State administrative officers in the field.
What Was Lost?
  <bullet> Coordination. USIA Area Directors had the power to intercede 
        with the Bureau of Educational and Cultural Affairs and the 
        Information Bureau (and to some extent with the VOA and 
        television producers) to shape products for field use and to 
        ensure that they were integrated into a well-managed public 
        diplomacy operation in the field posts. This made it possible 
        to mount a region-wide public diplomacy effort to meet emerging 
        needs.

  <bullet> Accountability. PAOs were accountable to their ambassadors, 
        of course, as they are today, but they were also accountable to 
        the Area Directors. With this arrangement, PAOs not only 
        responded to the ``brush fire'' public diplomacy issues at the 
        mission, but also to the longer range challenge of building 
        understanding and trust through exchange programs, libraries, 
        English language teaching and cultural exchanges.

  <bullet> Flexibility.  Once PAOs lost their status as representatives 
        of an independent agency, they lost their independent 
        administrative infrastructure. The idea was to eliminate 
        redundancy and save money. The result has been that PAOs have 
        become mired in the bureaucratic complexities of the 
        Department's operations, and have had to spend time with added 
        forms and reports when they should be out engaging with 
        audiences. Over the years, USIA had developed procedures, 
        including grant management and flexibility in raising money 
        from the private sector for joint programs, that took account 
        of the fact that it was a programming agency. This was new to 
        State, and the loss of these tools has hampered public 
        diplomacy operations.

    Under the current structure, which I believe to be fundamentally 
flawed, the primary purveyors of public diplomacy resources--the Under 
Secretary for Public Diplomacy and Public Affairs, the Bureau of 
Educational and Cultural Affairs, and the Office of International 
Information Programs--have no formal bureaucratic connection with the 
public diplomacy sections in our embassies. The Department's senior 
official responsible for the conduct of our public diplomacy (the Under 
Secretary) has no authority over the field operations that perform that 
mission.
    This anomalous structure runs the risk of marginalizing public 
diplomacy within State, and already has diminished its effectiveness. 
Those senior officials with responsibility for public diplomacy do not 
control field resources; those with a direct connection to the field 
resources are mid-ranking office directors, and do not have the clout 
to take bold action. The structural flaw already is manifesting itself 
in a diminished focus, uncoordinated activities, and reduced field 
resources.
    Mr. Chairman, I believe the prescription for change would include 
the following elements:
    Each regional bureau should have a Deputy Assistant Secretary (DAS) 
charged with overseeing its public diplomacy activities. Only by 
providing senior leadership will public diplomacy succeed at State.
    Establishing a DAS in each regional bureau would ensure that public 
diplomacy is actively represented in senior-level meetings and thus an 
integral component in our approach to every foreign policy issue. A 
senior officer with these responsibilities could effectively coordinate 
public diplomacy activities across the region, make the case for 
additional resources when needed, and play an active role in relevant 
personnel matters. The DAS's would coordinate closely with the Under 
Secretary for Public Diplomacy, who would have input into their annual 
personnel evaluations.
    Creating and maintaining DAS positions would be a critical first 
step in changing the Department's culture, and would send an 
unmistakable message to those who work at State: that public diplomacy 
matters, and matters enough to require senior leadership.
    Second, a formal link should exist between the regional DAS for 
Public Diplomacy, the Under Secretary for Public Diplomacy and Public 
Affairs, the Assistant Secretary for Educational and Cultural Affairs, 
and the Coordinator for International Information Programs. In USIA the 
close coordination with the Director, the Counselor and the Area 
Directors facilitated broad public diplomacy responses to any given 
challenge. At present, the only persons within the Department who have 
the authority to launch public diplomacy initiatives across regional 
bureaus are the Secretary of State and his Deputy.
A New Voice of America
    Mr. Chairman, the Voice of America has launched the Middle East 
Radio Network, which provides FM broadcasting to Arab audiences with 
substantial programming of local news and features voiced by speakers 
of the principal regional dialects, with a centrally produced world 
news program in modern standard Arabic. In my judgment as someone who 
has served in the region for substantial portions of my career, this is 
an ambitious experiment that deserves the full support of Congress.
    For too long we have clung to short wave broadcasting with a 
diminishing audience, or we have used FM signals that were too weak to 
be heard. But just as important as having the right signal is the need 
for content that speaks to the audiences we seek to reach. This 
requires the kind of research and production effort that costs money, 
but will pay great dividends. Middle East Radio Network is a very 
promising concept, and one that has the potential to play a critical 
role in our long-term public diplomacy strategy.

                                   - 

</pre></body></html>
